<html>
<title> - OVERSIGHT HEARING ON DEPARTMENT OF THE INTERIOR SPENDING AND THE PRESIDENT'S FISCAL YEAR 2015 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






DEPARTMENT OF THE INTERIOR SPENDING AND THE PRESIDENT'S FISCAL YEAR 
                         2015 BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, April 3, 2014

                               __________

                           Serial No. 113-65

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                    
                                  ___________
                     
                           U.S. GOVERNMENT PRINTING OFFICE
     87-536 PDF                WASHINGTON : 2015                     
 ________________________________________________________________________________                           
     For sale by the Superintendent of Documents, U.S. Government Printing Office
   Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  
                          
                          
                          
                          
                          
                      COMMITTEE ON NATURAL RESOURCES
                     

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------  
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 3, 2014.........................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     4
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Jewell, Hon. Sally, Secretary, Department of the Interior, 
      Accompanied by Michael L. Connor, Deputy Secretary, 
      Department of the Interior.................................     5
        Prepared statement of....................................     7
        Questions submitted for the record.......................    19

Additional Material Submitted for the Record:
    Executive Order dated May 9, 2013, ``Making Open and Machine 
      Readable the New Default for Government Information'', 
      submitted for the record by Representative Lowenthal.......    55
    Letter from the Diocese of Fresno to President Obama, 
      submitted for the record by Representative Costa...........    44
    Letter from the Members of Congress to BLM and DOE, submitted 
      for the record by Representative Lowenthal.................    51
    List of documents submitted for the record retained in the 
      Committee's official files.................................    92
                                     


 
   OVERSIGHT HEARING ON DEPARTMENT OF THE INTERIOR SPENDING AND THE 
              PRESIDENT'S FISCAL YEAR 2015 BUDGET PROPOSAL

                              ----------                              


                        Wednesday, April 3, 2014

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Gohmert, Bishop, 
Lamborn, Broun, Fleming, McClintock, Lummis, Duncan, Tipton, 
Gosar, Labrador, Flores, Smith, McAllister, DeFazio, 
Napolitano, Holt, Grijalva, Costa, Sablan, Tsongas, Pierluisi, 
Huffman, Lowenthal, Garcia, and Cartwright.
    The Chairman. The committee will come to order. We are very 
pleased today to have the Secretary of the Interior, The 
Honorable Sally Jewell, as our witness today, talking about the 
Interior Department's budget request and, I am sure, other 
matters that will come up.
    I do want to say that the Secretary has agreed to be here 
until noon today. We will not go by that clock, however. That 
clock is 55 minutes or an hour slow. So that would give her an 
extra hour, and we will not do that to her. We don't have 
special time here in this--and so, I would ask all Members, if 
they can, to keep their remarks within the 5-minute window, so 
that all Members will have an opportunity to ask whatever 
questions they have.
    At this time, I will recognize myself for my opening 
statement.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    The Chairman. I believe all of us here today understand and 
recognize the importance of natural resources to our lives and 
to our economy. Our natural resources support millions of 
American jobs throughout the country. They provide energy and 
power to our homes and our businesses. They deliver water to 
communities, and they enable the manufacturing of products that 
we enjoy. And they provide opportunities for recreation and for 
much more. Yet there is not always agreement on how best to 
manage and harness these natural resources. These differences 
and the priorities of both sides are perhaps most evident every 
year when examining this President's budget proposals.
    The United States debt is currently $17 trillion. This 
places our economy and our livelihood for future generations at 
risk. For years, Republicans have stressed the need to do more 
with less. Given this budget crisis, we need to cut wasteful 
spending, make tough choices, and prioritize. That should be 
the goal of the Interior Department and every other Federal 
department and agency. Unfortunately, with a budget proposal 
as--higher than last year's enacted levels, I am afraid the 
Interior Department's budget misses the mark, and doesn't do 
enough to prioritize and reduce spending.
    There is no better example of misplaced priorities than 
with the proposed funding for the Land and Water Conservation 
Fund. Once again, the Department's budget emphasizes Federal 
land acquisition over the proper maintenance and care of land 
it already owns. The National Park Service and the U.S. Fish 
and Wildlife Service are facing billion-dollar maintenance 
backlogs. This is where the Department, in my view, should be 
focusing resources.
    Of course, prioritizing spending is not part of the 
solution. The Department should also actively look for ways to 
generate new revenue to grow our economy. Unfortunately, many 
of the policies outlined in this budget will have the opposite 
outcome. This budget relies on new taxes, fees, and red tape 
that will have the effect of slowing economic growth.
    American energy production bears the fruit--or bears the 
brunt of this regulatory assault. U.S. energy production is the 
second-highest source of revenue to the U.S. Treasury, and that 
is the reason the administration is able to say that this 
budget would bring in more revenue than it spends. But that 
misses the point. The Obama administration, in this budget, is 
forfeiting billions of dollars in new revenue by continuing to 
stifle energy production on our Federal lands.
    Under this administration, total Federal oil production has 
declined 7.8 percent, and total Federal natural gas production 
has declined 21 percent. President Obama's offshore leasing 
plan for 2012-2017 offered the lowest number of lease sales in 
history, and keeps over 85 percent of offshore acreages 
offshore--off limits.
    Onshore, the administration has had the lowest years of 
Federal acres leased for energy production, going back to the 
1980s. This is the Obama administration's legacy, when it comes 
to Federal energy production. Now, I will acknowledge that the 
world has changed immensely over the last few years. The United 
States is becoming a global leader in energy production. But 
this is happening in spite of the administration's best efforts 
to keep our energy resources under tight lock and key. The 
administration doesn't seek to encourage new production in this 
budget. Instead, they seek to impose new taxes and fees that 
will have the opposite effect.
    Other policies being carried out by the Department will 
also negatively hurt jobs, including efforts to impose 
duplicative hydraulic fracturing regulations, the reckless and 
disaster rewrite of the 2008 Stream Buffer Zone Rule, and new 
ESA listings resulting from the closed-door settlement 
agreement in 2011. I am sure all of these topics, among others, 
will be raised during the course of today's hearing.
    And, finally, I want to remind the Secretary that this 
committee has and will continue to be ready to stand to work in 
a bipartisan fashion to responsibly manage our Federal lands. 
From issues like helium to Secure Rural Schools to more than 50 
non-controversial bills awaiting action in the Senate, I 
believe that reasonable people can disagree but, in the end, 
can reach reasonable conclusions. However, if the President 
continues to take a go-at-it-alone approach like he has been 
doing, our ability to collaborate and work with the Department, 
I think, will be sorely tested.
    So, once again, I want to thank Secretary Jewell for being 
here. And now I will recognize the distinguished Ranking 
Member.

    [The prepared statement of Mr. Hastings follows:]
  Prepared Statement of the Hon. Doc Hastings, Chairman, Committee on 
                           Natural Resources
    I believe all of us here today understand and recognize the 
importance of natural resources to our lives and economy. Our natural 
resources support millions of American jobs throughout the country, 
they provide energy to power our homes and businesses, they deliver 
water to communities, they enable the manufacturing of products, and 
they provide opportunities for recreation and much more.
    Yet there is not always agreement on how to best manage and harness 
these natural resources. These differences, and the priorities of both 
sides, are perhaps most evident every year when examining this 
President's budget proposals.
    The United States' debt is currently over $17 trillion. This places 
our economy and livelihood of future generations at risk. For years 
Republicans have stressed the need to do more with less. Given this 
budget crisis, we need to cut wasteful spending, make tough choices, 
and prioritize. That should be the goal of the Interior Department and 
every other Federal department and agency. Unfortunately, with a budget 
proposal that is higher than last year's enacted levels, I'm afraid the 
Interior Department's budget misses the mark and doesn't do enough to 
prioritize and reduce spending.
    There is no better example of misplaced priorities than with the 
proposed full funding for the Land and Water Conservation Fund. Once 
again, the Department's budget emphasizes Federal land acquisition over 
the proper maintenance and care of the land it already owns. The 
National Park Service and U.S. Fish and Wildlife Service are facing 
billion dollar maintenance backlogs; this is where the Department 
should be focusing resources.
    Of course, prioritizing spending is just part of the solution. The 
Department should also actively look for ways to generate new revenue 
and grow the economy. Unfortunately, many of the policies outlined in 
this budget will have the opposite outcome. This budget relies on new 
taxes, fees, and red-tape that will have the effect of slowing economic 
growth.
    American energy production bears the brunt of this regulatory 
assault. U.S. energy production, is the second highest source of 
revenue to the U.S. treasury--and that's the reason the administration 
is able to say that this budget would bring in more revenue than it 
spends. But that misses the point. The Obama administration in this 
budget is forfeiting billions of dollars in new revenue by continuing 
to stifle energy production on our Federal lands.
    Under this administration, total Federal oil production has 
declined 7,8 percent and total Federal natural gas production has 
declined 21 percent. President Obama's offshore leasing plan for 2012-
2017 offered the lowest number of lease sales in history and keeps over 
85 percent of offshore acreage off limits. Onshore, the administration 
has had the lowest years of Federal acres leased for energy production 
going back to the 1980s. This is the Obama administration's legacy when 
it comes to Federal energy production.
    I will acknowledge that the world has changed immensely over the 
last few years. The United States is becoming a global leader in energy 
production, but this is happening in spite of the administration's best 
efforts to keep our energy resources under tight lock and key. The 
administration doesn't seek to encourage new production in this budget, 
instead they seek to impose new taxes and fees that will have the 
opposite effect.
    Other policies being carried out by the Department will also 
negatively hurt jobs--including efforts to impose duplicative, 
hydraulic fracturing regulations, the reckless and disastrous rewrite 
of the 2008 Stream Buffer Zone Rule, and new ESA listing decisions 
resulting from close-door settlement agreements. I'm sure all of these 
topics, among others, will be raised during the course of today's 
hearing.
    Finally, I want to remind the Secretary that this committee has and 
will continue to stand ready to work in a bipartisan fashion to 
responsibly manage our Federal lands. From issues like helium and 
Secure Rural Schools, to the more than 50 non-controversial bills 
currently awaiting action in the Senate, I believe that reasonable 
people can disagree, but in the end can reach reasonable conclusions. 
However, if the President continues to take a go-at-it-alone approach, 
our ability to collaborate and work with the Department will be sorely 
tested.
    I'd like to thank Secretary Jewell for being here today and look 
forward to hearing from her.

                                 ______
                                 

    STATEMENT OF HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. I thank the Chairman. I would agree with the 
end of the Chairman's remarks about there are many challenges 
before us where we should be able to put aside differences and 
work on a bipartisan basis. Dealing with fuel reduction, the 
President has a proposal. It has also been introduced in the 
House, so that both the Interior Department and the Forest 
Service won't be forced, on an annual basis, to divert money 
from fuel reduction and other critical needs to fight current 
fires. And I would hope that the committee would take up that 
bill.
    The Chairman mentioned revenues. Of course we are the only 
Nation on earth, the only land owner on earth, that gives away 
its mineral resources for free. I am talking about the 1872 
Ulysses S. Grant Mining Law. If we were really interested in 
revenues, we ought to act like a business, and like the States, 
and like the Tribes, and like the private land owners, and 
begin to assess a reasonable royalty, and then use that income 
to deal with some of these unmet needs.
    I do find it odd, the discussion about energy production. 
Actually, we have increased--the onshore oil production, you 
know, is up on Federal lands from a little over 100 million 
barrels the year President Obama was elected to over 134 
million barrels now. So the war on fossil fuels, the war on 
coal, and all the other, you know, phantoms that this committee 
has spent endless hours pursuing are not real. And I would hope 
that we can turn more to common concerns.
    I share a concern about the deterioration of park 
infrastructure. I just brought up with the Secretary before the 
meeting from a recent visit to Grand Canyon, their water 
system, the most visited park in America, 4.4 million people a 
year, is failing frequently, is at the point of total failure. 
It needs to be replaced. They have a plan, but they don't have 
the money. And that is repeated in park after park after park.
    The Chairman referenced Land Water Conservation Fund, as 
though that money could be spent on other purposes. Well, under 
current law it can't, except for the fact that it is being 
underspent, and a massive amount of it is being diverted by the 
Appropriations Committee to who knows where or what. We don't 
know. It just--the money--we are assessing this on offshore 
drilling, it is a tax, it is supposed to be used for 
conservation purposes, and a small fraction of it, given the 
resistance of the Republican Majority to purchase inholdings 
and other things, is being used in small part, but the greatest 
part of that revenue is being diverted to other parts of the 
government.
    And that Land Water Conservation Fund is up for 
reauthorization next year. And if the Majority would like to 
engage in a meaningful discussion about reauthorization and 
whether or not some of those funds could be dedicated to our 
deteriorated park infrastructure, that is a discussion that I 
would be happy to engage in.
    So, in the interest of time, I will suspend at that point, 
and would love to hear from the Secretary.
    The Chairman. I thank the gentleman for his remarks, and I 
do want to welcome the distinguished Secretary of the Interior, 
Sally Jewell, who at times resided in my State, so I am very, 
very proud of that.
    You have a full statement that you have submitted. And I 
think the Members have that. If you could keep your oral 
remarks within 5 minutes, that would very good, but I 
understand, you know, if you have more to say, you can take 
part of the Ranking Member's time. He didn't take all of his 
time, so we will allow that to happen.
    So, with that, Madam Secretary, you are recognized. And 
welcome to the committee.

 STATEMENT OF HON. SALLY JEWELL, SECRETARY, DEPARTMENT OF THE 
 INTERIOR, ACCOMPANIED BY MICHAEL L. CONNOR, DEPUTY SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Secretary Jewell. Thank you very much--thanks very much, 
Chairman Hastings and Ranking Member DeFazio. I have a couple 
of other fellow Northwesterners in the audience. My sister and 
brother-in-law back here from Portland, Oregon, came to see 
democracy at work. So they have been enjoying my new home----
    The Chairman. Well, we very much want to welcome you to the 
committee, and thank you very much for being here.
    Secretary Jewell. Thank you. Also want to recognize my 
brand new Deputy Secretary, after a laborious process of 
getting through the Senate, Mike Connor, and a budget team 
behind me with lots and lots of numbers, in the event we need 
help.
    The big picture on this budget, it is solid, it is 
responsible, it makes smart investments in Interior's missions, 
and it is within the budget caps as agreed to in the Bipartisan 
Budget Act. Total of $11.9 billion. That is a $275 million 
increase, of which $240 million is specifically to address the 
top 1 percent of catastrophic wildfires, putting those within 
the Federal Emergency Management Disaster Relief Program, so 
that we can focus our firefighting budget on things like 
hazardous fuel removal and post-fire remediation, so we can 
bring rationality to how we manage wildfires, which are 
becoming hotter, drier, and more intense.
    I want to say that one of the most important areas of our 
budget is Indian programs, and there is a robust program for 
reimbursing Tribes for contract support costs. We also have a 
pilot program called the Tiwahe Initiative for $11.6 million. 
It addresses the inter-related problems of poverty, housing, 
violence, and substance abuse that are faced by many Indian 
communities.
    This is complemented by a proposal for education and 
economic development in Indian Country, as part of the 
President's Opportunity, Growth, and Security Initiative.
    On the Land and Water Conservation Fund, we seek to fulfill 
the intent of Congress of 49 years ago to take revenues from 
offshore oil and gas production to put into mitigating the 
impacts of that through the Land and Water Conservation Fund.
    The President's budget has $350 million in appropriated 
funds, and also seeks legislation that will bring the balance 
of $900 million to provide funding as intended for things like 
expanded access for hunting and fishing through conservation 
easements, through creating ball fields and other places for 
children to play and learn, to acquire land to reduce 
fragmentation and facilitate efficient land management, and to 
support things like protecting Civil War battlefields.
    The proposal also includes a full $900 million funding for 
the Land and Water Conservation Fund in 2016.
    In 2016 we celebrate the centennial of the National Park 
Service. There is a centennial initiative in this budget, a $40 
million increase in current appropriations, of which 10 million 
is specifically a match for private philanthropy to the parks. 
And we know that there is a lot of interest in that.
    In addition, we are proposing $1.2 billion of permanent 
funding over 3 years to support high-priority projects, enhance 
the visitor experience, and stimulate private donations. And 
there are additional funds proposed in the President's 
Opportunity, Growth, and Security Initiative.
    Next up, for the health of our economy and our public 
lands, it is critical we work now to establish meaningful and 
deep connections between young people from every background to 
nature and the outdoors, to bring the kind of experience needed 
to manage our landscapes in the future. That is another area of 
focus in our budget.
    On the energy front, contrary a bit to what you were 
suggesting, Chairman Hastings, we have a robust budget for 
energy programs: $753 million, a $41 million increase from last 
year. That is for conventional and renewable energy 
development. It is basic science and applied research to 
understand and better manage the impacts of development on 
water habitat, wildlife, and other natural resources. And we 
are taking a landscape level approach to development, working 
with industry, working with States and land managers to bring a 
really thoughtful approach that minimizes conflict.
    Next up is science. In our home State of Washington, 
Chairman Hastings, the U.S. Geological Survey has been working 
closely with the State on this horrific landslide, 
understanding what happened, learning from those experiences. 
Investments like that in science, like the $60 million increase 
proposed in the budget, will enable us to address those kinds 
of threats to the landscape, to understand things like the 
impacts of climate change or hydraulic fracturing or invasive 
species, like the Asian carp.
    Our climate science centers are developing regional drought 
impact scenarios, evaluating coastal flooding, and they are 
studying the impacts on our Nation's wildlife, habitat, and the 
economy to inform land management decisions.
    And last up I want to talk about something I know is very 
important to many Members in this room, and that is around 
water. We recognize the challenges of water supplies, 
especially during this time of extended drought in the West. I 
can't think of a better Deputy Secretary than Mike Connor, who 
is deeply engaged in these issues, to have as my right arm as 
we work through these in the coming years.
    We have added in the 2015 budget an additional $9.5 million 
for a WaterSMART program, which helps local communities respond 
to droughts, and create resilient infrastructures, and conserve 
water. The Bureau of Reclamation, along with many partners, is 
working on long-term solutions to address future water supply 
needs.
    The President also announced a $1 billion Climate 
Resilience Fund, which would support research on the projected 
impacts of climate change, helping communities become more 
resilient, and funding break-through technologies.
    So, in closing, I look forward to working with you to 
accomplish our Department's mission, and would be delighted to 
answer your questions at this time. Thank you, Mr. Chairman.

    [The prepared statement of Ms. Jewell follows:]
     Prepared Statement of Sally Jewell, Secretary of the Interior
    Mr. Chairman and members of the committee, I am pleased to present 
the 2015 President's Budget for the Department of the Interior.
    This budget is balanced and responsible and supports Interior's 
pivotal role as a driver of jobs and economic activity in communities 
across the country. It enables us to carry out core mission 
responsibilities and commitments. This budget allows Interior to uphold 
trust responsibilities to American Indians and Alaska Natives, provides 
a new approach for responsibly budgeting for wildland fire suppression 
needs, invests in climate resilience, continues smart and balanced all-
of-the-above energy development on and offshore, and bolsters our 
national parks and public lands in advance of the National Park 
Service's 100th anniversary in 2016.
    Interior's programs and activities serve as economic engines in 
communities across the Nation, contributing an estimated $371 billion 
to the economy in 2012 and supporting an estimated 2.3 million American 
jobs. Of this total, energy and mineral development on Interior-managed 
lands and offshore areas generated more than $255 billion of this 
economic activity and supported 1.3 million jobs. Recreation and 
tourism on Interior lands contributed $45 billion to the economies of 
local communities and supported nearly 372,000 jobs. Water supply, 
forage and timber activities, primarily on public lands in the West, 
contributed more than $50 billion and supported 365,000 jobs.
    The President's 2015 budget for the Department of the Interior 
totals $11.9 billion, an increase of 2.4 percent from 2014, which 
includes a cap exemption for fire emergencies. Without this exemption, 
Interior's budget totals $11.7 billion, a 0.3 percent increase, or 
nearly level with this year's funding.
    This budget features three key legislative proposals: a new 
framework to fund wildland fire suppression requirements; additional 
investment in the infrastructure and visitor experience at our National 
Parks and public lands; and full and permanent funding for the Land and 
Wildlife Conservation Fund. Each of these proposals will significantly 
enhance our ability to conserve and manage the Nation's public lands.
    The budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, to provide stable funding for fire 
suppression, while minimizing the adverse impacts of fire transfers on 
other Interior programs, and allowing Interior to reduce fire risk, 
manage landscapes more comprehensively, and increase the resiliency of 
public lands and the communities that border them. In this proposed new 
framework, $268.6 million, or 70 percent of the 10-year average for 
suppression response is funded within the discretionary spending limits 
and $240.4 million is available as an adjustment above those limits, if 
needed based on a challenging fire season. In addition, it does not 
increase overall discretionary spending, as it would reduce the ceiling 
for the existing disaster relief cap adjustment by an equivalent amount 
as is provided for wildfire suppression operations.
    In advance of the 100th anniversary of the National Park Service in 
2016, the 2015 budget proposes a comprehensive Centennial Initiative 
investment in the parks and public lands. The funding would provide 
targeted increases for a multi-year effort to recommit to the 
preservation of these special places, to invest wisely in the park 
system's most important assets, to use parks to enhance informal 
learning, engage volunteers, provide training opportunities to youth, 
and enhance the National Park Service's ability to leverage 
partnerships to accomplish its mission.
    Finally, the President's budget continues to support full, 
permanent funding for the Land and Water Conservation Fund, one of the 
Nation's most effective tools for expanding access for hunting and 
fishing, creating ball fields and other places for children to play and 
learn, protecting traditional uses such as working ranches and farms, 
acquiring inholdings to manage contiguous landscapes, and protecting 
Civil War battlefields. The 2015 budget proposes total funding of 
$900.0 million for LWCF in Interior and the U.S. Forest Service. Within 
this total, $350.0 million is requested as current funding and $550.0 
million as part of a permanent funding proposal. Starting in 2016, the 
proposal would provide $900.0 million annually in permanent funding.
    Complementing the 2015 budget request is $346.0 million identified 
for Interior programs as part of the President's Opportunity, Growth, 
and Security Initiative to spur economic progress and promote 
opportunity. If approved, these investments will enable significant 
progress to address long-term needs in the areas of national parks and 
other public lands, research and development, infrastructure and 
permitting support, climate resiliency, and education and economic 
development in Indian Country.
    The drought in California and other Western States underscores the 
importance of improving the resilience of communities to the effects of 
climate change. The President's Opportunity, Growth, and Security 
Initiative includes a $1 billion governmentwide Climate Resilience Fund 
to invest in developing more resilient communities, and finding 
solutions to climate challenges through technology development and 
applied research. This Fund includes about $240 million for Interior 
programs that invest in research and development, assist Tribes and 
local communities in planning and preparing for extreme weather 
conditions and events, and support public land managers in landscape 
and watershed planning to increase resiliency and reduce risks.
    The 2015 request sustains support for essential requirements and 
allows for targeted increases above the 2014 enacted level. Within the 
overall increase for 2015, $54.4 million covers fixed cost increases 
for such things as Federal pay and rent. Reflecting the need to 
prioritize budget resources, this request includes $413.3 million in 
proposed program reductions to offset other programmatic requirements.
    Interior programs continue to generate more revenue for the 
American people than the Department's annual current appropriation. In 
2015, Interior will generate estimated receipts of nearly $14.9 
billion, a portion of which is shared with State and local governments 
to meet a variety of needs, including school funding, infrastructure 
improvements, and water-conservation projects. Also included with this 
request are revenue and savings legislative proposals estimated to 
generate more than $2.6 billion over the next decade.
    Putting this budget in context, Interior's complex mission affects 
the lives of all Americans. Nearly every American lives within an 
hour's drive of lands or waters managed by the Interior Department. In 
2012, there were 417 million visits to Interior-managed lands. The 
Department oversees the responsible development of over 20 percent of 
U.S. energy supplies, is the largest supplier and manager of water in 
the 17 Western States, maintains relationships with 566 federally 
recognized Tribes, and provides services to more than two million 
American Indian and Alaska Native peoples.
           celebrating and enhancing america's great outdoors
    Throughout American history, the great outdoors have shaped the 
Nation's character and strengthened its economy. The 2015 budget 
requests the resources and authorities to care for our public lands and 
prepare for the future. The budget invests in efforts to upgrade and 
restore national parks and other public-lands areas, while engaging 
thousands of Americans, including youth, and veterans. The budget 
strengthens the President's commitment to the America's Great Outdoors 
initiative with a request of $5.1 billion in current funding for 
programs, including the operation of public land management units in 
BLM, NPS and FWS; the Land and Water Conservation Fund; and grants and 
technical assistance to States and others. This is an increase of 
$127.1 million compared to the 2014 enacted level.
    Coupled with these efforts is a historic commitment to America's 
natural and cultural heritage through Land and Water Conservation Fund 
programs. The budget includes a 2015 combined request of $672.3 million 
($246.0 million discretionary and $426.3 million mandatory) for 
Interior's LWCF programs that conserve lands and support outdoor 
recreation. In current funding, the request for land acquisition is 
$147.9 million, with $39.5 million identified for Collaborative 
Landscape Planning projects. A total of $98.1 million is requested in 
current funding for LWCF conservation grants, including $48.1 million 
for LWCF Stateside grants.
    I could not highlight our stewardship efforts without discussing 
the upcoming centennial of the National Park Service in 2016. Overall, 
the Centennial Initiative--including mandatory, discretionary, and 
Opportunity, Growth, and Security Initiative resources--will allow NPS 
to ensure that 1,700 (or 20 percent) of the highest priority park 
assets are restored to good condition. The effort creates thousands of 
jobs over 3 years, provides over 10,000 work and training opportunities 
to young people, and engages more than 265,000 volunteers in support of 
public lands.
    The request for the Centennial Initiative proposes a $40 million 
increase in current appropriations in 2015, plus an additional $400 
million in permanent funding each year for 3 years. That funding 
includes $100 million for a Centennial Challenge to match private 
philanthropy, $200 million for National Park Service facilities 
improvements, and $100 million for a Centennial Land Management 
Investment Fund to competitively allocate funds to meet land 
conservation and deferred maintenance needs among Interior's land-
management agencies and the U.S. Department of Agriculture's U.S. 
Forest Service. The President's Opportunity, Growth, and Security 
Initiative identifies investments of $100 million for National Park 
Service deferred maintenance and an additional $100 million for the 
Centennial Land Management Investment Fund.
                      strengthening tribal nations
    Sustaining the President's commitment to tribal sovereignty and 
self-determination and honoring Interior's trust responsibilities to 
the 566 federally recognized American Indian and Alaska Native Tribes 
and more than 2 million people served by these programs, the 2015 
budget for Indian Affairs is $2.6 billion, an increase of $33.6 million 
above the 2014 enacted level. The budget invests in: advancing nation-
to-nation relationships and tribal self-determination, supporting and 
protecting Indian families and communities, sustainable stewardship of 
energy and natural resources, and improving education in Indian 
Country.
    Recognizing this commitment to tribal self-governance and self-
determination, the budget fully funds contract support costs Tribes 
incur as managers of the programs serving Native Americans. The budget 
requests $251 million, a $4.0 million increase over the 2014 enacted 
level, to fully fund estimated contract support needs in 2015.
    Supporting families and communities, the 2015 budget launches the 
Tiwahe Initiative, with an increase of $11.6 million in social services 
and job training programs to address the interrelated problems of child 
and family welfare, poverty, violence and substance abuse in tribal 
communities. Tiwahe is the Lakota word for ``family.'' Through this 
initiative, social services and job training programs will be 
integrated and expanded to provide culturally appropriate programs to 
assist and empower families and individuals through economic 
opportunity, health promotion, family stability, and strengthened 
communities.
    Promoting public safety and tribal community resilience, the 2015 
budget request includes resources to build on BIA Law Enforcement's 
recent successes in reducing violent crime. A pilot program will be 
implemented to lower repeat incarceration rates in tribally operated 
jails on three reservations--Red Lake in Minnesota, Ute Mountain in 
Colorado, and Duck Valley in Nevada--with a goal to materially lower 
repeat incarcerations. Through an Alternatives to Incarceration 
Strategy, this pilot will seek to address underlying causes of repeat 
offenses, such as substance abuse and lack of adequate access to social 
service support, through intergovernmental and interagency 
partnerships.
    The 2015 budget request is complemented by a proposal in the 
President's Opportunity, Growth, and Security Initiative to further 
invest in economic development and education to promote strong, 
resilient tribal economies and improve educational opportunities in 
Indian Country.
                          powering our future
    As part of the President's all-of-the-above energy strategy to 
expand safe and responsible domestic energy production, the 2015 budget 
provides $753.2 million for conventional and renewable energy programs, 
an increase of $40.7 million above the 2014 enacted level. The budget 
includes measures to encourage responsible, diligent development and a 
fair return for American taxpayers.
    Funding for conventional energy and compliance activities totals 
$658.4 million, an increase of $37.5 million over the 2014 level. 
Spending from fees and permanent funding related to onshore oil and gas 
activities increase $49.1 million from the 2014 level, primarily 
reflecting a proposal to expand onshore oil and gas inspection 
activities and to offset the Bureau of Land Management's inspection 
program costs to the taxpayer with fees from industry, similar to what 
the offshore industry now pays.
    The budget includes $169.8 million for the Bureau of Ocean Energy 
Management and $204.6 million for the Bureau of Safety and 
Environmental Enforcement to support domestic energy production, 
including new leasing, strong safety oversight of offshore operations, 
enhanced environmental enforcement functions, and expanded training and 
electronic inspection capabilities.
    The 2015 budget includes $94.8 million for renewable energy 
activities, a $3.2 million increase over the 2014 level. This funding 
maintains the Department's emphasis on strategic investments to advance 
clean energy and meet the President's goal to approve 20,000 megawatts 
of renewable energy on public lands by 2020 (relative to 2009 levels).
                      engaging the next generation
    The 2015 budget supports a vision to inspire millions of young 
people to play, learn, serve and work outdoors by expanding volunteer 
and work opportunities for youth and veterans. The budget proposes 
$50.6 million for Interior youth programs, a $13.6 million or 37 
percent increase from 2014.
    A key component of the Department's efforts will be partnering with 
youth organizations through the 21st Century Conservation Service 
Corps. The proposed funding includes an increase of $8.0 million to 
expand opportunities for youth education and employment across the 
National Park Service; an additional $2.5 million for the Fish and 
Wildlife Service's Urban Wildlife Refuges Partnership; and a total of 
$4.2 million in Indian Affairs for youth programs including $2.5 
million to engage youth in natural sciences. Support for the National 
Park Service Centennial will create thousands of jobs, and engage more 
than 10,000 youth in service and training opportunities and more than 
265,000 volunteers.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2015 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid Western United States and its fragile ecosystems.
    The budget includes $66.5 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, nearly a 17 percent 
increase from 2014, to assist communities in stretching water supplies 
and improving water management. In addition to $1 billion requested for 
the Bureau of Reclamation, the budget also requests $210.4 million for 
the U.S. Geological Survey's water programs to provide scientific 
monitoring, research, and tools to support water management across the 
Nation. This funding supports the Department's goal to increase by 
840,000 acre-feet, the available water supply for agricultural, 
municipal, industrial, and environmental uses in the Western United 
States through water-conservation programs by the end of 2015.
    Interior extends this commitment to Indian Country, honoring Indian 
water settlements with investments totaling $171.9 million in 
Reclamation and Indian Affairs, for technical and legal support for 
water settlements. This includes $147.6 million for implementation of 
authorized settlements to bring reliable and potable water to Indian 
communities, more than a 9 percent increase from 2014. Among the 
investments is $81 million for the ongoing Navajo-Gallup Water Supply 
Project, which, when completed, will have the capacity to deliver clean 
running water to a potential future population of approximately 250,000 
people.
       building a landscape level understanding of our resources
    The 2015 budget fosters the sustainable stewardship of the Nation's 
lands and resources on a landscape level. Funding includes increases 
for scientific monitoring, research and tools to advance our 
understanding and ability to manage natural resources more effectively, 
while balancing important conservation goals and development 
objectives. Reflecting the President's ongoing commitment to scientific 
discovery and innovation to support decisionmaking for critical 
societal needs and a robust economy, the budget proposes $888.7 million 
for research and development activities across the Department, an 
increase of $60.4 million over 2014. This funding will increase 
understanding of natural resources and the factors impacting water 
availability, ecosystem and species resiliency, sustainable energy and 
mineral development, climate resilience, and natural hazard mitigation, 
among others.
    Complementing this budget request are two components of the 
President's Opportunity, Growth, and Security Initiative: an investment 
of $140 million for Interior research and development as part of a 
governmentwide effort to jumpstart growth spurred by scientific 
discovery; and investments to address climate resilience to better 
prepare communities and infrastructure, and enable them to build 
greater resilience in the face of a changing climate.
    In ecosystems across the Nation, Interior will continue to work 
with local communities to leverage its efforts to improve resiliency 
and achieve improved environmental and economic outcomes.
                   major changes in the 2015 request
    Bureau of Land Management--The 2015 request is $1.1 billion, a 
decrease of $5.6 million from the 2014 enacted level. The 2015 request 
assumes the use of $54.5 million in proposed offsetting fees, which 
when included provides an effective increase of $48.9 million above 
2014. The 2015 request includes $954.1 million for the Management of 
Lands and Resources account, and $25.0 million in current 
appropriations for Land Acquisition, including $2.0 million to improve 
access to public lands for hunting, fishing, and other recreation. The 
budget proposes $104.0 million for Oregon and California Grant Lands, 
which includes a $4.2 million decrease in Western Oregon Resource 
Management Planning, reflecting expected completion of six revised 
plans in June 2015.
    To advance America's Great Outdoors, the request includes $3.5 
million in program increases for recreation, cultural resources, and 
the National Landscape Conservation System to address the needs of 
recently designated units, implement travel management plans, improve 
visitor services, and address a backlog in cultural resources inventory 
and stabilization needs. The budget request also includes $4.8 million 
for youth programs, an increase of $1.3 million from 2014, to put more 
young Americans to work protecting and restoring public lands and 
cultural and historical treasures.
    The BLM continues to support the President's all-of-the-above 
energy strategy on the public lands including an initiative to 
encourage smart renewable energy development. The 2015 budget includes 
$29.2 million, essentially level with 2014, for renewable energy to 
continue to aggressively support wind, solar, and geothermal energy 
development on BLM lands. Complementing this is a $5.0 million increase 
in the Cadastral, Lands and Realty Management program for 
identification and designation of energy corridors in low conflict 
areas to site high voltage transmission lines, substations, and related 
infrastructure in an environmentally sensitive manner.
    The 2015 request for Oil and Gas Management, including both direct 
and fee-funded appropriations, totals $133.7 million, an increase of 
$20.3 million in available program funding from 2014. In 2015, the 
budget proposes to shift the cost of oil and gas inspection and 
enforcement activity from current appropriations to inspection fees 
charged to industry. The proposed inspection fees will generate and 
estimated $48.0 million, providing for a $10.0 million increase in 
BLM's inspection and enforcement capability and allowing for a net 
reduction of $38.0 million in requested BLM appropriations. The request 
for Oil and Gas programs includes increases of $5.2 million for ongoing 
rulemaking efforts and to strengthen operations at BLM units and $4.6 
million for oversight and permitting to better keep pace with industry 
demand and fully implement leasing reforms.
    In 2015, BLM will release six rapid eco-regional assessments, in 
addition to four planned for 2014. The BLM will conduct training on the 
use of the data from these assessments and will work with a number of 
Landscape Conservation Cooperatives to begin development of regional 
conservation strategies. The budget includes an increase of $5.0 
million for Resource Management Planning to implement BLM's enterprise 
geographic information system and address high priority planning. The 
2015 budget maintains a $15.0 million increase to implement sage grouse 
conservation and restoration measures to help avoid the need for a 
future listing of the species for protection under the Endangered 
Species Act.
    Other program increases include $2.8 million in the Wild Horse and 
Burro program to implement recommendations of the National Academy of 
Sciences regarding population control; and $2.8 million in Abandoned 
Mine Lands to implement remediation plan efforts at Red Devil Mine in 
Alaska. The request includes $19.0 million for the Alaska Conveyance 
program. Although a decrease of $3.1 million from 2014, this funding 
coupled with efficiencies from an improved cadastral method, plots a 
course to complete all surveys and land transfers in 10 years.
    A proposed grazing administration fee will enhance BLM's capacity 
for processing grazing permits. A fee of $1.00 per animal unit month, 
estimated to provide $6.5 million in 2015, is proposed on a pilot 
basis. This additional revenue more than offsets a decrease of $4.8 
million in appropriated funds in Rangeland Management, equating to a 
$1.7 million program increase to help address the grazing permit 
backlog.
    Bureau of Ocean Energy Management--The 2015 operating request is 
$169.8 million, including $72.4 million in current appropriations and 
$97.3 million in offsetting collections. This is a net increase of $3.4 
million in current appropriations above the 2014 enacted level.
    The 2015 budget maintains a strong offshore renewable energy 
program at essentially the 2014 level of $23.1 million for the total 
program. In 2013, BOEM held the first competitive Outer Continental 
Shelf (OCS) renewable energy lease sales, issued five other non-
competitive commercial offshore wind energy leases, and approved the 
construction and operations plan for the Cape Wind project offshore 
Massachusetts.
    Offshore conventional energy programs also remain essentially level 
with 2014, with a total of $49.6 million in 2015. In 2013, BOEM held 
three sales generating over $1.4 billion in high bids, and three 
additional lease sales are scheduled during calendar year 2014. The 
request of $65.7 million for Environmental Programs includes an 
increase of $2.5 million for work on a Programmatic Environmental 
Impact Statement for the next 5-Year Program (2017-2022) for oil and 
gas leasing on the OCS.
    Bureau of Safety and Environmental Enforcement--The 2015 budget 
request is $204.6 million, including $81.0 million in current 
appropriations and $123.6 million in offsetting collections, an 
increase of $2.0 million from 2014. The request for offsetting 
collections assumes $65.0 million from offshore oil and gas inspection 
fees. The 2015 request allows BSEE to continue to strengthen regulatory 
and oversight capability on the OCS and maintain capacity in 
regulatory, safety management, structural and technical support, and 
oil spill response prevention.
    The budget includes $189.7 million for Offshore Safety and 
Environmental Enforcement, an increase of $2.4 million. The request 
includes a program increase of $0.9 million to evaluate and test new 
technologies and update regulations to reflect improved safety and 
oversight protocols. Funding for Oil Spill Research is maintained at 
the 2014 level of $14.9 million.
    Office of Surface Mining--The 2015 budget request for the Office of 
Surface Mining is $144.8 million, a decrease of $5.3 million from the 
2014 enacted level. This includes a decrease of $13.4 million in grants 
to States and Tribes to encourage these regulatory programs to recover 
a larger portion of their costs from fees charged to the coal industry, 
and an increase of $4.0 million to provide additional technical support 
to State and tribal regulatory programs. The budget also includes an 
increase of $1.9 million for applied science to advance reclamation 
technologies. This request proposes $116.1 million for Regulation and 
Technology funding, $28.7 million for Abandoned Mine Reclamation Fund 
activities, and an additional $1.9 million in offsetting collections 
from recovered costs for services.
    U.S. Geological Survey--The USGS budget request is $1.1 billion, 
$41.3 million above the 2014 enacted level. The President's budget 
reflects the administration's commitment to investing in research and 
development to support sound decisionmaking and sustainable stewardship 
of natural resources. This includes science, monitoring, and assessment 
activities critical to understanding and managing the ecological, 
mineral, energy, and water resources which underlie the prosperity and 
well-being of the Nation. The budget includes increases for priorities 
in ecosystem restoration, climate adaptation, invasive species, 
environmental health, and earth observations. Funding provides 
increased support to enhance sustainable energy development, address 
water resource challenges, increase landscape level understanding of 
the Nation's natural resources, and the Scientists for Tomorrow youth 
initiative.
    To support sustainable management of water resources, the USGS 
budget includes increases totaling $6.4 million for WaterSMART 
programs. This includes increases for State water grants, regional 
water availability models, and the integration and dissemination of 
data through online science platforms. The budget includes increases of 
$2.4 million to support implementation of the National Groundwater 
Monitoring Network and $1.2 million for the National Streamflow 
Information Program for streamgages to strengthen the Federal backbone 
at high priority sites sensitive to drought, flooding, and potential 
climate change effects.
    To better understand and adapt to the potential impacts of a 
changing climate, the USGS budget invests in research, monitoring, and 
tools to support improved resilience of natural systems. The National 
Climate Change and Wildlife Science Center and DOI Climate Science 
Centers are funded at $35.3 million, an increase of $11.6 million from 
2014. This includes an increase of $3.0 million for grants focused on 
applied science and information needed by resource managers for 
decisionmaking at regional levels. An increase of $2.3 million will 
enhance the leveraging of these investments with other Federal climate 
science activities and make the scientific information and products 
developed through these programs available to the public in a 
centralized, web-accessed format. Program increases of $2.5 million 
will support applied science and capacity-building for tribal climate 
adaptation needs in the CSC regions, and $3.0 million will support 
additional research in drought impacts and adaptive management.
    The USGS budget invests in providing critical data and tools to 
promote understanding and managing resources on a landscape-scale. 
Program increases in the National Geospatial Program include $5.0 
million for the 3-Dimensional Elevation Program to collect Lidar data 
to enhance science and emergency response activities, resource and 
vulnerability assessments, ecosystem based management, and tools to 
inform policy and management. An increase of $1.9 million is requested 
for modernization of The National Map, which provides critical data 
about the Earth, its complex processes, and natural resources. The 2015 
budget includes a $2.0 million increase for the Big Earth Data 
initiative to improve access to and use of data from satellite, 
airborne, terrestrial, and ocean-based Earth observing systems. These 
investments will provide benefits in natural resource management and 
hazard mitigation, by improving access to critical information.
    To support the sustainable development of energy resources, the 
USGS budget includes $40.7 million for conventional and renewable 
energy programs, $8.1 million above the 2014 enacted level. A program 
increase of $1.3 million will be used to study geothermal resources and 
build on ongoing work on wind energy impacts. The request includes 
$18.6 million, $8.3 million over 2014, to support research and 
development to better understand potential impacts of energy 
development involving hydraulic fracturing. Conducted through an 
interagency collaboration with the Department of Energy and 
Environmental Protection Agency, this work addresses issues such as 
water quality and quantity, ecosystem, community, and human health 
impacts, and induced seismicity. Funding for other conventional energy 
programs, including oil, gas, and coal assessments, totals $15.6 
million.
    Supporting the sustainable management and restoration of 
ecosystems, the 2015 budget includes $162.0 million for ecosystems 
science activities, $9.2 million above the 2014 enacted level. Program 
increases include $2.0 million for research on new methods to 
eradicate, control, and manage Asian carp in the Upper Mississippi 
River Basin and prevent entry into the Great Lakes. Increases of $2.5 
million are provided for ecosystem restoration work in the Chesapeake 
Bay, California Bay-Delta, Columbia River, Everglades, and Puget Sound. 
Another $2.0 million will support the science and integration of 
ecosystems services frameworks into decisionmaking and efforts to 
assess and sustain the Nation's environmental capital. Program 
increases totaling $1.8 million will address native pollinators, brown 
treesnakes, and new and emerging invasive species of national concern.
    Supporting understanding, preparedness, and mitigation of the 
impacts of natural hazards, the budget provides $128.3 million for 
Natural Hazards activities, which is essentially level with 2014. This 
activity provides scientific information and tools to reduce potential 
fatalities, injuries, and economic loss from volcanoes, earthquakes, 
tsunamis and landslides, among others. The 2015 budget includes an 
increase of $700,000 in Earthquake Hazards for induced seismicity 
studies related to hydraulic fracturing.
    Fish and Wildlife Service--The 2015 Fish and Wildlife Service 
budget includes $1.5 billion in current appropriations, an increase of 
$48.8 million above the 2014 level. This includes America's Great 
Outdoors related increases of $71.7 million in the Resource Management 
account. Among the increases proposed are: $6.6 million to address 
increased workload in planning and consultation for energy transmission 
and other projects, $7.7 million for cooperative efforts to recover 
imperiled species, $4.0 million to support conservation of the greater 
sage grouse across 11 Western States, $2.0 million to investigate 
crimes and enforce laws that govern the Nation's wildlife trade, and 
$2.5 million to establish an Urban Wildlife Refuge Partnership program. 
This effort will encourage city dwellers to enjoy the outdoors by 
creating stepping stones of engagement to connect them to the outdoors 
on refuges and partner lands, through experiences which build on one 
another.
    Funding for FWS grant programs, with the exception of State and 
Tribal Wildlife Grants, remain level with 2014. In 2015, funding for 
State and Tribal Wildlife Grants totals $50 million. The request also 
includes $55.0 million for Land Acquisition and $15.7 million for 
Construction. In addition to direct appropriations, an estimated $1.3 
billion will be available under permanent appropriations, most of which 
will be provided directly to States for fish and wildlife restoration 
and conservation.
    The budget proposes $16.7 million, an increase of $2.5 million, for 
activities associated with energy development. Of this increase, $1.4 
million supports scientific research into the impacts of energy 
transmission and development infrastructure on wildlife and habitat. 
The research will identify potential impacts associated with the 
development of energy infrastructure and strategies to minimize the 
impacts on habitat and species. An increase of $1.1 million for the 
Ecological Services Planning and Consultation program supports 
assessments of renewable energy projects proposed for development.
    The budget request for the Resource Management account continues 
support for key programs with program increases of $65.8 million above 
2014. The request provides $252.2 million in Ecological Services to 
conserve, protect, and enhance listed and at-risk species and their 
habitat, an increase of $30.3 million. Within this request are 
increases of $4.0 million to support conservation of the greater sage 
grouse across 11 Western States and $10.5 million to implement other 
species recovery actions.
    The request includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $66.7 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and expand technical forensic expertise, with program increases 
of $2.0 million over 2014.
    The budget includes $138.9 million for Fisheries and Aquatic 
Resource Conservation, a program increase of $8.2 million. Within this 
request is $48.6 million for operation of the National Fish Hatchery 
system to address top priorities, an increase of $1.9 million for fish 
hatchery maintenance, and $4.4 million to prevent the spread of Asian 
carp in the Missouri, Ohio, upper Mississippi Rivers, and other high 
priority watersheds.
    Funding for Cooperative Landscape Conservation activity is $17.7 
million, an increase of $3.2 million, and funding for Science Support 
is $31.6 million, an increase of $14.4 million. The budget supports 
applied science directed at high impact questions to mitigate threats 
to fish and wildlife resources, including $2.5 million to address white 
nose syndrome in bats, and an increase of $1.0 million to study 
biological carbon sequestration.
    The 2015 budget proposes to eliminate the current funding 
contribution to the National Wildlife Refuge fund, a reduction of $13.2 
million below 2014. An estimated $8.0 million in permanent receipts 
collected and allocated under the program would remain available to 
counties. The budget also proposes cancellation of $1.4 million in 
prior year balances from the Landowner Incentive and Private 
Stewardship Grant programs, which have not received new budget 
authority in several years.
    National Park Service--The 2015 budget request for NPS of $2.6 
billion is $55.1 million above the 2014 enacted level.
    In 2015, a total of $2.5 billion is requested for NPS as part of 
America's Great Outdoors. This includes $2.3 billion for park 
operations, an increase of $47.1 million over 2014. Within this 
increase is $30.0 million to support the NPS Centennial Initiative. The 
Centennial increase includes $16.0 million for repair and 
rehabilitation projects to improve high priority projects throughout 
the parks, $8.0 million in competitively managed funds to support 
enhanced visitor services in the areas of interpretation and education, 
law enforcement and protection, and facility operations, $4.0 million 
for 21 CSC youth work opportunities to engage youth in service and 
conservation projects, and $2.0 million to support expanded volunteer 
opportunities at the parks. Across these Centennial increases, the 
budget provides an $8.0 million increase for youth engagement and 
employment opportunities, and continues the NPS' efforts to attract 
qualified veteran candidates to fill Federal positions. The request for 
Park Operations also includes increases of $15.7 million for increased 
fixed costs and $2.0 million to support new park units.
    Also in preparation for the Centennial anniversary of the parks, 
the 2015 request includes $10.0 million in a separate account for 
Centennial Challenge projects. This funding will provide a Federal 
match to leverage partner donations for signature projects and programs 
at the parks. This program will be instrumental in garnering partner 
support to prepare park sites across the country for the centennial and 
through the second century of the NPS.
    The 2015 request for the Historic Preservation Fund is $56.4 
million, level with 2014. Of this total, $46.9 million is requested for 
grants-in-aid to States and Territories, $9.0 million for grants-in-aid 
to Tribes, and $500,000 to be awarded competitively to address 
communities currently underrepresented on the National Register of 
Historic Places.
    The budget includes $52.0 million within the National Recreation 
and Preservation account, which includes $10.0 million for the Rivers, 
Trails, and Conservation Assistance program, essentially level with 
2014, and $1.2 million for American Battlefield Protection Program 
assistance grants, also level with 2014. The request includes a program 
reduction of $9.1 million from Heritage Partnership programs to 
encourage self-sufficiency for these non-Federal organizations.
    Programs funded out of the Land and Water Conservation Fund are a 
key component of America's Great Outdoors. The budget requests $104.0 
million for the Land Acquisition and State Assistance account, an 
increase of $5.9 million. This includes $48.1 million for the State 
Conservation Grants program, level with 2014, and $55.9 million for NPS 
Federal land acquisition, a programmatic increase of $5.8 million. Of 
this amount, $13.2 million supports Collaborative Landscape projects in 
the California Southwest Desert and areas within the National Trails 
System.
    Funding for Construction totals $138.3 million, essentially level 
with 2014. Of this amount, the budget includes $61.7 million for line-
item construction projects, a $1.1 million program increase compared to 
2014. The request includes $6.7 million to reconstruct the historic 
cave tour trails in Mammoth Cave National Park and $3.9 million to 
stabilize and repair exterior walls of the historic Alcatraz prison 
cell house at Golden Gate National Recreation Area.
    Indian Affairs--The 2015 budget includes $2.6 billion for Indian 
Affairs programs, an increase of $33.6 million from the 2014 enacted 
level. This includes an increase of $33.8 million for Operation of 
Indian Programs; and level funding of $35.7 million for Indian Land and 
Water Claim Settlements, $109.9 for Construction, and $6.7 million for 
the Indian Guaranteed Loan program.
    Within the Operation of Indian Programs, the budget includes full 
funding of $251.0 million for Contract Support Costs and the Indian 
Self-Determination Fund, an increase of $4.0 million from 2014. 
Consistent with the 2014 Operating Plan, the 2015 request provides full 
funding based on the most current estimated need. The availability of 
contract support cost funding is a key factor in tribal decisions to 
assume responsibility for operating Federal programs important to the 
furtherance of self-governance and self-determination. To further 
facilitate Tribal 638 Contracting, the budget includes an additional 
$1.2 million to increase services from the Department's Office of 
Indirect Cost Negotiations which negotiates indirect cost rates with 
non-Federal entities, including tribal governments. Consistent with 
Appropriations Committee direction and in collaboration with the Indian 
Health Service (IHS), the Department held its first formal consultation 
on March 11, 2014 with tribes to discuss long-term solutions to 
Contract Support Cost issues. The Department remains committed to 
working with IHS, tribes, and Congress to develop a long-term strategy 
for addressing this important issue.
    The 2015 budget for Indian Affairs includes an increase of $11.6 
million for the Tiwahe or ``family'' Initiative. The initiative takes a 
comprehensive and integrated approach to address the inter-related 
problems of poverty, violence, and substance abuse in Indian 
communities. The initiative builds on and expands social service, 
Indian child and family welfare, and job training programs. In 
recognition that adequate housing is essential to building stronger 
families, the budget maintains the 2014 level for the Housing 
Improvement Program. The goal of the Tiwahe Initiative is to empower 
American Indian individuals and families in health promotion and family 
stability, and to strengthen tribal communities as a whole. To better 
target funding and evaluate outcomes in meeting social service needs in 
Indian Country, the budget includes $1.0 million as part of the 
initiative.
    The budget provides strong support for the sustainable stewardship 
of land and resources in Indian Country, sustaining funding for trust 
land management and real estate services at 2014 levels and proposing 
program increases of $3.6 million for the stewardship of natural 
resources. Funding supports the development of natural resource 
science, information, and tools for application in the development and 
management of energy and minerals, water, forestry, oceans, climate 
resilience, and endangered and invasive species. Demonstrating the 
administration's commitment to resolving tribal water rights and 
ensuring that tribes have access to meet their water needs, $171.9 
million is provided across the Department for implementation of, and 
technical and legal support for, Indian water rights settlements, an 
increase of $13.8 million over 2014. A program increase of $1.0 million 
is also provided in Indian Affairs for deferred maintenance on Indian 
irrigation projects to help address drought issues in Indian Country.
    The budget supports improving educational outcomes in Indian 
Country, providing $794.4 million for the Bureau of Indian Education, 
an increase of $5.6 million from 2014. The request includes an increase 
of $500,000 for Johnson O'Malley Education Assistance Grants to support 
a new student count in 2015 and funding to address the projected 
increase in the number of eligible students. The budget includes $1.0 
million to support ongoing evaluation of the BIE school system to 
improve educational outcomes. Within education construction, an 
increase of $2.3 million supports site development at the Beatrice 
Rafferty School for which design funding was provided in 2014. The 
budget also includes $2.3 million in increases for BIE funded post-
secondary programs including $1.7 million for post-graduate 
opportunities in science fields, and $250,000 for summer pre-law 
preparatory scholarships.
    Departmental Offices and Department-wide Programs--The 2015 request 
for the Office of the Secretary is $265.3 million, an increase of $1.3 
million from the 2014 enacted level. Of this, $122.9 million is for the 
Office of Natural Resources Revenue programs, an increase of $3.5 
million, reflecting increases to strengthen production verification and 
meter inspections activities, including implementing an onshore 
production verification pilot and funding related data integration. 
Other changes include the proposed transfer of the Indian Arts and 
Crafts Board from the Office of the Secretary to the Bureau of Indian 
Affairs of $1.3 million, a decrease of $865,000 reflecting a shift from 
direct appropriations to fee for service for Indirect Cost 
Negotiations, and a program decrease of $266,000 in Valuation Services.
    The budget request for the Office of Insular Affairs is $92.2 
million, a decrease of $10.2 million from the 2014 enacted level. The 
budget includes an increase of $3.0 million to address urgent, 
immediate needs in the insular areas, and $1.8 million to improve 
safety conditions in insular school facilities. A decrease of $500,000 
reflects completion of an aerial bait system for brown treesnake 
control. Compact Impact is funded at $1.3 million, a decrease of $1.7 
million from 2014, and is supplemented by $30.0 million annually in 
permanent Compact Impact funding. Funding of $13.1 million for the 
Palau Compact Extension is not requested for 2015 as it is expected the 
Compact will be authorized and funded from permanent appropriations in 
2014.
    The Office of Inspector General request is $50.0 million, a 
decrease of $784,000 from 2014. The budget includes a decrease of $2.0 
million reflecting completion of an effort to reduce OIG's physical 
footprint. Increases of $423,000 and $355,000 are included to support 
the council of the Inspectors General on Integrity and Efficiency and 
provide additional FTE for information security audits, respectively. 
The Office of the Solicitor request is $65.8 million, equal to the 2014 
enacted level.
    The Office of the Special Trustee request is $139.0 million, 
$648,000 below the 2014 enacted level. The 2015 budget decreases 
Business Management funding by $1.6 million reflecting $922,000 in 
efficiencies from the transfer of some mailing and printing services to 
the U.S. Department of the Treasury, a reduction of $500,000 in 
litigation support, and a decrease of $200,000 in funding for the 
Office of Hearings and Appeals.
    The 2015 request for the Department-wide Wildland Fire Management 
program is $794.0 million without the proposed fire cap adjustment, and 
$1.0 billion including the adjustment. The request includes $268.6 
million for Suppression within the current budget cap, which is 70 
percent of the 10-year suppression average spending. This base level 
funding ensures the cap adjustment of $240.4 million would only be used 
for the most severe fires, since it is one percent of the fires that 
cause 30 percent of the costs. The new budget framework for Wildland 
Fire Management eliminates the need for additional funds through the 
FLAME Act. The 2015 budget includes a program increase of $34.1 million 
for Preparedness activities to enhance readiness capabilities. The 
budget includes $146.3 million for Fuels Management activities, 
formerly known as Hazardous Fuels Management. This is equal to the 2014 
enacted level with an increase of $1.3 million for fixed costs. 
Complementing this request is $30.0 million for Resilient Landscapes, a 
new component of the Wildland Fire Management program, to support 
treatments that improve the integrity and resilience of forests and 
rangelands. Resilient landscape projects will be leveraged with bureau 
efforts to reduce fire risk and improve overall resiliency. The budget 
request also includes a $2.0 million increase for the Burned Area 
Rehabilitation program to address greater post-fire rehabilitation 
needs caused by the 2012 and 2013 fire seasons.
    The 2015 request for the Natural Resource Damage Assessment and 
Restoration Fund is $7.8 million, a program increase of $1.5 million. 
The increase includes $1.0 million for a Department-wide onshore Oil 
Spill Preparedness Program, and additional resources for Restoration 
support. The budget includes $10.0 million for the Central Hazardous 
Materials Fund, an increase of $412,000 from 2014 to support additional 
cleanup work.
    The Department's 2015 request for the Working Capital Fund 
appropriation is $64.3 million, an increase of $7.3 million from the 
2014 enacted level. Within this request is $53.9 million for the 
operation and maintenance of the Financial and Business Management 
System, an increase of $1.0 million to continue support of the 
Department's Cultural and Scientific Collections Management initiative, 
a decrease of $1.0 million from the Department's Service First 
initiative, and an increase of $8.4 million to support Interior's 
Office Consolidation strategy in the DC metropolitan area.
                          mandatory proposals
    The 2015 budget includes 15 legislative proposals affecting 
spending, revenue and available budget authority, which require action 
by the Congressional Authorizing Committees. Revenue and savings 
proposals will generate more than $2.6 billion over the next decade. 
The 2015 budget includes four spending proposals with an estimated $9.9 
billion in outlays over the next decade.
    Land and Water Conservation Fund--The 2015 budget proposes $900.0 
million in current and permanent funding in 2015, and proposes 
permanent authorization of $900.0 million in mandatory funding for LWCF 
programs in the Departments of the Interior and Agriculture beginning 
in 2016. During a transition to permanent funding in 2015, the budget 
proposes $900.0 million in total LWCF programs funding, comprised of 
$550.0 million permanent and $350.0 million current funding, shared by 
Interior and Agriculture.
    Centennial Initiative--The Centennial Initiative includes a 
legislative proposal to authorize $1.2 billion in permanent funding 
over 3 years beginning in 2015 in the following areas: $300.0 million 
($100.0 million a year for 3 years) for a National Park Service 
Centennial Challenge fund to leverage private donations; $600.0 million 
($200.0 million a year for 3 years) for NPS deferred maintenance; and 
$300.0 million ($100.0 million a year for 3 years) for a multiagency 
Centennial Land Management Investment Fund to competitively award 
grants to Interior land management agencies and the U.S. Forest Service 
for deferred maintenance and conservation projects.
    Payments in Lieu of Taxes--The Agricultural Act of 2014 included a 
1-year extension of permanent PILT funding through 2014. The 2015 
budget proposes to extend authorization of the program an additional 
year through 2015, while a sustainable long-term funding solution is 
developed for the PILT Program. The PILT payments help local 
governments carry out vital services, such as firefighting and police 
protection, construction of public schools and roads, and search and 
rescue operations. The cost of a 1-year extension is estimated to be 
$442.0 million in 2015. The 2015 budget for the USDA Forest Service 
includes a proposal to reauthorize the Secure Rural Schools Program for 
a 5-year period, covering lands managed by the BLM.
    Palau Compact--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. The 2015 budget assumes authorization of 
permanent funding for the Compact occurs in 2014. The cost for this 
proposal is estimated at $178.3 million for 2015 through 2024.
    Federal Oil and Gas Reforms--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: (1) 
advancing royalty reforms, (2) encouraging diligent development of oil 
and gas leases, and (3) improving revenue collection processes. 
Collectively, these reforms will generate roughly $2.5 billion in net 
revenue to the Treasury over 10 years, of which about $1.7 billion 
would result from statutory changes. Many States will also benefit from 
higher Federal revenue sharing payments.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the fee to 35 cents a ton, the same level companies paid prior 
to the 2006 fee reduction. The additional revenue, estimated at $362 
million over 10 years, will be used to reclaim high priority abandoned 
coal mines and reduce a portion of the estimated $3.9 billion needed to 
address remaining dangerous coal AML sites nationwide.
    Discontinue AML Payments to Certified States--The budget proposes 
to discontinue unrestricted payments to States and Tribes certified for 
completing their coal reclamation work. This proposal terminates all 
such payments, with estimated savings of approximately $295 million 
over the next 10 years.
    Reclamation of Abandoned Hardrock Mines--To address the legacy of 
abandoned hardrock mines across the United States and hold the hardrock 
mining industry accountable for past mining practices, the Department 
will propose legislation to create a parallel Abandoned Mine Lands 
Program for abandoned hardrock sites. A new AML fee on hardrock 
production on both public and private lands would generate an estimated 
$1.8 billion to reclaim the highest priority hardrock abandoned sites 
on Federal, State, tribal, and private lands.
    Reform Hardrock Mining on Federal Lands--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate net revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Geothermal Energy Receipts--The Department proposes to repeal 
Section 224(b) of the Energy Policy Act of 2005. The repeal of Section 
224(b) will permanently discontinue payments to counties and restore 
the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in estimated savings of $4 million in 2015 and 
$42 million over 10 years.
    Federal Land Transaction Facilitation Act--The Department proposes 
to reauthorize this Act to allow Federal lands identified as suitable 
for disposal in recent land use plans to be sold using this authority. 
The sales revenues would continue to fund the acquisition of 
environmentally sensitive lands and administrative costs associated 
with conducting the sales.
    Federal Migratory Bird Hunting and Conservation Stamps--Federal 
Migratory Bird Hunting and Conservation Stamps, or Duck Stamps, are the 
annual Federal license required for hunting migratory waterfowl. The 
receipts generated from the sale of these $15.00 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The Department proposes legislation to increase these fees 
which have not increased since 1991, to $25.00 per stamp per year 
beginning in 2015. This increase will add an estimated $14 million for 
migratory bird conservation annually.
    Bureau of Land Management Foundation--The budget proposes 
legislation to establish a congressionally chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Recreation Fee Program--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which will expire in December 2015. The Department currently collects 
over $200 million in recreation fees annually under this authority and 
uses them to enhance the visitor experience at Interior facilities.
           fire suppression and the discretionary budget cap
    The 2015 budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, as amended, to establish a new framework 
for funding Fire Suppression Operations to provide stable funding for 
fire suppression while minimizing the adverse impacts of fire transfers 
on the budgets of other programs, as well as reduce fire risk, manage 
landscapes more comprehensively, and increase the resiliency of public 
lands and the communities that border them. Under this new framework, 
the 2015 budget request covers 70 percent of the 10-year suppression 
average within the domestic discretionary caps and a portion is funded 
in a budget cap adjustment. Extreme fires requiring emergency response, 
fires threatening urban areas, or requirements of an abnormally high 
fire season, would be permitted to be funded through the adjustment to 
discretionary spending limits. The cap adjustment does not increase 
overall current spending, as it reduces the ceiling for the existing 
disaster relief cap adjustment.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight.
    New Fee for Onshore Oil and Gas Inspections--Through appropriations 
language, the Department proposes to implement an inspection fee in 
2015 for onshore oil and gas activities subject to inspection by BLM. 
The proposed fee is expected to generate $48.0 million in 2015, $10.0 
million more than the corresponding $38.0 million reduction in 
requested appropriations, thereby expanding the capacity of BLM's oil 
and gas inspection program. The fee is similar to one already in place 
for offshore operations and will support Federal efforts to increase 
production accountability, human safety, and environmental protection.
    Grazing Administrative Fee--The 2015 budget proposes a new grazing 
administrative fee of $1 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a 3-year pilot 
basis. The provision will generate an estimated $6.5 million in 2015 to 
assist BLM in processing grazing permits.
    National Wildlife Refuge Damage Cost Recovery--The budget proposes 
appropriations language to authorize the Fish and Wildlife Service to 
pursue and retain recoveries from responsible parties, to be used to 
restore or replace damaged National Wildlife Refuge resources.
    Cost Recovery for Nontoxic Shot Approvals--The budget proposes 
appropriations language to allow the Fish and Wildlife Service to 
retain and use fees collected for the review of nontoxic shot products. 
Nontoxic shot is a substitute for lead shot, banned for waterfowl 
hunting since 1991.
                               conclusion
    Thank you for the opportunity to testify on the President's 2015 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. Thank for your continued 
interest in the Department's budget. I look forward to answering 
questions about this budget. This concludes my written statement.

                                 ______
                                 

    Questions Submitted for the Record to Sally Jewell, Secretary, 
                       Department of the Interior
                Questions Submitted by Chairman Hastings
    Question. What actions has the Department of Interior taken to 
address the ``on the ground'' problem of mussel-encrusted boats leaving 
federally managed infested water bodies?

    Answer. The U.S. Fish and Wildlife Service co-chairs the 
intergovernmental Aquatic Nuisance Species Task Force (ANSTF), which 
leads efforts to prevent the westward spread of zebra mussels and other 
aquatic nuisance species in North America, and has developed guidelines 
on approaches to minimize the potential risks of mussel-encrusted 
recreational boats that the States and other partners use.
    Through the 100th Meridian Initiative, the FWS and partners focus 
on containing the spread of invasive mussels and other aquatic nuisance 
species throughout the West through the Quagga-Zebra Mussel Action Plan 
for Western U.S. Waters, watercraft inspection training and 
certification, prevention planning, and prohibition of interstate 
transport via its injurious wildlife listing of zebra mussels. The 
ANSTF and its partners manage the ``Stop Aquatic Hitchhikers!'' 
campaign, a national outreach campaign. The campaign empowers 
recreational users with simple steps to help stop aquatic invasive 
species transport and spread.
    The FWS provided funding in 2012 for mandatory inspections and 
decontaminations and improvements to inspection and decontamination 
procedures in areas where the National Park Service has established 
mandatory inspection and cleaning of boats in marina at Lake Mead 
National Recreation Area, which includes Lakes Mead and Mohave.
    The Agency's aquatic invasive species control and management 
funding for zebra and quagga mussels is $2 million as a line item, of 
which $1 million is used to fund 42 existing State/Interstate Aquatic 
Nuisance Species Management Plans which encompass a wide variety of 
invasive species activities, with much of the western work being 
focused on zebra and quagga mussels and both voluntary and mandatory 
boat inspections by the States. The other $1 million is used to 
collaboratively work with the States, in order to increase 
effectiveness of control activities. The FWS provided funds to assist 
the NPS and State partners with their mandatory inspections and 
decontaminations, including improvements to their inspection and 
decontamination procedures.

    Question. How can the National Park System authorize boats to leave 
Lake Mead without mandatory inspection and decontamination when 
Executive Order 13112 expressly prohibits a Federal agency from 
authorizing any activities that spread invasive species?

    Answer. With nearly 6.5 million annual visitors and, in fiscal year 
2013, nearly 40,000 vessel passes sold, inspecting every boat that 
leaves Lake Mead National Recreation Area is impracticable and cost 
prohibitive, and, even if possible, it would not guarantee that no 
mussel infested boats would leave Lake Mead. In fact, on busy summer 
weekends, visitation can reach 200,000-300,000, and there are dozens of 
lake access points for Lakes Mead and Mohave, many of which do not have 
entrance stations or are unmanned.
    Lake Mead NRA is actively working to prevent the introduction and 
spread of invasive species. Current efforts include controlling and 
monitoring populations of quagga mussels and promoting public 
education. The quagga program is focused mainly on slipped and moored 
boats, which are the highest risk vector for transporting mussels from 
Lake Mead. The program provides that 72 hours prior to pulling a boat 
out of the water to leave the park, boat owners with slipped or moored 
boats must notify NRA personnel to schedule an inspection and hot-water 
wash to remove all visible quagga mussels. Boat wash facilities are 
located at all seven marinas within the park. Day use boaters are 
required to clean, drain and dry their vessels before leaving the area.
    While the NPS does not have the authority to stop vessels with 
quagga mussels that are departing Federal lands at Lake Mead NRA, all 
of the western States do have laws in place regarding the transport of 
invasive species, including quagga mussels. Lake Mead NRA has 
coordinated with the Nevada Department of Wildlife and Arizona Game and 
Fish Department to provide boat wash information to the other western 
States. The NPS continues to work with the concessioners, the States, 
boat owners, haulers, repossession companies, and contractors to ensure 
protocols are being followed and boats are being inspected and washed 
properly.

    Question. As you know, in fiscal year 2012, House Report 112-3 31 
included appropriations of $1 million for ``the implementation of 
mandatory operational inspection and decontamination stations at 
federally-managed or interjurisdictional water bodies considered to be 
of highest risk.'' However, I understand that this funding was not 
applied to inspection and decontamination stations as required by the 
House Report language. Why wasn't it, and when do you expect this 
requirement to be fulfilled?

    Answer. Zebra and quagga mussel spread in the West is a complex 
issue involving interjurisdictional waters where both State and Federal 
laws and policies apply. Many fouled vessels being intercepted in 
western States come from interjurisdictional and federally managed 
waters in the lower Colorado River. The NPS has established mandatory 
inspection and cleaning of moored boats at Lake Mead NRA, which 
includes Lakes Mead and Mohave.
    In 2012, in response to increasing pressure to make the program 
more effective, FWS, working collaboratively with the States, used 
these funds for mandatory inspections and decontaminations, and 
improvements to inspection and decontamination procedures. Discussions 
with Western Association of Fish and Wildlife Agencies, the Quagga/
Zebra Mussel Action Plan Coordination Committee, and the Western 
Regional Panel of the Aquatic Nuisance Species Task Force indicated 
support for this approach, in particular at the Lake Mead National 
Recreational Area. FWS also briefed Appropriations Committee staff 
about using FY 2012 funds to implement the priorities identified by the 
Task Force.

    Question. It has come to my attention that the Idaho State 
Department of Agriculture has been refused requests to the National 
Park Service (NPS) for copies of relevant departing boat notifications 
to the Idaho Invasive Species Program as they are filed throughout the 
year; copies of all 2007-2009 departure records of Idaho-registered 
boats and boats that listed ``Idaho'' as the destination. Why was this 
information refused, and under what authority?

    Answer. The National Park Service has worked with park 
concessioners to have them provide information on departing boats 
directly to the States of Arizona and Nevada. The State agencies have 
agreed to share this information with other western States, including 
Idaho, and have been providing this boater information for the last 2 
years. Some of the data that Idaho has requested is not available as 
Lake Mead NRA first discovered mussels in 2007 and did not have wash 
stations at that time.

    Question. Your recent letter to Secretary of State Kerry regarding 
the Columbia River Treaty indicated an interest in studying flood risk 
standards in the Columbia River Basin. Does the administration support 
increasing flood risk in the area above current levels?

    Answer. The administration's position on the U.S. Entity's regional 
recommendations concerning the future of the Columbia River Treaty 
remains under consideration.

    Question. Should States and local governments affected by ESA 
settlements (such as the mega-settlements your Department signed in 
2011) be allowed a say regarding the issuance of ESA listing deadlines 
negotiated and set by the U.S. Fish and Wildlife Service with 
nongovernmental organizations in Federal court?

    Answer. The settlement agreements committed the FWS to make the 
listing determinations required by the ESA for 251 species on a 
workable and publicly available schedule. The settlements did not 
commit the FWS to add these species to the list; rather, they committed 
the FWS to make a determination by a date certain as to whether listing 
was still warranted and, if so, to publish a proposed rule to initiate 
the rulemaking process of adding a species to the list.
              Question Submitted by Representative Garcia
    Question. I'd first like to say how much I've enjoyed working with 
you over the past year. It's great to see you again. As you know, I 
represent the Everglades--one of our country's greatest natural 
treasures. Although the administration's commitment to Everglades 
restoration has been strong, I worry that some of the larger projects 
undertaken in the Comprehensive Everglades Restoration Plan have been 
indefinitely delayed, effecting families and businesses that surround 
them. The farmers in my district have lost entire annual crop yields 
because of the high water tables and significant flooding that has 
taken place across the region. Finalizing Contract 8 and completing the 
C-111 Canal South Dade would protect our growers from facing 
significant financial risk, personal burden and a strong disadvantage 
in the international market. Madam Secretary, where are we on C-111 
South Dade and how does the Department plan to move it forward?

    Answer. On April 30, 2014, Assistant Secretary of the Army Jo Ellen 
Darcy announced the resolution of issues associated with the C-111 
Project so that the project could restart after a hiatus of 2 years. 
The issues that had delayed the project involved matters associated 
with the cost share and crediting to the local sponsor, the South 
Florida Water Management District. Now that the issues are resolved, 
the Army and the District may execute an amendment to the project 
cooperation agreement such that important work to complete the project, 
including Contract 8, may move forward.
              Questions Submitted by Representative Sablan
    Question. Submerged Lands and Co-Management Agreement--The next 
step for the administration is to complete the co-management agreement 
between the Commonwealth government and the Fish and Wildlife Service, 
so that submerged lands in the Islands Unit of the Marianas Trench 
National Monument can be handed back to the Northern Marianas. I hope 
you will put some energy into getting that agreement, because it has 
been 5 years now since the Monument was created. Secretary Jewell, 
could you give me a status report on those negotiations between the 
Fish and Wildlife Service and the Commonwealth. When can we expect an 
agreement?

    Answer. The Department has committed to early discussions of 
provisions relating to development of a coordinated-management 
agreement for the submerged lands within the Marianas Trench National 
Monument among representatives of the U.S. Fish and Wildlife Service 
(FWS), the National Oceanic and Atmospheric Administration, and the 
CNMI Governor. FWS and NOAA regional leaders met with the CNMI Governor 
and his staff on June 16th and agreed to work together toward this 
agreement and transfer. Actions to develop an Agreement for Coordinated 
Management are underway between the agencies and CNMI and continued 
discussions are scheduled.

    Question. ABC Initiative--I would like to know more about the 
President's budget, which recommends moving $1.7 million from the 
Compact Impact Discretionary funds the Office of Insular Affairs gets 
and putting that money into the ABC Initiative. We lose $1.7 million of 
compact impact money that could go directly into education and instead 
we get ``embedded teams.'' Can you help me understand what you are 
trying to do here?

    Answer. The Department is making every effort to be more efficient 
and effective in responding to the needs of U.S. territories. 
Specifically, the ABCs initiative has assessed the conditions of every 
school building in the territories, which identified $177.4 million 
deferred maintenance, $16.7 million of which is considered health and 
safety risks that must be rectified to provide a safe learning 
environment. Additional funds for the ABC initiative will be used to 
begin addressing deferred maintenance items with priority given to 
health and safety maintenance issues. By conducting the ABCs as 
regional effort through the Army Corps of Engineers, the territories 
are realizing economies of scale that could not be obtained by doing it 
individually for each territory.

    Question. Financial Management Software--About 15 years ago OIA 
provided financial management software to all of the insular areas. 
This was to improve financial management by the local governments and 
meant that OIA would be dealing with financial information in the same 
format from all areas. First, how has this project worked out? Did it 
achieve its goals? And, second, is that software ready for an update? 
If so, will OIA be assisting again?

    Answer. Prior to its dissolution, the Trust Territory of the 
Pacific Islands (TTPI) government maintained a centralized accounting 
system in Saipan for the governments of the Commonwealth of the 
Northern Mariana Islands, the Federated States of Micronesia (and its 
states), Palau, and the Marshall Islands. In approximately 1986, as the 
TTPI wound down its activities, it decentralized accounting and created 
computer centers and accounting systems in each of the islands. The 
accounting software was the same for each government and met government 
accountability standards to create financial reports that could be 
audited. The accounting system and associated software was effective in 
ensuring each government owned and was responsible for maintaining and 
upgrading its own accounting system. As noted in the question, 
technical assistance funding was requested and awarded to the FSM and 
RMI in the early 2000s to upgrade their accounting systems. This was 
accomplished under the auspices of the ``Insular Management Controls'' 
program, which was subsequently discontinued. Since that time, the 
office has not undertaken a general hardware and software upgrade on 
the scale of that previous effort.
    OIA also continues to provide financial management related support 
to the insular areas though the TAP Graduate School Contract. Each 
year, the insular areas identify financial management capacity building 
needs that they have and the Graduate School, funded through TAP, 
provides training and assistance. OIA has also supported financial 
management improvements in each area by working on providing support 
for Single Audits through OIA staff and the Graduate School Contract.

    Question. Palau Compact--When you were here last year, I asked you 
about the agreement to extend the financial terms of the Compact of 
Free Association between the United States and the Republic of Palau. I 
had hoped that with your assistance and support, we could figure out a 
way to secure passage of the agreement by Congress. Unfortunately, 
there has been little progress. The two committees of jurisdiction in 
the House and the Energy and Natural Resources Committee in the Senate 
have simply been unable to come up with a suitable offset. We are going 
to have to work harder. But we are also going to need more leadership 
and some sense of urgency from the administration. So, can you update 
us, Madam Secretary, on any administration efforts to secure passage of 
the Palau agreement?

    Answer. Approving the results of the Agreement is of critical 
importance to the national security of the United States, to our 
bilateral relationship with Palau, and to our broader strategic 
interests in the Asia Pacific region. As such, the administration 
transmitted legislation to Congress that would approve the Agreement 
and has worked with the committee to try to identify appropriate 
offsets for funding the Agreement. The administration stands ready to 
continue to work with Congress to approve this critically important 
piece of legislation.

    Question. ESA--We often hear from our Republican members that the 
Fish and Wildlife Service should concentrate more on recovering 
threatened and endangered species and less on listing them. However, 
complying with the majority's endless document requests and subpoenas 
has cost your department $1.5 million and tied up 19,000 hours of staff 
time. Do you believe these resources would be better utilized to help 
reach species recovery goals?

    Answer. With limited resources it is critically important that FWS 
focus on species recovery.

    Question. Coastal Barrier Resources System--The Department's budget 
shows a great deal of concern over the effects of climate change. I 
share those concerns. However, the budget does not dedicate any 
additional resources to remapping the Coastal Barrier Resources System, 
a project that is long overdue. Given that coastal storms and sea level 
rise are an imminent threat to private property, public infrastructure, 
and the environment, doesn't it make sense to include updating CBRS 
maps as part of your climate adaptation agenda?

    Answer. Through appropriated funding to the FWS and the Federal 
Emergency Management Agency, along with funding provided under the 
Disaster Relief Appropriations Act of 2013, the FWS is well positioned 
to provide modernized maps for the Coastal Barrier Resources System. 
The FWS, through an interagency partnership with FEMA, is conducting a 
digital conversion of the CBRS maps that is anticipated to be completed 
by 2016. Funding through the Disaster Relief Appropriations Act of 2013 
provided $5 million to comprehensively modernize maps for eight 
northeastern States by 2017, which will correct errors affecting 
property owners and facilitate increased awareness of and compliance 
with CBRA among Federal partners and other stakeholders.

    Question. Law Enforcement--The Department is requesting only very 
modest increases to its law enforcement and international affairs 
budgets at a time when global wildlife poaching and trafficking is at 
an all-time high. Is this lack of dedication consistent with the 
recommendations in the recently released National Strategy for 
Combating Wildlife trafficking?

    Answer. The Department has requested funding at a level that will 
allow FWS to make a significant contribution to the fight against 
wildlife trafficking. The Department's efforts represent the 
continuation and enhancement of work that has been underway for years. 
The request is also consistent with the National Strategy, which calls 
for marshaling and strategically using existing resources across 
executive branch agencies and departments and working in partnership 
with other nations, the nonprofit community, and the private sector.
              Question Submitted by Representative Duncan
    Question. You mentioned during the hearing that there were cases 
where chemicals used in fracking were found in ground water. Were you 
referring to proven cases where ground water was contaminated because 
of fracking, or were you referring to an instance where chemicals used 
in tracking happened to be found in water, with no clear correlation 
between the two? Do you have evidence you can share regarding what you 
have found?

    Answer. As indicated at the hearing, the Department is not aware of 
any studies that have suggested a direct link between hydraulic 
fracturing and groundwater contamination, but there have been links 
with groundwater contamination from injected fluids and documented 
cases of fluid spills on the surface contaminating groundwater. These 
types of incidents are generally reported to States or the 
Environmental Protection Agency, and news of them are often reported in 
the press. With regard to hydraulic fracturing, however, of paramount 
importance to the process is the integrity of the well bore, the well 
bore casing, and the concrete seal, which play key roles in ensuring 
groundwater is protected and fluids going into the well do not escape. 
Additionally, it is important that companies have a water management 
plan in place for fluids that flow back to the surface.
          Questions Submitted by Representative Robert Wittman
Atlantic Seismic PEIS
    Question. Do you believe that the Atlantic Seismic PEIS balances 
environmental protection, including mitigating marine mammal impact 
while promoting a better understanding of the available resources in 
the study area?

    Answer. Yes. The PEIS establishes multiple mitigation measures 
designed to protect the environment and minimize the impacts to marine 
life while setting a path forward for survey activities that will 
update nearly four-decade-old data on offshore energy resources in the 
region.

    Question. What date do you expect the Department to issue the 
Record of Decision (ROD) for Atlantic Seismic?

    Answer. Input from the public is an essential part of this process 
and the Bureau of Ocean Energy Management has experienced a high level 
of interest in the PEIS. Requests were received from several 
stakeholders, including Members of Congress, to extend the comment 
period on this document. Based on these requests, BOEM extended the 
comment period until May 7, 2014. BOEM issued its Record of Decision on 
July 18, 2014.
5-Year Plan
    Question. As the Department of Interior begins the process to 
establish the 2017-2022 5-Year Plan, will you commit to taking into 
consideration the broad bipartisan support for offshore energy 
production offshore Virginia?

    Answer. As a part of the 5-Year Program planning process, BOEM will 
consider all 26 OCS planning areas, including offshore Virginia. 
Beginning this summer, BOEM will initiate the planning process for 
developing the next 5-Year Program for 2017-2022. It is a detailed, 
carefully executed, and public process that is based on sound 
scientific analysis. A key part of safe and responsible development of 
our offshore oil and gas resources is tailoring consideration of 
leasing to specific regions and environments, engaging with States and 
local communities as well as industry, NGOs and other stakeholders, and 
addressing potential conflicts.
National Fish Hatchery System
    Question. The Fish & Wildlife Service report release in 2013 valued 
its fisheries program at $3.6 billion and supporting 68,000 jobs. Do 
you view the fisheries program as an important component of the 
Presidents Great Outdoors Program?

    Answer. Yes, the FWS Fish and Aquatic Conservation Program is an 
important component of the President's America's Great Outdoor 
Initiative, which has a goal to achieve lasting conservation of the 
outdoor spaces that power our Nation's economy, shape our culture, and 
build our outdoor traditions. In FY 2012, National Fish Hatchery System 
facilities distributed or held in refugia 113 species of fish. Many 
species that are produced to meet goals for the recovery of threatened 
and endangered species or for the restoration of imperiled species also 
have recreational value.
    In addition to culturing aquatic species, many of our hatcheries 
provide outdoor education programs and other opportunities such as 
recreational fishing, nature trails, bird watching, and camping.
    Consistent with the intent of the Initiative, volunteers are 
critical to the success of the hatchery system. Whether they are giving 
back to their communities, being good stewards of the land, setting 
examples for future generations, or sharing their wealth of knowledge, 
volunteers are critical to the operation of national fish hatcheries 
across the country. In FY 2013, National Fish Hatchery System 
facilities recorded 98,265 hours by adult volunteers valued at 
$2,215,876. The National Fish Hatchery System also recorded 12,618 
hours by youth volunteers.

    Question. Has Interior considered the overall economic impacts that 
closing hatcheries would have on the recreational fishing community, 
small businesses and localities?

    Answer. In the fall of 2012, the FWS launched a comprehensive 
review of the 70 fish and aquatic species propagation hatcheries to 
ensure the NFHS will be positioned to address high priority aquatic 
resource needs now and into the future while working within its budget 
limitations. The National Fish Hatchery System: Strategic Hatchery and 
Workforce Planning Report is the product of that comprehensive review. 
Although economic impacts were not among the criteria used to evaluate 
the propagation programs, FWS understands the potential impact of 
reductions in fish production programs on local communities. The FWS 
announced in November 2013 that it does not intend to close any 
hatcheries in the current fiscal year. Operations throughout the 
Service's National Fish Hatchery System have been greatly impacted by 
budget reductions including sequestration, as well as increasing 
operations costs.
    The Report is intended to inform the discussion on the future of 
the NFHS to chart a course for the system that is financially 
sustainable, addresses today's most pressing conservation challenges, 
and continues to serve the public interest.

    Question. Do you believe Interior is complying with the mitigation 
hatchery responsibilities established by Congress and will you be 
requesting the full amount of funding from the water resource agencies 
for mitigation hatcheries?

    Answer. Over the past decade, FWS has been working to intensify 
efforts to obtain reimbursement for fish mitigation production from 
responsible parties. Mitigation for Federal water projects is still an 
important goal of the NFHS and the fish supplied by these hatcheries 
provide important economic opportunities to the States and the 
recreational community in general. We support the continuation of 
mitigation work on a reimbursable basis.
            Questions Submitted by Representative Napolitano
    Question. Water Challenges (water shortages and water use 
conflicts) is one of the Department's initiatives. How will the 
proposed spending for basic data gathering (USGS streamgaging and 
ground water monitoring specifically) impact DOI ability's to fulfill 
its statutory mandates, affect decision support, and impact States and 
other non-Federal partners?

    Answer. The FY 2015 budget request reflects a careful 
prioritization of science investments to support streamgages through 
the National Streamflow Information Program and enhance groundwater 
monitoring among other activities under the USGS Water Resources 
Mission Area. On the heels of the 125th anniversary of the installation 
of the first streamgage in Embudo, New Mexico, the Department 
recognizes that streamgages are critical to forecast floods and 
droughts, manage flood flows, deliver water supplies, establish water 
rights, protect threatened aquatic habitats, and for recreation. More 
than 247 million daily observations from 26,000 streamgages are 
currently available through the USGS National Water Information System. 
The USGS operates 4,461 stations with more than 30 years of record, and 
8,024 gages comprise the U.S. streamgage network today.
    Groundwater monitoring is similarly important. Groundwater is a 
critical component of our Nation's drinking water, agriculture, 
industry, and aquatic ecosystems, yet as a Nation we have a poor handle 
on the quantity, quality, and location of groundwater. Funding in the 
FY 2015 budget request supports USGS activities associated with the 
SECURE Water Act (P.L. 111-11), which will allow USGS to continue the 
path forward to achieving a national water availability and use 
assessment and to advancing USGS efforts on groundwater availability, 
initiating a gradual implementation of the National Groundwater 
Monitoring Network, and advancing the national assessment of brackish 
aquifers. The budget also proposes $2.0 million for a State water-use 
grant program. The grant program would provide the necessary framework, 
resources and incentives for States to provide water supply and use 
information in a consistent manner, which is essential for eventually 
providing a uniform, trustworthy national assessment of water 
availability and use.

    Question. Part of Reclamation's core mission is to provide for 
sustainability and recycling. WaterSMART and Title XVI funding 
continues to fall short to be ahead of the backlog of authorized 
projects.
    a. Can you describe the constraints and reasoning why the $21.5 
million budget does not meet the $350 million need when these projects 
have been successful? And produced thousands of AF of water.

    Answer. The Department recognizes that water reuse is an essential 
tool in stretching the limited water supplies in the West. The 
Department's FY 2015 budget request for this program reflects the need 
to prioritize limited budget resources while enabling the significant 
non-Federal cost share that continues to make the Title XVI program 
successful. Water reuse projects continue to be a valuable tool to 
address current and future water resource challenges posed by drought 
and the competing demand for scarce water resources.

    Question. What is being done to address the costs of not having any 
water vs. water delivery with quagga mussels? How are you managing the 
research funding on invasive species? Who is leading the R/D?

    Answer. We recognize the threat posed by invasive mussels in the 
West, with impacts at Reclamation dams, powerplants, and facilities of 
other water providers, as well as at recreational sites. Operations and 
maintenance costs at facilities have reflected these impacts, but to 
date mussels have not prevented the delivery of Reclamation water or 
power. The FY 2015 budget request, under the Bureau of Reclamation's 
Science and Technology program, prioritizes research and development 
aimed at mitigating the impacts of invasive zebra and quagga mussels on 
water and hydropower facilities. The S&T Program will continue to help 
develop and test technologies to manage zebra and quagga mussels with 
testing of pulse-pressure technologies, UV lamps and high-capacity 
filters, and coatings materials that will resist mussel colonization.
    Reclamation's collaboration with industry recently led to the 
commercialization of a natural molluscicide that can eradicate mussel 
colonies within piped systems in dams and powerplants. The S&T Program 
will continue developing and testing new technologies in collaboration 
with other agencies, and partner with U.S. industry representatives by 
utilizing technology transfer authorities. Field tests of multiple 
promising technologies are underway.

    Question. The White House Council on Native American Affairs is 
advancing five priorities including ``economic development, justice 
systems, education, natural resources and healthcare including health 
disparity.'' Substance abuse is included but mental health is not 
defined in ``social services.'' There is a lack of services for 
adequate mental health care and suicide prevention. How is this being 
accounted for through the Council and the Department? Specifically, how 
are you addressing the serious mental health issues? Can you speak to 
the specifics of the program?

    Answer. At the Department, the Bureau of Indian Affairs' programs 
assist tribal communities in developing their natural and socio-
economic infrastructures. The FY 2015 Budget Request proposes the 
Tiwahe Initiative, which will expand BIA's capacity in current programs 
that address Indian children and family issues and job training needs. 
It will provide culturally-appropriate services with a goal toward 
empowering individuals and families through health promotion, family 
stability, and strengthening tribal communities.
    American Indian and Alaska Native youth suicide is a serious 
problem in Indian Country, and child abuse and neglect, persistent 
problems among Indian populations in the United States, has had 
devastating impacts. Children living in poverty are more likely to be 
exposed to violence and psychological trauma, and Indian communities 
are plagued by high rates of poverty, substance abuse, suicide, and 
violent crime.
    The Bureau of Indian Education provides the Department's most 
direct action on youth suicide by providing technical assistance and 
monitoring though BIE regional School Safety Specialists to ensure 
schools are compliant with intervention strategies and reporting 
protocols to further ensure student safety. BIE also partners with 
other Federal agencies, including the Substance Abuse and Mental Health 
Services Administration (SAMHSA) and the Indian Health Service (IHS) in 
the Department of Health and Human Services and the Department of 
Education, enabling it to address the unique needs of its students in 
the areas of behavioral health and suicide prevention.
    The BIE has in place a Suicide Prevention, Early Intervention, and 
Postvention Services Policy that promotes suicide prevention and early 
intervention in BIE schools. The policy applies to all BIE-operated 
elementary and secondary schools and residential facilities, and it 
mandates specific actions in all schools, dormitories and the two post-
secondary institutions; and encourages tribally operated schools to 
develop similar policies. These actions create a safety net for 
students who are at risk of suicide, and promote proactive involvement 
of school personnel and communities in intervention, prevention and 
postvention activities. In addition, the Office of Justice Services 
(OJS) in BIA has partnered with a number of health and social service 
programs to assist in educating and presenting at schools, seminars, 
workshops, and community events on suicide prevention.

    Question. Reclamation's budget for authorized Native American water 
settlements in 2015 is $112 million, an increase of $12.3 million over 
2014 enacted. What is the status and number of current pending water 
settlements? And how is the President's Opportunity and Security 
Initiative investing in finding solutions to climate challenges through 
technology development and R/D?

    Answer. As the Department has indicated, negotiating settlements of 
Indian water rights claims has been and remains a high priority for 
this administration. Such settlements help ensure that Indian people 
have safe, reliable water supplies and are also in keeping with the 
United States' trust responsibility to tribes. The Department currently 
has 38 Federal Teams in the field working on Indian water settlements 
in 11 western States with 21 teams involved in implementation of 
enacted settlements and the remainder involved in negotiations or 
assessments of possible settlements. Of these, three settlements have 
Federal legislation pending at various stages in the legislative 
process, with several more expected in the next few years.
    The President's Opportunity, Growth and Security Initiative 
supports investing in research and unlocking data and information to 
better understand the projected impacts of climate change and how to 
better prepare our communities and infrastructure; helping communities 
plan and prepare for the impacts of climate change and encouraging 
local measures to reduce future risk; and funding breakthrough 
technologies that will make us more resilient in the face of a changing 
climate.

    Question. In 2009, not one commercial solar energy project was in 
development on Federal land. In the past 5 years, the Department has 
authorized 50 renewable energy projects in solar, wind and geothermal. 
Fully developed, these projects will provide nearly 14,000 megawatts of 
power--enough to power over 4.8 million homes and support over 20,000 
construction and operations jobs. Can you discuss the development goals 
for 2015 on Federal land and Native American land?

    Answer. The BLM in 2015 will be well on its way toward achieving 
the President's goal of authorizing 20 gigawatts (20,000 megawatts) of 
renewable energy from public lands by 2020.

    Question. On Employment and Training--Would like to thank the 
Secretary for supporting public-private partnerships with $1 million 
toward a goal of $20 million for education and employment for youth and 
veterans. It is a start but not enough and I would stress how important 
it is to continue to educate our youth including our university 
students in water technology, Ag. Can you discuss some of the training 
for employment?

    Answer. Engaging the American public, particularly young people, is 
a key priority. In 2009, the Department established a comprehensive 
youth program with strong performance goals to engage, educate and 
employ youth. Since then it has become one of the largest national 
youth programs in the country, providing employment opportunities for 
over 93,000 young people and veterans through direct hires and 
partnerships on public lands. Secretary Jewell challenged the 
Department to expand these efforts in new ways including new 
applications and other technological tools, an emphasis on urban 
centers, and incorporating youth activities into the core operations of 
the Department's bureaus. By September 30, 2015, the Department will 
provide 40,000 work and training opportunities over fiscal years 2014 
and 2015 to young people (ages 15-25) to support the Department's 
mission.
    The Department has also been active in establishing long-term 
relationships with Federal agencies, schools, veteran's organizations 
and military organizations that allow us to attract and retain our 
Nation's veterans. The Department was the first Federal agency to sign 
an agreement with the Office of the Chief, Army Reserve, that focused 
on connecting reserve service members to employment opportunities; 
connecting military youth and families to America's great outdoors, 
history and culture; and expanding recreational opportunities for 
community-based wounded warrior programs.

    Question. Energy projects could be impacted by the permitting 
processes. As the debate on energy development and climate change 
continues, how would you weigh greater industrial safety, permitting, 
and proper oversight of environmental risks and potential irreversible 
long-term effects to our ecosystems?

    Answer. Facilitating efficient, responsible development of energy 
resources while reducing carbon pollution are integral parts of the 
administration's broad energy strategy.
    Renewable energy development is an important component of that 
strategy. The President's Climate Action Plan set an ambitious target 
of doubling renewable electricity generation by 2020. In support of 
that goal, since 2009, the BLM has approved 52 renewable energy 
projects on public lands including 29 utility-scale solar facilities, 
11 wind farms, and 12 geothermal plants. If built as approved, these 
projects could provide more than 14,000 megawatts in energy capacity to 
power 4.8 million homes.
    Development of conventional energy resources from public lands also 
continues to play a role in meeting our Nation's growing energy needs, 
and the BLM is working to achieve a responsible balance between energy 
production and environmental protection. For example, the BLM has begun 
outreach with tribal and State governments to determine if additional 
regulations could be developed that would establish standards to 
further limit the waste of vented and flared gas. The Department also 
implements the President's Climate Action Plan goals to reduce the 
Nation's carbon footprint, and is taking actions such as exploring ways 
to reduce methane emissions from mining operations on public lands. The 
Department will continue working to ensure efficient and responsible 
development.

    Question. The Bureau of Land Management (BLM) is leading the Nation 
with active solar, wind and geothermal energy programs on BLM public 
lands. What challenges is the Department facing when implementing these 
programs? How many jobs have been produced in renewables? And how is 
enforcement of proper assessments and permitting in continuous land 
operations important to prevent irreversible deterioration?

    Answer. As part of its efforts to increase the production of 
renewable energy on public lands, the administration has been effective 
in managing development challenges by working closely with project 
applicants to ensure projects are designed to give proper consideration 
to resource and environmental concerns. This authorizing process also 
places a significant emphasis on early coordination among stakeholders. 
The administration's consideration of each proposed project is informed 
by public participation and environmental analyses required under the 
National Environmental Policy Act and other applicable Federal and 
State environmental laws.
    This inclusive and efficient authorization process has played an 
important role in developing renewable energy projects that help 
support thousands of jobs in local communities across the West. In 
fiscal year 2012, we estimate that geothermal, wind, and solar energy 
activities on BLM-managed public lands supported more than 11,000 jobs.
    The BLM participates in the interagency Rapid Response Team for 
Transmission (RRTT), which is led by the White House Council on 
Environmental Quality. The RRTT works to improve transmission siting, 
permitting, and review processes, and is currently developing a pre-
application process for high-voltage transmission line applications in 
order to improve interagency and intergovernmental coordination with a 
focus on helping project proponents and Federal agencies identify and 
avoid potential siting challenges and issues. BLM remains focused on 
approving critical renewable energy projects, as well as transmission 
projects, on public lands in an accelerated and environmentally 
responsible manner.
            Questions Submitted by Representative Lowenthal
    Question. Last year I asked the Interior Department a question for 
the record about how the BLM would ensure that FracFocus fixed its data 
search, sort, and aggregation tools. Interior replied that ``FracFocus 
has evolved into a standardized, easily accessible repository of public 
information.'' Nothing could be further from the truth.
    Madam Secretary, Executive Order 13642 requires that ``the default 
state of new and modernized Government information resources shall be 
open and machine readable'' and that the Federal Government is ``to 
ensure that data are released to the public in ways that make the data 
easy to find, accessible, and usable.'' FracFocus contains error-prone 
data that can only be downloaded tediously, one well at a time, in PDF 
format. Not in aggregate or machine-readable format as the Executive 
Order calls for.
    Madam Secretary, do you agree that FracFocus currently does not 
comply with the Open Data Executive Order?

    Answer. The Bureau of Land Management is considering in its revised 
proposed regulation the use of FracFocus for disclosure of the 
additives in hydraulic fracturing fluids. The Ground Water Protection 
Council, which is responsible for the development of FracFocus, has had 
a successful track record developing a similar risk-based data 
management system that is relied on by other regulatory agencies, 
including the Department of Energy, and others. BLM will be maintaining 
its own well records and will be working to comply with all statutes 
and executive orders concerning its records.
    Notably, the Secretary of Energy Advisory Board Task Force recently 
issued its Report on FracFocus 2.0, which contains recommendations to 
improve the effectiveness of the disclosure of chemical additives and 
improve transparency for regulators, operating companies, and the 
public. The BLM is continuing its dialog with the GWPC and expects 
further progress to ensure the site meets key elements addressed by the 
Task Force report, which will enhance the transparency of chemical 
disclosure data.

    Question. Is the BLM working on an agreement with the Ground Water 
Protection Council to ensure that future versions of FracFocus are an 
appropriate regulatory tool for the BLM?

    Answer. As noted in response to the previous question, as the BLM 
moves forward with finalizing its revised proposed hydraulic fracturing 
rule it is continuing dialog with the GWPC and expects site 
improvements that will further enhance the transparency and use of 
hydraulic fracturing chemical disclosure data.

    Question. Last year I asked Interior the following question for the 
record: How will BLM guarantee that all data submitted to FracFocus 
will exist in perpetuity if it is not a Federal Web site, and is partly 
funded by the oil and gas industry? Your answer was that in addition to 
data being housed in the FracFocus database, ``BLM would also maintain 
permanent possession of a set of this data.''
    Madam Secretary, can you confirm to us that BLM will keep a 
separate database of all the information that is submitted to 
FracFocus, so that the public will not have to worry about the loss of 
this information?

    Answer. While BLM continues to work out the details of the process, 
data submitted to FracFocus will be periodically transmitted to the BLM 
for archival purposes and potential hosting if it became necessary.
              Questions Submitted by Representative Daines
    Thank you for testifying before the House Natural Resources 
Committee on April 3, 2014. After sitting in the hearing for a 
significant period of time, I am disappointed I did not get the 
opportunity to ask you a question as I was detained voting during 
consideration of a piece of legislation in the House Homeland Security 
Committee. I would appreciate a timely response to this issue as it is 
a very important issue to Montana.
    As you are aware, three school districts in Montana (Gardiner and 
West Yellowstone) near Yellowstone National Park were recently notified 
by the Department of the Interior that they are required to repay 
millions of dollars in Federal payments due to an oversight by current 
and past administrations. Now that this error has been discovered, the 
Department is attempting to have these three school districts repay all 
of the funds received since 1977, amounting to an estimated $8-10 
million.
    This hardly seems fair given that it took the Department 37 years 
to determine that these overpayments had occurred.
    Now, it goes without saying that accountability and oversight are 
lacking in the Federal Government--especially when it comes to managing 
our Nation's budget. But what's equally disconcerting, and more 
outrageous to the people of Montana, is that you have asked small rural 
school districts to pay for the Federal Government's mistakes. Asking 
them to come up with millions of dollars that the Department of 
Interior has failed to account for is not only unfair, it demonstrates 
once again that the Federal Government is unwilling to take 
accountability for its mistakes.

    Question. Can you shed some light on the current state of play 
between the Department and the school districts?

    Answer. While the payments were made in error, Federal debt 
collection law requires the Federal Government to seek recovery of the 
overpayments from the school districts. As the Department has indicated 
to the delegation, we are committed to working with the school 
districts to bring about a reasonable resolution to this issue. 
Currently, the Department is reviewing its options for potential 
resolution of the matter, and the NPS is in the process of validating 
the repayment figure to ensure the accuracy of the final dollar amount, 
which is estimated at approximately $9 million.

    Question. It is my understanding that this debt could be waived. 
Additionally, there may be a legislative solution. If so, why is the 
Department of the Interior pursuing the debt repayment in the first 
place instead of working to find a solution?

    Answer. As noted in response to the previous question, Federal law 
requires that the Government seek recovery of these overpayments from 
the school districts. However, the Department is currently reviewing 
options which might be pursued to resolve this issue. The Department is 
committed to bringing about a resolution of this issue.

    Question. Do you have a precise number for the overpayment amount? 
Our school districts need some certainty. Can you provide those details 
to my office within the next 7 days?

    Answer. Because the Department is currently validating the 
repayment figure, there is not yet a final repayment amount. We expect 
to have more information available in the near future, but as indicated 
in a previous response the total amount is estimated at $9 million.
              Questions Submitted by Representative Mullin
    Question. As you know last Thursday your Fish and Wildlife Service 
decided to list the Lesser Prairie Chicken as a threatened Species 
under the Endangered Species Act.
    This decision was roundly met with enormous disappointment among 
the five State wildlife directors and the great number of entities in 
the private sector that joined together to create an unprecedented 
Range Wide Plan to conserve the Lesser Prairie Chicken and avoid such a 
listing.
    Indeed, the Range Wide Plan--when added to the several other 
Federal, State and private conservation programs--would have protected 
around 13 million acres of Lesser Prairie Chicken habitat throughout 
the five States, and amassed over $21 million in funding from the 
private sector to pay for conservation activities for the Lesser 
Prairie Chicken.
    But instead of embracing the Range Wide Plan as the new and 
effective way to administer the Endangered Species Act in this era 
where the Service lacks the financial resources and the personnel to 
conduct any conservation for these species, the Fish and Wildlife 
Service effectively booted away that opportunity to do something bold 
and creative, and instead sent the signal to all who might listen that 
the Service will not recognize and reward such new thinking.
    I cannot imagine that anyone will invest the time and effort to 
craft a multi-State Range Wide conservation program now that they 
clearly see that FWS does not properly credit them by not listing the 
species while the conservation program is given a fair opportunity to 
demonstrate the positive conservation it can achieve.
    Secretary Jewell, do you have money in your current Fish and 
Wildlife Service budget to dedicate to conservation activities for the 
Lesser Prairie Chicken?

    a. Do you have Service personnel available to do the massive on the 
ground conservation activities that the State wildlife agencies and 
their private sector partners are prepared to dedicate themselves to in 
conserving this species?

    Answer. While State conservation agencies have taken a primary role 
in implementing conservation actions for the lesser prairie-chicken, as 
discussed below several private conservation organizations and Federal 
agencies, including the Fish and Wildlife Service, have played 
important roles in this effort. FWS has provided both technical and 
financial assistance through its programs and activities, such as the 
Partners for Fish and Wildlife Program, and through Habitat 
Conservation Planning and Candidate Conservation Agreements. FWS also 
works very closely with its partners and, in recognition of the 
significant and ongoing efforts of States and landowners to conserve 
the lesser prairie-chicken, the use of a special 4(d) rule will allow 
the five range States to continue to manage conservation efforts for 
the species and avoid further regulation of activities such as oil and 
gas development and utility line maintenance that are covered under the 
Western Association of Fish and Wildlife Agencies' (WAFWA) range-wide 
conservation plan.
    The FWS decision to list the lesser prairie-chicken as a threatened 
species was accompanied by a creative and unprecedented use of the 
authority conferred by Section 4(d) of the Endangered Species Act to 
ensure that the States would be able to continue to implement their 
range-wide plan even after a Federal listing. As a result, more land 
has been enrolled in the range-wide plan in the short period since the 
Federal listing than had been enrolled prior to the Federal listing. 
Earlier this summer the Western Association of Fish and Wildlife 
Agencies indicated that its focus is now to continue implementing the 
plan, recover the species, and facilitate the bird's removal from the 
list of threatened species; FWS has that same focus and will continue 
to work with the States toward that objective.

    b. Since you have little to offer beyond what the States and others 
have already contributed, why didn't you decide not to list this 
species while those unprecedented efforts of others had the chance to 
work?

    Answer. Threats to the lesser-prairie chicken, including drought 
and habitat fragmentation, continue to impact the species and are 
expected to continue into the future. Pursuant to the Endangered 
Species Act, after reviewing the best available science and the on-the-
ground conservation efforts, the Service determined that the lesser 
prairie-chicken is likely to become endangered in the foreseeable 
future and should therefore be listed as a threatened species.
    Over the last decade, a number of significant, on-the-ground 
conservation programs have been implemented across the birds' five-
State range (Texas, New Mexico, Oklahoma, Kansas and Colorado) to 
conserve and restore its habitat and improve the status of the lesser 
prairie-chicken. Key programs such as the WAFWA range-wide plan, USDA's 
NRCS LPCI, USDA's FSA Conservation Reserve Program, the Bureau of Land 
Management's New Mexico Candidate Conservation Agreement, the Service's 
Partners for Fish and Wildlife Program and Candidate Conservation 
Agreements with Assurances in Oklahoma, Texas and New Mexico, are 
engaging State and Federal agencies, landowners and industry in efforts 
to conserve the lesser prairie-chicken and restore its habitat. 
Collectively, these various efforts are quite similar to a recovery 
plan, something that the Service normally prepares years after a 
species' listing. This early identification of a strategy to recover 
the lesser prairie-chicken is likely to speed its eventual delisting. 
This special rule encourages managers and operators to implement 
protective practices on their land and recognizes landowners' work to 
protect the species.

    Question. Secretary, the Surface Mining Control and Reclamation Act 
(SMCRA) provides that once a State develops procedures that are as 
effective as the Feds, the Interior Department may grant ``primacy'' to 
that State. This includes my State of Oklahoma. Once a State achieves 
primacy, it has exclusive jurisdiction to regulate coal mining.
    In 2010, the Office of Surface Mining (OSM) unilaterally 
countermanded Secretarial policy and regulation with a bureau-level 
policy, providing no analysis, rationale or basis for the change 
whatsoever.
    The new policy directs enforcement against a mine operator whenever 
OSM disagrees with a permitting decision made by a State, essentially 
rendering a State issued permit meaningless.
    Can you provide any rationale for OSM to issue a violation against 
an operator simply because it believes the State violated the law? Can 
you provide any legal or equitable basis for such a policy?

    Answer. SMCRA's Federal regulations on inspection and monitoring 
and enforcement apply to all types of SMCRA violations, including 
violations of performance standards or permit conditions and violations 
of permitting requirements.
    SMCRA authorizes OSMRE to cite violations in a primacy State 
whenever the bureau finds a condition that presents an imminent danger 
to the health and safety of the public or to the environment. SMCRA 
also authorizes OSMRE to cite non-imminent harm conditions if, after 
being notified of the existence of a violation, a State regulatory 
authority fails to take appropriate action to cause the violation to be 
abated and fails to give good cause for taking no abatement action.
    OSMRE does not take enforcement action against an operator unless 
the operator has violated a performance standard, permit condition, or 
permitting requirement under SMCRA.

    Question. To compound the problems, OSM is now applying this new 
policy retroactively. In my State of Oklahoma, there have been three 
separate violations recently issued on three permits, with a promise of 
more to come.
    These permits were issued years ago. They have been mined and 
reclaimed according to the approved plans in the permits. OSM now 
believes that the reclamation does not confirm to OSM's ``emerging'' 
views of what constitutes land reclamation to approximate original 
contours, and is asking the operator to spend tens of millions of 
dollars to completely redo the reclamation. Madame Secretary as a 
former business owner, I'm sure you understand the critical importance 
of any business being able to rely on the terms and conditions of a 
permit once issued.
    How can you explain why this action is being applied retroactively 
to permits in Oklahoma that are already substantially reclaimed?

    Answer. Both SMCRA and its equivalent in Oklahoma law require that 
all land affected by surface coal mining operations be returned to its 
Approximate Original Contour (AOC) as it existed prior to mining. OSMRE 
cited an operator for 3 consecutive years, beginning in 2011, for 
violating Oklahoma's performance standards under SMCRA pertaining to 
backfilling and grading. OSMRE cited this same mining operator for 
similar violations in 1994, which was upheld on appeal to the Interior 
Board of Land Appeals. OSMRE's position on AOC has not changed since 
the initial 1994 violations.
             Questions Submitted by Representative Grijalva
Wild Horse/Burro
    Question. Secretary Jewell, in your statement you mentioned that 
BLM is expected to receive more fees and revenues from oil and gas 
extraction as well as grazing permits. This means not just more 
expansion, but also exploitation on public lands. What role have you 
taken in balancing the impact those activities may have on public 
lands, particularly on endangered species and wild horses?

    Answer. Balancing multiple uses, including statutory obligations to 
protect specific resources, is at the core of the land use planning 
process, and ensuring balance was a central premise of the leasing 
reforms the Department implemented in 2010 to establish orderly, open, 
and consistent environmental processes for oil and gas resource 
development on public lands. The oil and gas leasing reforms ensure 
needed balance with up-front natural resource analysis added to the 
development process. Potential lease sales are fully coordinated both 
internally and externally via public participation, and analyzed by 
incorporating an interdisciplinary review of available information and 
onsite visits as appropriate to supplement or validate existing data.

    Question. Secretary Jewell, thank you very much for your leadership 
and your support for enhancing our country's sustainable great outdoor 
activities by finding a balance between greater public access to our 
parks and recreations, while also ensuring that those parks are not 
overused and managed in a sustainable way. Can you perhaps touch upon 
the idea of how the Department could foster eco-tourism while at the 
same time manages the impact on endangered species and wild horse 
herds?

    Answer. In 2012, President Obama signed Executive Order 13597 and 
announced a number of initiatives to significantly increase travel and 
tourism in the United States. This Executive Order charged the 
Secretaries of Commerce and the Interior with co-leading an interagency 
task force to develop recommendations for a National Travel and Tourism 
Strategy to promote domestic and international travel opportunities 
throughout the United States. The strategy, finalized later that year, 
focuses on promoting regional tourism collaborations in ``key strategic 
destination markets,'' especially those with a combination of natural 
and cultural attractions, The Department recently joined with other 
Federal agencies and States to sign a Memorandum of Understanding 
intended to formalize an agreement through which the Western States 
Tourism Policy Council, a consortium of 13 western State tourism 
offices, and 6 Federal agencies will continue to work together to 
advance tourism on our public lands.
    A departmental interagency tourism team, working in concert with 
local community tourism partners and the National Geographic Society, 
is facilitating Geotourism projects which present authentic natural and 
cultural experiences to a growing ecotourism audience. Among other 
things, marketing communications for these projects often feature 
stories that capture travel travelers' interest in protected species.
    Additionally, the National Park Service's policies on tourism aim 
to support and promote appropriate visitor use through cooperation and 
coordination with the tourism industry. As part of this effort, the NPS 
collaborates with industry professionals to promote sustainable and 
informed tourism that incorporates socioeconomic and ecological 
concerns and supports long-term preservation of park resources and 
quality visitor experiences, and uses this collaboration as an 
opportunity to encourage and showcase environmental leadership by the 
NPS and by the tourism industry, including park concessioners.
Wilderness/50th Anniversary
    Question. Secretary Jewel, while you are preparing for the 
centennial of the National Park Service in 2016, September 3, 2014 will 
mark the 50th anniversary of the Wilderness Act, a historic 
environmental law that protects some of the wildest places in our 
country, including significant portions of national parks like 
Yosemite, Grand Teton and Olympic. What is the Department doing in the 
50th anniversary year to reaffirm its commitment to steward our 
wilderness areas for current and future generations?

    Answer. The 50th Anniversary of the Wilderness Act provides an 
important opportunity to celebrate the importance of its continued 
preservation of wilderness areas for future generations. Surveys 
indicate that 12 million Americans take between 16 and 35 million trips 
to wilderness each year, either on their own or with a guide. Parks, 
monuments, and wilderness areas are the infrastructure for the outdoor 
industry, which generates $646 billion annually to the economy, 
supports 6.1 million jobs and generates nearly $80 billion in Federal, 
State and local taxes.
    Regarding the anniversary, the three Interior agencies that manage 
wilderness, the Bureau of Land Management, the Fish and Wildlife 
Service, and the NPS, are participating in Wilderness50, a diverse and 
growing national coalition of government agencies, nonprofit 
organizations, and academic institutions that have come together to 
plan and conduct 50th Anniversary celebration events and activities. A 
wide variety of commemoration events are being planned throughout the 
country to raise public awareness of this historic year and the 
benefits of wilderness. One of our key goals is to engage youth and 
underserved communities; and foster wilderness stewardship by better 
connecting the broad wilderness network.
Land and Water Conservation Fund
    Question. Secretary Jewell, I am concerned that the Land and Water 
Conservation Fund authorizing legislation is expiring in September of 
2015. So many important conservation projects in my State/district have 
been funded through LWCF over the years, and I know it has been an 
essential tool for your agency to purchase inholdings and conserve 
exceptional places not fit for development. From your perspective, what 
do we need to do to ensure that sufficient LWCF funding continues to be 
available?

    Answer. The President's budget continues to support full, permanent 
funding for the Land and Water Conservation Fund. The 2015 Budget 
proposes $900 million in combined discretionary ($350m) and mandatory 
($550m) funds for 2015--the 50th anniversary of the LWCF Act--and to 
permanently authorize $900 million in annual mandatory funding for DOI 
and USDA programs. We look forward to working with the committee and 
Congress in this effort.
Oil and Gas
    Question. Secretary Jewell, you are probably aware of the recently 
reported oil spill on the Grand Staircase Escalante National Monument 
that lay undiscovered for years, can you comment on the need for the 
proposed increase in the BLM's oil and gas inspection program?

    Answer. The Bureau of Land Management Oil and Gas program has no 
greater priority than ensuring that development is done safely and 
responsibly. Since 2000, the BLM has permitted nearly 47,000 new wells 
to be drilled on public and tribal lands. Today, the BLM oversees 
approximately 100,000 wells across the country--the most ever--and we 
must meet inspection and enforcement responsibilities on each one. 
Keeping up with this rising demand is an ongoing challenge.
    The current funding system limits the BLM's ability to effectively 
meet this responsibility and ensure protection of both environmental 
and economic resources. Unlike with offshore oil and gas development, 
the BLM does not have the authority to charge industry fees to support 
its inspection and enforcement program. The 2015 request for BLM's Oil 
and Gas Management program would expand onshore oil and gas inspection 
activities and offset the cost of oil and gas inspection and 
enforcement activity with fees from industry, similar to what the 
offshore industry pays. The proposed inspection fees will generate an 
estimated $48 million, providing a $10 million increase in program 
capacity while reducing the need for direct appropriations by $38 
million. Enacting these fees will help the Bureau respond more quickly 
to increases in inspection workloads and reduce the cost to taxpayers 
of operating the program.
    The Department and the BLM are taking the spill on the Grand 
Staircase Escalante National Monument very seriously. After an initial 
on-the-ground inspection the BLM suspects that the vast majority of the 
spill may be as much as three decades old. A small nearby pipeline 
appears to have leaked from time to time with perhaps as much as 10 
barrels of oil having leaked fairly recently. The pipeline has been 
repaired and the leak has stopped. The BLM is currently reviewing best 
options for ensuring safe rehabilitation and restoration of both the 
recent small leak as well as the older spill. The BLM in Utah, 
including experts brought in from several of its field offices in the 
area, is conducting a complete inspection of the entire oil field. The 
company that operates the Upper Valley oil field has been very 
cooperative and immediately shut down the well down and is working with 
the BLM to determine best next steps.

    Question. Secretary Jewell, in your statement you mentioned that 
the budget increase in the Department's oil and gas programs is driven 
from the expansion of onshore oil and gas activities, I would like to 
know what steps have you taken as Secretary to assure that oil and gas 
development on Federal lands is balanced with your obligations as 
Secretary to assure that our public lands are managed in a manner to 
protect their natural values for future generations of Americans?

    Answer. Balancing multiple uses is at the core of the land use 
planning process, and ensuring balance was a central premise of the 
leasing reforms the Department implemented in 2010 to establish 
orderly, open, and consistent environmental processes for oil and gas 
resource development on public lands. The oil and gas leasing reforms 
ensure needed balance with up-front natural resource analysis added to 
the development process. Potential lease sales are fully coordinated 
both internally and externally via public participation, and analyzed 
by incorporating an interdisciplinary review of available information 
and onsite visits as appropriate to supplement or validate existing 
data.
Renewable Energy
    Question. Secretary Jewell, the expansion of renewable energy in 
the West will be dependent on transmission and modernization of the 
grid. This is in line with your Agency and President's goal to approve 
20,000 megawatts of renewable energy on public lands by 2020. I want to 
know what role is the Department taking to advance infrastructure 
needed for renewable energy and ensure transmission corridors are 
properly sighted and what kind of funds are needed in order to make 
certain we are avoiding areas of high conflict?

    Answer. Upgrading the country's electric grid is critical to our 
efforts to make electricity more reliable, less expensive, and to 
promote clean energy sources. As renewable energy development grows, 
the Department is mindful of the need for transmission infrastructure 
to get the electricity from the places where the sun and wind can best 
be harnessed to the businesses and homes where the power is needed. The 
Department is a Participating Agency in the Interagency Rapid Response 
Team for Transmission (RRTT), which aims to improve the overall quality 
and timeliness of electric transmission infrastructure permitting, 
review, and consultation by the Federal Government on both Federal and 
non-Federal lands. As part of the President's 2015 budget, the BLM is 
requesting $5 million to support the review of energy corridors 
established under section 368 of the Energy Policy Act of 2005. This 
review is critical to ensuring that these corridors are properly sited 
and fully coordinated with States, tribes, and other stakeholders.
Climate Change
    Question. Thank you, Secretary Jewell, for your Department's 
attention to the climate crisis. As you know, our public lands are 
already feeling the impacts of climate change, from wildfires, to 
droughts, to pine beetle infestations and extreme weather events. The 
President has proposed a $1 billion Climate Change Resiliency Fund to 
prepare for the impacts and consequences of climate change. What do you 
foresee the Department doing with the funds in order to prepare our 
lands for climate change and mitigate the after effects of climate 
change?

    Answer. The President's proposed Climate Resilience Fund is a 
governmentwide investment in developing more resilient communities and 
finding solutions to climate challenges through technology development 
and applied research. For the Department, this could include developing 
landscape level information, geographic information system data, 
models, and other tools to support resilient and adaptive land 
management. The Department is also positioned to help communities plan 
and prepare for the impacts of climate change through assistance to 
tribes and local governments for planning, protecting wetlands, and 
improving coastal resiliency during a time of severe weather 
conditions. The Fund would enable the Department to focus resources on 
technologies and infrastructure to reduce risks to public lands from 
drought, fire, and flooding, as well as more resilient approaches to 
managing water resources infrastructure.

    Question. Secretary Jewell, you may be well aware that the UN's 
Intergovernmental Panel on Climate Change (IPCC) is currently 
publishing its fifth assessment of climate change science, particularly 
focusing on the impacts of climate change--ranging from the effects on 
endangered species to changes in agriculture. I want to know what the 
Department is planning to do or has been doing in addressing the impact 
of climate change, especially in terms of climate adaption and disaster 
prevention?

    Answer. The Department is taking action to prepare for anticipated 
climate change impacts and build the resilience of the resources it 
manages. The Department's Climate Change Adaptation Policy was issued 
in December 2012 in response to the need to prepare for the impacts of 
climate change. The Policy articulates and formalizes the Departmental 
approach to climate change adaptation and provides guidance to bureaus 
and offices for addressing climate change impacts upon the Department's 
mission, programs, operations, and personnel. The Department is 
currently finalizing its 2014 Climate Change Adaptation Plan, which 
will describe the Department's overall strategy for addressing climate 
change adaptation including specific bureau strategies for identifying 
climate change related vulnerabilities and addressing those 
vulnerabilities.
    The Department is conducting a new Climate Change Adaptation 
Priority Performance Goal for FY 2014 and FY 2015, to measure bureau 
performance and achievements toward implementing five priority climate 
change adaptation strategies, which were established in the 2013 
Strategic Sustainability Performance Plan. The Priority Goal will be 
used to target, track, and report progress on a quarterly basis over 
the next 2 years and will be instrumental in ensuring that the 
Department meets the requirements of Executive Order 13653.
    The Department's approach to climate change is iterative and will 
be adjusted in the future as our understanding of impacts and 
vulnerabilities becomes clearer.
Budget
    Question. Secretary Jewell, in your budget proposal, the National 
Park Service operations account would provide parks with additional 
seasonal staff to enhance visitor experiences during peak visitation. 
While this benefits the visitors in the short-term, the deteriorating 
park resources will not benefit substantially. For example, a low 
percentage of invasive plants and animals are currently being 
controlled in this year's budget and in the proposed budget. Therefore, 
what is the Department's long-term plan for dealing with the park 
operations shortfall to ensure the park resources continue to be 
enjoyed by park visitors and don't continue to deteriorate? And how can 
Congress work with you to address these continuing operational needs?

    Answer. The NPS anticipates increased attention and visitation 
leading up to and during the Centennial in 2016, and the FY 2015 
request includes an operations increase of $40 million to prepare for 
this opportunity. This funding would support an expected influx of 
visitors during the 2016 Centennial celebrations and provide a stronger 
foundation for visitor services and infrastructure investments in its 
second century of preserving the parks for on-going usage and the 
future enjoyment of visitors. The request also includes $15.7 million 
to fully fund fixed costs in the operations account, without requiring 
an offsetting reduction to park base operations. Full funding of fixed 
costs is critical to ensuring the stability of park operations on an 
annual basis, and in particular as parks prepare to welcome increased 
attention and visitation around the Centennial. Additionally, the 
request includes $10 million for Centennial Challenge projects and 
partnerships, a matching program that would leverage Federal funds with 
partner donations for signature projects and programs at national 
parks, which will provide benefits into the future.

    Question. Secretary Jewel, I'm encouraged the proposed investments 
in operations will provide more opportunities for our youth, employ 
veterans, and provide for better park maintenance. However, I 
understand that parks have been losing rangers and other staff over the 
last decade. With the small scope of proposed operational budget 
increase, will park base budgets actually get an increase over pre-
sequester levels and will it improve non-seasonal park staff levels?

    Answer. The proposed FY 2015 budget request for NPS operations 
includes funding for fixed costs and support for new responsibilities, 
youth employment opportunities, volunteer capacity, deferred 
maintenance projects, and seasonal staff to enhance the visitor 
experience in preparation for the 2016 Centennial. All told, the 
increases requested in the budget would fund operations at $47 million 
above the enacted FY 2014 level.
    The budget restores some of the seasonal employees who provide 
visitor services during peak periods of visitation that have been lost 
over recent years due to budget reductions and fixed costs absorptions.

    Question. Secretary Jewell, the proposed multi-year investment in 
the deferred maintenance backlog is reassuring to see given the 
unsustainable scope of the backlog. How can Congress ensure that the 
backlog is realistically dealt with over the long-term?

    Answer. Reducing the NPS deferred maintenance backlog is primarily 
dependent on funding levels. As of the end of FY 2013, NPS deferred 
maintenance needs stood at approximately $11.3 billion; $683 million 
annually is needed to keep this at a steady state, In FY 2014, the NPS 
will devote approximately $382 million to deferred maintenance from a 
variety of fund sources, including repair and rehabilitation, line-item 
construction, recreation fee revenue, and funding available through the 
Department of Transportation, Federal Highways Administration. Nearly 
half of the deferred maintenance backlog is in roads, bridges, and 
tunnels.
    The NPS will continue to prioritize available funding to target the 
highest priority assets. This strategy will maintain a large number of 
important assets; however, deterioration of some assets that support 
park missions is expected.

    Question. Secretary Jewell, given that 90 percent of the FS's Law 
Enforcement and Investigations (LE&I) budget would go toward fixed cost 
such as staff salaries and maintenance, ``why did the FS cut its LE&I 
in FY15 ($126 million) which is below FY14, 13, and 12 ($140 million)? 
And how would this reduction impact the FS's law enforcement operation?

    Answer. This question appears to refer to the U.S. Forest Service's 
Law Enforcement and Investigations budget and we defer to the USFS for 
a response to this question.
              Question Submitted by Representative Fleming
    Question. During your answers to questions, you said, ``I believe 
hydraulic fracturing can be done safely and responsibly. I can't say 
that I've seen any studies that suggest a direct link between hydraulic 
fracturing and groundwater contamination. But there have been links 
with groundwater contamination on injected fluids, and I think it 
depends on assuring you've got a good well bore integrity and good 
practices, and those are the kinds of things we're looking at in our 
fracking regulations. . . There has been groundwater contamination from 
injected fluids, whether it's injected wastewater fluids, or other 
means, so we want to make sure that in our fracking regulations that we 
have the kind of well bore integrity so the water is going to its 
intended location and the frack fluid and that's exactly what our 
regulations are intended to do.''

    a. Please provide documentation of the aforementioned specific 
examples of groundwater contamination, including date, operator, how it 
was reported, and if there was an independent audit.

    Answer. As indicated at the hearing, the Department is not aware of 
any studies that have suggested a direct link between hydraulic 
fracturing and groundwater contamination, but there have been links 
with groundwater contamination from injected fluids and documented 
cases of fluid spills on the surface contaminating groundwater. These 
types of incidents are generally reported to States or the 
Environmental Protection Agency, and news of them are often reported in 
the press. With regard to hydraulic fracturing, however, of paramount 
importance to the process is the integrity of the well bore, the well 
bore casing, and the concrete seal, which play key roles in ensuring 
groundwater is protected and fluids going into the well do not escape. 
Additionally, it is important that companies have a water management 
plan in place for fluids that flow back to the surface.
              Question Submitted by Representative Flores
    Question. As part of the revision for the Resource Management Plan 
(RMP) for Oklahoma and Texas, the Bureau of Land Management (BLM) is 
evaluating opening up public lands along a 116-mile stretch of the Red 
River to actively manage for recreational purposes that could require 
significant new budgetary resources. The amount of Federal funds needed 
may depend on how large of an area the BLM believes is federally owned. 
As you know, the border between Oklahoma and Texas that would delineate 
where the BLM lands are located has been disputed for a number of 
years. On October 10, 2000, H.R. Res. 72 was signed into law that 
ratifies the Red River Boundary Compact agreed to by Texas and Oklahoma 
that sets the boundary at the Southern vegetative line.
    Does the Department of the Interior have a legal analysis of where 
it believes the boundary should be located, and what impact does the 
agency believe the Red River Boundary Compact has on this boundary and 
the location of federally owned lands? Additionally, is the BLM looking 
to open up the entire area along the 116-mile stretch or just isolated 
areas?

    Answer. The Bureau of Land Management is not expanding Federal 
holdings along the Red River. The BLM currently is in the initial 
stages of developing options for management of public lands and 
resources in the States of Texas, Oklahoma, and Kansas, an area that 
includes the Red River. As part of its planning process, BLM is seeking 
public input as to the best uses of the public lands in question. The 
Bureau's goal and commitment is to work closely with local and State 
government officials, congressional delegation members, and the public 
to determine the best management options for the public lands in these 
three States for the next many years.
    The Department's understanding is that the Red River Boundary 
Compact did not alter the location of federally managed lands in the 
Red River area.
            Questions Submitted by Representative McClintock
Frogs and Toad
    The U.S. Fish and Wildlife Service's draft economic analysis of its 
proposal to designate 1,831,820 acres of critical habitat in California 
for the Sierra Nevada yellow-legged frog, the northern distinct 
population segment of the mountain yellow-legged frog, and the Yosemite 
toad.
    The economic impact analysis employed an ``incremental'' approach 
that limits the analysis primarily to the costs incurred to the Federal 
Government as a result of section 7 consultations. This methodology 
severely deemphasizes the most significant costs that accompany 
critical habitat designations--costs to the public as a result of lost 
mineral and timber production, tourism, and recreational opportunities.
    This ``incremental'' approach, rather than a thorough study of the 
cumulative economic impacts, was used because of revisions to 50 CFR 
Part 424 that became effective on October 30, 2013. However, the draft 
economic analysis produced for FWS by consultant Industrial Economics, 
Inc. was dated August 27, 2013.
    It appears that the draft economic analysis was complete and made 
available to the Service prior to the promulgation of the new rule 
adopting the ``incremental'' methodology. It also appears that the 
Service withheld the publication of the draft economic analysis until 
after the final rule took effect on October 30.
    Question. Please explain to the committee as to why the Service 
solicited an economic analysis from Industrial Economics that employed 
a narrow methodology that was not yet finalized and why it delayed the 
release of this analysis for over 2 months.
    Question. I would also like to know if the Service plans to employ 
a broader methodology including baseline impacts and effects on local 
economies.

    Answer. The FWS is required, under section 4(b)(2) of the 
Endangered Species Act, to evaluate and consider the probable economic 
and other relevant impacts resulting from a designation of critical 
habitat. The prevailing methodology used to conduct economic analyses 
assesses the impacts that are likely to result solely from the 
designation itself, i.e., the incremental impacts. The FWS has 
consistently used this approach for economic analyses of critical 
habitat designations that occur on lands outside of the jurisdiction of 
the 10th Circuit Court of Appeals since 2007. This approach is 
supported by Executive Order 12866, Office of Management and Budget 
Circular A--4 (issued in 2003) and a 2008 Memorandum Opinion from the 
Solicitor of the Department of the Interior. In October 2013, this 
approach was codified in the revisions to the ESA implementing 
regulations and is now applicable nationwide.
    The initial draft of the economic analysis was submitted to the FWS 
by contractors on August 27, 2013. As a result of the internal review 
and approval process, and coordination with other Federal agencies, it 
took several months before the draft was released to the public for 
review and comment. These steps are part of the standard quality 
control process and are independent of the revision to the ESA 
implementing regulations for impact analyses.
Yosemite
    Question. The implementation of the MRP is estimated to cost $210 
million, the draft Tuolumne River Plan (TRP) is estimated to cost $64.5 
million, and the Mariposa Grove Plan is estimated to cost $36 million. 
Additionally, the Park has an estimated $500 million in deferred 
maintenance obligations. We would like to understand how the National 
Park Service (NPS) intends to prioritize and implement the elements of 
these plans and address Yosemite deferred maintenance needs in the 
event that additional congressional appropriations are not provided. 
Can you explain the National Park Service's funding expectations and 
schedule to implement the changes proposals?

    Answer. Potential funding to implement the plan will be derived 
from three primary sources, the recreation fee program, including 
entrance and camping fees; concessions franchise fees; and other 
Federal sources such as the Federal lands highway program funds.
    Both recreation fee revenue and concession franchise fees are 
annual revenue sources collected by the park. Over the course of the 
next 20 years, assuming reauthorization of the recreation fee 
authority, the park anticipates that both of these fund sources 
(currently the park collects approximately $18 M in fees annually) will 
be available to implement the changes proposed. Based on projected 
revenues, the park is confident there will be financial resources to 
implement a number of projects within the next 15-20 years for all 
three plans mentioned.
    As for priorities, during the first 5-10 years of implementation 
the focus will be to improve the transportation system to alleviate 
traffic congestion and to conduct ecological restoration of high-use 
areas to better accommodate visitor use. Projects include adding and 
modifying parking, realigning failing intersections and restoring 
eroded riverbanks. Prerequisites for the most critical changes to the 
transportation system will require additional funding during the same 
time period to relocate facilities and increase the supply of parking. 
Concurrent to the improvements to transportation/parking, the park will 
direct financial resources toward creating additional camping 
opportunities and replacing tent cabins with hard-sided lodging.

    Question. The new location of some facilities was not identified in 
some of the Park's proposals, such as the new bike racks, river rafting 
facilities and maintenance buildings. When and how will the location of 
the facilities be chosen and how will the public have an opportunity to 
engage in that process?

    Answer. The locations of minor facilities, such as bicycle rental 
stands and raft rental operations, will be located outside of the 
quarter-mile river corridor boundary, yet remain within the primary 
visitor services nodes. The park does not anticipate further 
environmental review and public involvement for these actions. The 
minor shift of the location of these facilities outside the corridor is 
an operational decision that will be determined after the 2016 
concessions contract is awarded. The cost is expected to be minimal.

    Question. How do you intend to prioritize the needs identified in 
these plans?

    Answer. As noted above, the first priority for plan implementation 
will be to alleviate traffic congestion and also to restore riverbanks 
and meadows. Once these steps are accomplished, current levels of 
visitation can be managed more successfully. Concurrently, other 
priorities will be implemented to enhance the visitor experience by 
providing additional campsites and increasing the availability of year-
round visitor accommodations.
    Priority projects seek to accomplish four major goals:

    <bullet> Correct identified impacts to river resources to ensure 
            continued protection.
    <bullet> Alleviate crowding and congestion and provide for easy 
            access to key park facilities and shuttles.
    <bullet> Enhance camping opportunities and winter lodging.
    <bullet> Replace temporary non-code compliant employee housing.

    Question. Can you explain what the cumulative impact of all these 
plans is expected to be on the current visitor experience?

    Answer. All of the plans address long-standing issues with visitor 
use and user capacity management in the most heavily visited 
destinations within the park, most notably by calling for actions that 
will improve the efficiency of the transportation system. Key actions 
such as relocating and retrofitting day-use parking areas, adding 
campsites, and increasing the amount of year-round lodging in Yosemite 
Valley, will improve access and the overall quality of the visitor 
experience. In addition, the wide array of recreational opportunities 
available throughout the park will be maintained and boating 
opportunities will be expanded. Once implemented, the plans will 
provide for a higher-quality visitor experience by improving access to 
the most popular areas in Yosemite and by providing lasting protection 
for the natural features within those areas. Overall, the park expects 
implementation to improve the visitor experience.

    Question. The MRP notes that the TOP will reduce the overnight 
capacity at Glen Aulin High Sierra Camp and eliminate commercial 
horseback day-rides from the Tuolumne Meadows Stables. Does the NPS 
anticipate this will produce residual impact on other High Sierra Camps 
and increase visitation to Yosemite Valley due to the reduction in 
visitor services in the Tuolumne area?

    Answer. The NPS does not anticipate any residual visitation impacts 
on other High Sierra Camps or Yosemite Valley because of actions 
proposed in the Tuolumne River Plan; specifically, the elimination of 
day rides and reduced capacity at Glen Aulin High Sierra Camp. With 
regard to Glen Aulin, the overnight capacity at Tuolumne is currently 
2,892 people at one time. Thus, the 4-bed reduction at Glen Aulin 
represents only a 0.1 percent of the existing capacity and is an 
insignificant change,
    With regard to day rides at Tuolumne Meadows, current operations 
serve a maximum of 62 riders per day. At peak periods, Yosemite Valley 
serves 18,710 people at one time and Tuolumne Meadows serves nearly 
5,000. Therefore, an addition or subtraction of 62 people is not a 
significant change for either area. However, because day rides will 
continue to be available in Wawona and because other unique attributes 
of Tuolumne Meadows and Yosemite Valley are the primary attractions to 
these areas, the NPS does not believe there will be any effect on 
visitation from the changes made to day-riding opportunities.
California Water
    Question. When the Bureau was releasing water from Northern 
California dams in 2013, did the Agency take in account water 
reliability, and the fact that those releases would leave our 
reservoirs empty in 2014?

    Answer. Yes, Reclamation accounts for water reliability--along with 
several other variables--when making releases from reservoirs. 
Drought--precipitation far below average--is the overwhelming influence 
on water supplies in California this year. Releases made during 2013 
have not left reservoirs empty in 2014; inflows and outflows are 
managed daily at all Reclamation reservoirs in Northern California, and 
storage levels, while below average, are adequate for ongoing water 
deliveries and power generation, albeit at reduced levels.

    Question. Many water releases from California reservoirs serve 
multiple purposes, can you please specify how many acre feet of water 
releases by the Bureau were solely for environmental purposes in 2013?

    Answer. Many of Reclamation's facilities, including the main 
Central Valley Project reservoirs in California, are specifically 
authorized for multiple purposes. Water is frequently stored or 
delivered for dual or simultaneous use for multiple project purposes 
including, but not limited to, irrigation, municipal, power, 
recreation, as well as non-ESA fish and wildlife enhancement, so it is 
very difficult to separate the amount of water that is exclusively 
dedicated to environmental compliance purposes. It is worth noting, 
however, that provision of water flow or storage for fish and wildlife 
purposes can sometimes be re-delivered for additional beneficial uses, 
and results in greater reliability of the water supply.

                                 ______
                                 

    The Chairman. Thank you very much, Madam Secretary. We will 
start the questioning process. And I am just going to be very 
brief, but I want to touch on just two issues.
    One issue that our committee has been working on, at least 
from a hearing standpoint, has been the Endangered Species Act. 
That Act has not been reauthorized since 1989. And, in view of 
the mega-settlement, I think several questions come up. And I 
just want to get your thoughts on it.
    From the standpoint of data, we have heard in hearings 
there has been a criticism on lack of data more than probably 
any--I won't say more than anything else--but that has been a 
major part of it. And I can speak specifically in my county, 
Franklin County, regarding the bladderpod. My question to you 
is just very broad. Do you think that the data in the future, 
going prospectively in the future on it, whether it is listing 
or de-listing, should be publicly available before either of 
those actions, de-listing or listing of a species, just as a 
concept of a law that is responsive to the people?
    Secretary Jewell. Congressman, I know that the ESA requires 
us to use the best available science. I know that there is data 
that comes in over time. I believe that when we do issue 
listing information, we do publish that, and then we ask for 
public comment before a listing is finalized. And that includes 
the science that the Fish and Wildlife Service uses to make its 
determinations.
    The Chairman. OK. Well, then let me just speak very briefly 
on the bladderpod. That simply wasn't the case, at least in 
Franklin County, with that particular plant. So I will leave it 
go at that.
    The second issue is the Columbia River Treaty. And, as you 
know, Mr. DeFazio and I have engaged you on the issue of--
environmental part of the treaty. The report that was sent to 
the Department of State now was changed dramatically from the 
standpoint of environmental emphasis. But after the report was 
sent, your Department sent a letter that was somewhat contrary 
to that. And I just want to say that this process is going to 
go forward, we know that. But I have very, very big concerns 
about any environmental issues being in the treaty. I think 
that they should be separate from the treaty, because the 
treaty was, as a matter of fact, signed prior to any 
environmental laws like ESA being implemented.
    So, if you wouldn't mind, just respond to that observation.
    Secretary Jewell. Well, thanks for the question, and also 
for our prior conversations on this.
    I do know the Department of State is engaged with Canada on 
re-upping the treaty authorization, and it has many facets. I 
do believe that over the decade since the treaty has been put 
in place, we have additional information that helps us 
understand ecosystems and the impact of our actions on 
ecosystems. And I think that that is something that whenever we 
are re-upping or reauthorizing, we should take current 
information into account.
    But the specific details, Mike, do you have more 
information on that than I do?
    We are happy to take that into account, but I do believe we 
should pay attention to what we have learned over the course of 
time, and apply those to any reauthorizations.
    The Chairman. Mr. Connor, if you want to respond?
    Mr. Connor. A couple of quick additions. We don't know how 
the State Department is going to proceed now. That is under 
consideration, obviously, as a result of the dialog from the 
U.S. entity and the input that has been provided by the 
Interior Department and others.
    I think the structure, though, that was put forth by the 
U.S. entity focuses on the flood control aspects of it, the 
power production aspects, and I think, from the Secretary's 
perspective, we are just looking to ensure that there are 
environmental considerations, as we discuss those parameters 
that have always been part of the treaty. And I think that is 
the expectation, moving forward.
    The Chairman. I will probably have a follow-up question on 
that in writing. If you could respond, I would appreciate that.
    At this time I would like to recognize Mr. Sablan from the 
Northern Marianas for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman and Ranking 
Member, for holding this hearing. Good morning, Madam 
Secretary. It is nice to see you again. Thank you very much for 
your service to our country. And Deputy Secretary, 
congratulations and thank you. Madam Secretary, thank you very 
much for signing over the mineral rights to the Northern 
Marianas government just last month. That was an important 
step.
    And as we proceed, we also would like to--now, the next 
step for Congress is to include the Northern Marianas and the 
other U.S. territories in the Outer Continental Shelf Act. 
Chairman Hastings' bill, H.R. 2231, although we have some 
issues there, passed and accomplishes that itself.
    But the next step would be for the administration to 
complete the co-management agreement between the commonwealth 
government and your Fish and Wildlife Services, so that the 
submerged lands in the island units of the monument can be 
handed back to the Northern Marianas. I would appreciate that.
    I am just going to ask you if you could give me a status 
report on those negotiations ongoing. I would really like to 
put a timeframe to it, set a goal. You know, you come from the 
world of business. Could you, if you can't do it now, get us a 
status of progress report and a set goal, if I may, please?
    Secretary Jewell. Yes, thank you very much. We have 
directed the Fish and Wildlife Service and the National Marine 
Fishery Service to work together with you. I don't have a 
specific deadline, but we will ask them about that.
    Mr. Sablan. Next month. They will all jump and get it done.
    Secretary Jewell. I think that is probably unrealistic. But 
I will say that----
    Mr. Sablan. Thank you.
    Secretary Jewell [continuing]. Eileen Sobeck, who was our 
Acting Assistant Secretary for Insular Affairs is now head of 
the National Marine Fisheries Service. She understands your 
issues well----
    Mr. Sablan. I understand that. I met her the other day.
    Secretary Jewell [continuing]. And will play a critical 
role in this----
    Mr. Sablan. Thank you. And you know, we could get your 
assistant secretary on board soon so she would be a stronger 
advocate for us.
    Madam Secretary, on ABC initiatives, you know, this 
committee--I am also on the Education Committee, and that is 
why I support your Department's ABC initiative for all the 
insular areas. The Army Corps of Engineers was tasked with 
identifying infrastructure needs in older schools in the 
insular areas. And that was good investment, I think.
    But one thing I would like to know a little bit more about 
is the President's budget recommends moving $1.7 million from 
compact impact discretionary funds from OIA that OIA gets and 
putting their money into the ABC initiative. I understand this 
money would pay for something called embedded maintenance 
themes, and the themes would help each school system with 
planning and technical support. But each of the insular areas 
in American Samoa, Guam, the Northern Marianas, and U.S. Virgin 
Islands would be expected to come up with one million for the 
actual materials for the school improvements. This doesn't 
sound like a very good tradeoff, as far as I am concerned. We 
lost $1.7 million of compact impact money that could go 
directly into education, and instead we get embedded themes.
    Could you please have someone either make me understand 
this or get back to me and make me fully understand this a 
little bit more? Maybe there is a rationale there that I don't 
get.
    Secretary Jewell. Well, we are happy to provide a more 
detailed response. But, overall, we are trying to be more 
efficient and effective in our response by combining the 
efforts. The Army Corps is looking at a regional effort.
    Mr. Sablan. I understand that.
    Secretary Jewell. And they believe they can achieve better 
economies of scale by doing that than doing it piecemeal. So we 
are happy to get more detailed numbers back to you.
    Mr. Sablan. And I know this is probably unfair to you, but 
we have until tomorrow, the close of business tomorrow, to get 
our recommendations to the Appropriations Committee. So I don't 
know if we can get it this afternoon, but we appreciate that.
    Madam Secretary, technical assistance grants are truly 
important to the insular areas, to the Northern Marianas, in 
particular. Your office has kept our only hospital open, and 
please know that we are very grateful for that. Thank you. And 
the proposed funding for TA money in fiscal year enacted level. 
I know I may be going back--my staff said I am getting down in 
the weeds with this, but--oh, shoot, I don't have much time--
but 15 years ago your Department invested in financial 
management softwares for all the insular areas so we could get 
complete, uniform financial information. That was--don't you 
think maybe--would you start thinking about maybe doing some 
upgrades to those softwares? I mean financial information is 
truly critical to the islands.
    And one last thing, Madam Secretary, is the Japanese 
American Confinement Sites Grant Program. I am supporting that, 
because my grandparents and my parents were interred during the 
war. And although there were different circumstances, they were 
not in the Japanese that were interred in the war, I have heard 
their stories. And we need to keep this in our history so that 
we don't have to do it any more. I mean it is very important.
    And again, thank you very much, Mr. Chairman. I yield back 
my time.
    The Chairman. I thank the gentleman. Recognize the 
gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you, 
Secretary, for being here again.
    Under Republican and Democrat administrations, Democrat and 
Republican majorities, the payment in lieu of taxes has been a 
struggle. National forests that were originally agreed by 
local, State, and Federal authorities to produce timber with 
revenue being shared by the local communities was embraced 
because the areas knew that that would be OK, the Federal 
Government would see to the timber being produced. Unlike what 
many people think, it is a renewable resource when it is used 
properly.
    But now it is such a problem, because timber is not being 
cut, the areas cannot tax the national parks or national 
forests, as you know. What work is the Department of the 
Interior doing to find a long-term solution to this problem? It 
really penalizes local counties and communities.
    Secretary Jewell. Thanks, Congressman Gohmert. This 
administration is fully in support of PILT payments and Secure 
Rural Schools payments. In the President's 2015 budget we do 
have a 1-year authorization proposed for support of PILT. We 
would like to work with you on a long-term solution. It is the 
kind of thing that perhaps we could couple with a long-term 
solution on the Land and Water Conservation Fund, because they 
are related, in terms of land. But we agree that a permanent 
solution is very, very important to those rural counties that 
depend on that money.
    Mr. Gohmert. Well, I hope we can work together to get 
something done, because there are schools--I know the President 
talks about schools all the time, but these local schools in 
areas where there are national forests really get penalized 
because they are in areas where there are national forests.
    But in my district, out of 36 districts in Texas, more 
natural gas gets produced. In the southern part of my district 
we have a couple national forests. There is a lot of drilling 
going on in my district, especially with the new technology. 
Fracking is producing so much in the way of jobs and better 
economy in East Texas, and yet the last numbers I had seen, 
leases on Federal lands were down about 40 percent from where 
they were under the Bush administration. And the last rig I was 
on out in my district, they said there were about 65 people 
that worked on that particular rig. I asked what was the least 
anybody was making. They said, ``Oh, we think one of our guys 
is only making $80,000-$85,000 a year.''
    [Laughter.]
    Mr. Gohmert. These are good jobs. And they are producing 
energy for America that could--if we pursue mutual goals of 
helping get out liquified natural gas, we can help Eastern 
Europe get out of the push of Russia, we can help the world, 
and help ourselves.
    So, I am just wondering. Under your leadership, will there 
be any change to this continued, really, drastic reduction from 
where the Bush administration was in leasing of Federal lands 
for energy production?
    Secretary Jewell. Thanks, Congressman Gohmert. Well, just 
to be clear, we have an all-of-the-above approach to energy 
production, and we have been moving with----
    Mr. Gohmert. I have read that, but----
    Secretary Jewell [continuing]. With full speed ahead. Well, 
let me give you a handful of facts.
    In the Gulf of Mexico we have more rigs operating now than 
were operating before the Deepwater Horizon spill. Offshore in 
2013 the Bureau of Ocean Energy Management offered just under 
60 million acres offshore in the Gulf of Mexico for offshore 
oil and gas production. As Ranking Member DeFazio mentioned, 
our oil production is up on Federal lands substantially from 
2008, and it is up significantly from 2012.
    So, we have seen increases. There have been some decreases 
in natural gas, and that is largely due to the economics of 
natural gas. Most of the rigs have been put on oil because of 
the economics. And I am a former petroleum engineer. I worked 
in Oklahoma. I have been involved in the jobs that you 
reference, and I have seen nothing to suggest that my 
Department is doing anything other than continuing to support 
safe and responsible exploration onshore and offshore----
    Mr. Gohmert. Well, we would sure love to see you get back 
to the Clinton numbers in leases.
    My time is about out, but I am just wondering. You 
mentioned Deepwater Horizon. When that blew out, the last team 
to check them had----
    The Chairman. Very quickly, because there are a lot of 
Members----
    Mr. Gohmert. Right. Father-son team that was unionized. Has 
there been any clean-up of the safety inspections on rigs like 
that?
    Secretary Jewell. We have had a tremendous investment in 
the Bureau of Safety and Environmental Enforcement. I could get 
you specific budget numbers. We appreciate that the industry--
in this case, offshore--reimburses us for the cost of 
inspections, which we don't do onshore, but that is part of 
this budget. It helps us compete with the industry for the 
kinds of talented individuals we need to do the job right for 
the American people.
    And happy to provide you with more detail, Congressman 
Gohmert, if that is helpful.
    Mr. Gohmert. I would like more information, thank you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from California, Mr. Costa.
    Mr. Costa. I want to confine my focus and efforts to the 
devastating drought that is impacting not only my district, but 
other San Joaquin Valley Members of Congress, as well as the 
entire State of California.
    Madam Secretary and Deputy Secretary, you can determine how 
you want to first respond to these following questions.
    But I would like to, for the record, read some excerpts 
from a letter that came this week from the Bishop of the 
Archdiocese of Fresno, Bishop Ochoa, to President Obama. ``Dear 
Mr. President, the lack of water is impacting everyone: 
farmers, ranchers, dairymen, their employees, faith 
communities, the businesses that serve them. The situation is 
quickly deteriorating into a humanitarian crisis. Businesses 
are shutting their doors and others are laying off employees. 
Access for children and families to clean, drinkable water is 
uncertain. Legislators struggle to craft an equitable public 
policy ensuring the State's present and future water needs. 
Lines at food banks and human service agencies have doubled due 
to this issue and, in fact, our Catholic Charities services 
went from 87,000 units of service in 2012 to 137,000 units in 
2013. These numbers are expected to double this next year, if 
the water situation does not change. We are reminded in this 
time of drought of our dependence on the Creator. However, our 
human dignity relies on access to water.''
    With unanimous consent, I would like this to be submitted 
for the record.
    The Chairman. Without objection, it will part of the 
record.

    [The letter submitted by Mr. Costa for the record follows:]

Letter Submitted for the Record from the Diocese of Fresno to President 
                                 Obama

                               Diocese of Fresno,  
                                   Pastoral Center,
                                        Fresno, California,
                                                    March 31, 2014.

Hon. Barack Obama, President,
Washington, DC.

    Dear President Obama:

    On this day, marking the birthday of Caesar Chavez, as Bishop of 
the Catholic Diocese of Fresno, I join my brother bishops and other 
Californians of good will to exercise restraint in the use of water as 
an expression of solidarity with those whose livelihood and welfare are 
a risk due to extreme drought conditions. The lack of water is 
impacting everyone: farmers, ranchers, dairymen, their employees, faith 
communities and the businesses that serve them, The situation is 
quickly deteriorating into a humanitarian crisis.
    Businesses are shutting their doors and others are laying off 
employees. Access for children and families to clean, drinkable water 
is uncertain. Legislators struggle to craft an equitable public policy 
ensuring the State's present and future water needs. Lines at food 
banks and human service agencies have doubled due to this issue and, in 
fact, our Catholic Charities services went from 87,000 units of service 
in 2012 to 137,000 units in 2013. These numbers will double in the next 
year if we don't see a change with the water situation.
    We are reminded in this time of drought of our dependence on the 
Creator. Our human dignity relies on access to water, The creation 
entrusted to us is a common heritage and requires us to work together 
as responsible stewards for the common good, especially mindful of the 
vulnerable. As the economic and health impact of the drought grows, 
those with limited resources will be the first to suffer.
    May I respectfully ask that you read the attached letter from 
Senator Feinstein and our bipartisan Congressional delegations and take 
action on those recommendations.

            Sincerely,

                      Most Reverend Armando X. Ochoa, D.D.,
                                         Bishop, Diocese of Fresno.

                                 ______
                                 

    Mr. Costa. Madam Secretary, you indicated that you are 
using the best science available. But yet, the biological 
opinions that are being the operational guidelines for the 
Federal and State projects were formulated in 2007 and 2008. 
They haven't been updated.
    The National Academy of Sciences plan in May of 2012 
recommended modifications and changes. They have not been added 
to the biological opinion. As a matter of fact, the plan that--
under your agency for the smelt, which is one of the issues 
that we are having to address, has not been changed since 1996. 
How can you tell us that we are using the best science 
available?
    Secretary Jewell. Now, Congressman, I appreciate the very 
significant situation of the California drought, and recognize 
that it doesn't just impact Californians, it impacts all 
Americans because of the food produced in that State.
    Mr. Costa. Half the Nation's fruits and vegetables, and I 
could go on and on and on, but I won't.
    Secretary Jewell. I understand. We are very committed to 
bringing all the resources we can to support the California 
drought situation, including additional investments in science.
    I am going to turn to my colleague, Mike Connor, to give 
you specifics related to the biological opinions, and so on.
    Mr. Costa. Also, I would like--and Mr. Connor might want to 
respond--you described providing enough flexibility. What is 
enough flexibility? Because I think that is a very general 
description.
    Mr. Connor. Two things. The biological opinions, as we have 
discussed, have been litigated over, there have been issues 
found with them. But the biological opinion, particularly the 
delta smelt biological opinion, was recently upheld in the----
    Mr. Costa. On technical procedures.
    Mr. Connor [continuing]. By the Ninth Circuit Court of 
Appeals.
    Mr. Costa. On technical procedures.
    Mr. Connor. But I would agree with your premise. We use the 
best available science to develop the biological opinions, and 
then we continue to pursue new data, new information. And that 
is what we are doing right now, and we are doing it in a much 
more collaborative manner outside of the courtroom.
    With respect to the flexibility, what is enough flexibility 
is constantly evolving. This year, given the drought 
conditions, we have responded aggressively with an eye toward 
the needs of the communities. We absolutely agree with the 
concerns expressed by the Archbishop. We need to be aggressive, 
we need to look at water supply. We have adjusted the 
biological opinions, we have taken six separate actions since 
the beginning of this year to adjust the biological opinions. 
That has resulted of making use of precipitation events.
    Mr. Costa. And you are to be commended for that----
    Mr. Connor. But we also have to be concerned about the 
fisheries, too, because we are reliant on that----
    Mr. Costa. Yes, but let me just--on that point, excuse me--
--
    Mr. Connor. Sure.
    Mr. Costa [continuing]. Mr. Connor. And you have responded, 
and I want to acknowledge that. I do appreciate that.
    My question to you is I think we can still do more. The 
exports between February 1 and March 31 in the delta were 1.3 
million total--1,389,000 acre-feet. The exports were 410,000 
acre-feet, which means it has been a 3-to-1 ratio in the last 2 
months. I think we can do better, especially when you take into 
account the other factors you are having to deal with, which is 
the fish count on those that are being taken. And the fish 
count are de minimis, I would argue, on all the key indicators, 
from juvenile salmon to steelhead to issues of--I mean there 
haven't even been any smelt that have been taken at the pumps.
    So you have a de minimis level of take here. You have had 2 
months in this devastating drought, where you have had 3-to-1 
outflows on the delta. And, while we have made progress--I will 
acknowledge that--we could do much more.
    The Chairman. The time of the gentleman has expired. But 
real briefly, Mr. Connor.
    Mr. Connor. Yes. I agree. We need to continue to look at 
opportunities to do more, given the situation. The take at the 
pumps has allowed us to adjust some actions. We are doing that 
in concert with an aggressive monitoring program to ensure that 
we can provide more water while maintaining protections for the 
fishery.
    The Chairman. And----
    Secretary Jewell. And we are also working alongside State 
partners, as required, for salinity levels and the other needs 
of the deltas.
    Mr. Costa. No, and we understand that. That is appropriate.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Madam Secretary, the 
issue of hydraulic fracturing may be on the ballot in Colorado 
this November. Obviously, the agencies you oversee, and any 
other Federal agencies, for that matter, would have stepped in 
long before now to prohibit fracking if it threatened human 
health by contaminating ground water.
    Does fracking, which has been done in nearly a million 
wells in this country over the last 65 years, and which is done 
thousands of feet underneath groundwater, contaminate 
groundwater in a properly drilled well?
    Secretary Jewell. Congressman, I may be one of the few 
Secretaries of the Interior that has actually fracked wells 
before. I do understand the science behind this. It absolutely 
can be done safely and responsibly, and has been done safely 
and responsibly.
    I will also say that whether it is safe and responsible 
depends a lot on factors like wellbore integrity and whether 
you have a good cement job. If you do, and you can prove that, 
and the water goes where it is supposed to, it is not a 
problem.
    We have taken 1.3 million comments in on the BLM's proposed 
fracking regulations. We have worked with the State of 
Colorado, other States throughout the country, to come up with 
what we believe is an appropriate upgrade to 30-year-old 
regulations. But I do believe it can be done safely and 
responsibly, and has been, in many cases.
    Mr. Lamborn. OK. Well, thank you. So, does fracking present 
any other health risk, in and of itself, in a properly drilled 
well, as you just described?
    Secretary Jewell. The key is in a properly drilled well, 
and making sure that companies are abiding by that, and can 
demonstrate that. I believe it can be and is being done safely 
and responsibly by companies.
    Mr. Lamborn. OK, thank you. Now, switching subjects, prior 
to this hearing I attempted to find BLM's 2013 oil and gas 
statistics. However, BLM has not yet made them publicly 
available. Now, the 2012 statistics show a continual decrease 
in the total number of acres leased, total number of leases in 
effect, and number of new leases issued. These numbers have 
been steadily decreasing since 2008. Can you tell us if the 
2013 numbers will show another decrease in energy activity on 
Federal lands, and when will they be released to the public?
    Secretary Jewell. I can give you a few facts right now, and 
am happy to follow up with some others.
    In fiscal year 2013, BLM processed 4,892 applications and 
approved 4,472 of them. In fiscal year 2012 we had 5,861 APDs 
processed, and 4,256 approved. So we are actually increased in 
the number of approvals in 2013. In fiscal year 2011 there were 
5,200 APDs, and 4,725 approved.
    I will say this, Congressman, that the number we are able 
to process is a function of the number of people we have. Part 
of our challenge there is budget, and the ability to dedicate 
resources to that. And we would appreciate your support in this 
budget for having some fees to industry for onshore oil and gas 
inspections, which we are also doing out of this budget, taken 
off budget and funded by industry, so we can put appropriate 
resources to the table in the BLM to address the demand.
    Mr. Lamborn. Well, and thank you for that point. And also, 
I would like to point out we have passed legislation here in 
the House, in a bipartisan way, such as my bill, H.R. 1965, 
which dedicates some of the money that the Treasury receives 
from leasing and permitting to the hiring of more people to 
process these applications and permits faster.
    And I am disappointed to hear, like what you have just 
said, that we have decreased in the number of leases and 
permits for 2013, even compared to 2012, which wasn't that 
great of a year, either. So I am sorry to hear that going down, 
still.
    And, changing subjects, I would like to ask you about the 
Helium Stewardship Act. Can you tell me what your departments 
are doing to implement that legislation, which was passed in 
Congress recently?
    Secretary Jewell. I do know that--first, we appreciate very 
much the bipartisan cooperation, bicameral cooperation, to get 
that done. We continue to produce helium. It is very, very 
critical. And, over time, I believe our plan is to work toward 
getting out of the business of producing helium, and creating 
support for private industry to do that.
    Mike, do you have any more information on that?
    Mr. Connor. I don't.
    Secretary Jewell. If not, we could provide more for the 
record, if that is helpful.
    Mr. Lamborn. I would look for that. Thank you so much for 
being here. And, Mr. Chairman, I yield back.
    The Chairman. Thank you very much for yielding back. The 
Chair recognizes the gentlelady from Massachusetts, Ms. 
Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you, 
Secretary Jewell, for testifying here today. I commend you for 
submitting a budget that not only makes critical investments to 
promote economic growth and job creation, but also reduces our 
deficit.
    As you know, this week the Intergovernmental Panel on 
Climate Change issues one of their starkest reports yet on the 
many impacts of climate change. The report outlined the many 
impacts around the globe that we are already experiencing, and 
predicted that the problems will grow significantly worse, 
unless greenhouse gas emissions are brought under control.
    I believe climate change is a critical generational issue 
that Congress can no longer ignore. But addressing it is also a 
way to spur economic growth and create new jobs. In the past 2 
years, clean energy jobs in my home State of Massachusetts have 
grown by 24 percent, and are projected to grow another 11 
percent in 2014.
    So, Secretary Jewell, one of the many proposals included in 
the President's Climate Action Plan is setting a goal of 
permitting 20 gigawatts of renewable energy on public lands by 
2020. I agree that public lands must responsibly play their 
part in expanding the availability and use of renewable energy. 
Can you talk about how this budget helps us meet that goal?
    Secretary Jewell. Thank you very much, Congresswoman 
Tsongas. The President charged us, as you mentioned, with 
doubling down on renewable energy permitting, and we are well 
on our way to achieving the goal of 20,000 megawatts by 2020. 
We are at 14,000 megawatts today. We do have increases in the 
budget to continue to support that effort. One of the areas I 
think of greatest interest in the Eastern Seaboard is what the 
Bureau of Ocean Energy Management is doing with the States to 
deconflict areas to stand up offshore wind energy generation 
projects. And there is a lot of private industry interest in 
that, and also putting a transmission backbone to provide 
reliable, renewable energy offshore.
    So, we continue to put increases in the budget to support 
this effort, modest increases, but we do have greater levels of 
experience now, thanks to what the Bureau of Ocean Energy 
Management has been able to do over the last year. And we will 
continue those efforts.
    Ms. Tsongas. Well, I know that Massachusetts was very proud 
to participate in the Nation's first-ever competitive lease 
sale for renewable energy in Federal waters, because we know 
that, if fully developed, production from these areas could 
power up to one million homes.
    I am curious as to whether or not you expect other lease 
sales to be made available in Massachusetts and along the 
Eastern Coast.
    Secretary Jewell. We do have one more in Massachusetts, I 
believe, but up and down the Eastern Seaboard we are staging 
lease sales. And one of the things that is important to 
recognize is this landscape-level approach, which we are 
applying broadly, which is what are the areas of conflict, and 
what are the areas that are not conflicted, whether it is 
fishing, shipping, Department of Defense uses, Coast Guard, 
safety. All of those things are being taken into account, as 
well as where the wind is, so that we can be thoughtful about 
targeting leasing to an area that is less likely to be in 
conflict for the wind energy developer.
    Ms. Tsongas. Well, I agree that that is an important way 
forward.
    Did you want to comment, Mr. Connor?
    Mr. Connor. Just that we have three more lease sales 
planned this year. One of them is off the coast of 
Massachusetts, as well as Maryland and New Jersey.
    Ms. Tsongas. Great. Another issue here. Last month, at a 
Federal auction in New Orleans, BP won the right to drill for 
oil in the Gulf of Mexico. The auction came less than a week 
after the EPA lifted a ban on the company from bidding on 
Federal drilling contracts.
    Can you talk about--I mean we have great concern as to 
whether or not we have really addressed the many safety issues 
around drilling in our waters, and I am wondering if you can 
talk about how this budget seeks to increase offshore drilling 
safety, given that we have seen what can happen, the disasters, 
consequences of a spill, a major spill.
    Secretary Jewell. I am going to ask my colleagues behind me 
to give me the numbers on BSEE while I talk about this.
    The Bureau of Safety and Environmental Enforcement was 
created after the Deepwater Horizon spill, as was the Bureau of 
Ocean Energy Management, split apart from what was the Minerals 
Management Service. There were a lot of lessons learned, 
certainly by industry. Nobody was a winner in that scenario. 
And certainly, by us--it has enabled us to use fees from 
offshore oil and gas activities to fund safety and 
environmental programs. Brian Salerno from the Coast Guard runs 
that program for us, and is very, very focused, personally, on 
ensuring the safety of our offshore oil and gas activities. And 
I think they do a terrific job.
    Ms. Tsongas. Thank you. I know we in Congress have not 
received a very good grade. So I am hopeful that all these 
changes will make a significant difference. But I still have my 
concerns.
    Secretary Jewell. OK. The BSEE budget, $204.6 million, up 
about $2 million. And they did actually have a strong budget 
last year, and so we are continuing to round out a strong and 
qualified team.
    Ms. Tsongas. Thank you.
    The Chairman. The time of the gentlelady has expired. 
Recognize the gentleman from Georgia, Dr. Broun.
    Dr. Broun. Thank you, Mr. Chairman. Madam Secretary, a 
comment. You spoke incorrectly a few minutes ago to the 
Chairman's question about listing on the Endangered Species 
Act. A good example is the polar bear was listed without good 
scientific data and no public comment or other things, and I 
think it is absolutely wrong that that was done.
    But, Secretary Jewell, we probably see hundreds of bills 
come through this committee each year which would either 
designate new land as part of the National Park Service, or 
which would start the ball rolling in that direction through a 
feasibility study, or some kind of other investigatory action. 
At the same time, President Obama has been very active in using 
the Antiquities Act to add new units to the National Park 
Service, essentially working around Congress.
    I personally don't support any expansion whatsoever of the 
National Park Service for many reasons. However, when many 
Members of Congress seem willing to add new land to the Park 
Service, can you speak as to why the President feels that he 
still must work around Congress to essentially achieve the same 
end? Please answer quickly, I have a bunch of questions.
    [Laughter.]
    Secretary Jewell. Well, Congressman, the Antiquities Act 
has been a very, very important tool that Congress provided to 
presidents. It has been used by 16 presidents, both Republican 
and Democrat, to set aside very, very important properties 
like, for example, facility to Harriet Tubman last year, and 
Cesar Chavez. There are only--Congress can designate----
    Dr. Broun. Ma'am, I appreciate that. Will you just----
    Secretary Jewell. I----
    Dr. Broun. I have a lot of questions. And----
    Secretary Jewell. Well, why don't you ask them all, and I 
will try to answer them all.
    Dr. Broun. If you could, just give me a written answer to 
that.
    Are his priorities more important than those of Congress?
    Secretary Jewell. The priorities of Congress are important, 
the priorities of the President are important.
    Dr. Broun. Well, the President seems to not care about the 
priorities of Congress, and----
    Secretary Jewell. Congress provided the Antiquities Act to 
the President to make the designations.
    Dr. Broun. Secretary Jewell, given the tremendous backlog 
of deferred maintenance facing the Park Service, as well as the 
near-constant addition of new land to the Park Service's 
already bloated rolls, is the President's desire to add even 
more land indicative of a lack of prioritization?
    Secretary Jewell. No, sir. There are a tremendous number of 
private land properties that are--that private land owners 
would like to put in Federal ownership or provide a 
conservation easement on which are very, very important to the 
American people.
    I visited ranchers in both the Everglades and in Montana, 
for example, that want to put conservation easements on their 
land. That is a great example of a use of Land and Water 
Conservation Fund that doesn't put any land into Federal 
Government ownership, but actually enables these ranchers to 
keep these lands working for their families for years to come, 
while protecting critical habitat----
    Dr. Broun. And we talk about the Park Service here--ma'am, 
I apologize again for interrupting you, but we are talking 
about the Park Service here. Seems to me that the backlog has 
grown so large that, like the overall Federal debt, this 
administration has simply chosen to ignore it.
    Madam Secretary, this committee has considered legislation 
in the past which would use timber harvested on Federal lands 
to pay for other related Federal priorities. What are your 
thoughts on using these resources to help ease the current 
maintenance backlog? And what about selling some of this land 
to the farmers or other willing purchasers?
    Secretary Jewell. Well, the maintenance backlog has about 
$1.1 billion to address it in the current budget. We also have 
recreation fees that help support our public lands. And there 
is money in the Department of Transportation--about $280 
million--to address some roads issue. The sale of Federal lands 
is dictated by laws that we are required to uphold.
    There are things being considered right now, for example in 
Wyoming, to address some opportunities for inholdings within a 
national park, as being offset by some BLM land exchanges with 
the State. We remain very, very interested in working alongside 
our elected officials and States on things that make the most 
sense to them, as it relates to the management of Federal 
lands.
    Dr. Broun. Thank you, Madam Secretary. I am going to ask 
you to answer some questions for the record that I will present 
to you, and I have a whole bunch of other questions. And I 
apologize for being interruptive in your answers, but I have 
limited time.
    Mr. Chairman, I will yield back.
    The Chairman. I appreciate that. I will recognize the 
gentleman from California, Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair, and thank you, Madam 
Secretary, for coming. I would like to ask you a couple of 
questions regarding hydraulic fracturing and the BLM's current 
rulemaking.
    First, I would like to state for the record that I do not 
think that hydraulic fracturing is inherently bad. However, 
that being said, we need to be writing rules to make sure that 
it is done right. For example, the public needs to be certain 
that fracking is being performed in a manner that protects 
health and safety, and the health of our ecosystems. That is 
why I have been very concerned with the BLM's draft rule, 
because it does not live up to those standards that we expect 
from our government.
    Contrary to what my friends on the other side of the aisle 
have said, it strikes me that the rule doesn't do much at all, 
it simply requires companies to do what they are already doing 
under State regulations, and to rely on a seriously flawed 
method of public disclosure.
    Last week, on March 25, I and 14 of my colleagues sent a 
letter to the BLM and to the DOE on this issue of public 
disclosure. We believe that FracFocus, which the BLM is 
considering for use as the primary tool for public disclosure 
on fracturing operations on public lands, is seriously flawed.
    Mr. Chair, I would like to add that letter to the record.
    The Chairman. Without objection, it will be part of the 
record.

    [The letter submitted by Mr. Lowenthal for the record 
follows:]
Letter Submitted for the Record from Members of Congress to BLM and DOE

                     Congress of the United States,
                                      Washington, DC 20515,
                                                    March 25, 2014.

Chairman John Deutch,
Task Force on FracFocus 2.0,
The Secretary of Energy Advisory Board (SEAB).

Neil Kornze,
Principle Deputy Director,
Bureau of Land Management.

    Dear Chairman Deutch, Task Force Members, and Mr. Kornze:

    We would like to thank you for your recent draft analysis of the 
hydraulic fracturing data repository FracFocus (FF).\1\ We believe that 
information about chemicals being injected underground should be as 
transparent and easily accessible as possible in order to protect 
public health and safety and allow the American people to know what is 
going on beneath their feet. We share your conclusion that FF does not 
meet appropriate transparency, usability, accuracy, or permanence 
standards. If the States, the Federal Government, and the public hope 
to provide meaningful oversight and understand the health and safety 
risks of fracking, we must either require major changes to FF or choose 
another truly open disclosure tool.
---------------------------------------------------------------------------
    \1\ Secretary of Energy Advisory Board, draft Task Force Report on 
FracFocus 2.0, U.S. DOE, February 24, 2014.

    We strongly agree with your recommendations that changes must be 
made to address the fundamental flaw with FF that much of the uploaded 
data from hydraulically fractured wells is inaccurate, inaccessible, or 
---------------------------------------------------------------------------
Incomplete. Specifically:

    Accuracy: We support your recommendation that ``FracFocus should 
improve the quality of the data entered into the system, especially the 
accuracy and completeness of reported CAS numbers.'' A FF press release 
confirms that operator data submissions are not verified in any way, 
saying ``. . . it is true the FracFocus staff does not review the forms 
for content''.\2\ Because of the lack of quality control, well records 
are incomplete, contain numerous errors, and are in inconsistent 
formats. For example, a recent review of FF chemical disclosure data 
found that 29 percent of Chemical Abstract Service (CAS) numbers 
reported from Texas wells in July 2012 were wrong.\3\
---------------------------------------------------------------------------
    \2\ FracFocus, FracFocus Responds to Harvard Study, April 24, 2013.
    \3\ Scott Anderson, A Red Flag on Disclosure of Hydraulic 
Fracturing Chemicals, EDF: Energy Exchange, Dec. 12, 2012.

    Many government reporting programs have been able to establish 
procedures to review submissions and develop program specific software, 
with data quality checks built in, to help filers submit information 
more quickly and with fewer errors. There are many electronic tools 
that FF could use to streamline and even partially automate such data 
---------------------------------------------------------------------------
quality checks.

    Accessibility: We support your recommendation that the FracFocus 
system ``include tools for searching and aggregating data by chemical, 
well, by company, and by geography.'' FF states it is only a tool, and 
that the quality of information that it receives is out of its 
control.\4\ But even in that capacity it is severely inadequate, 
because FF data cannot be accessed for meaningful analysis. FF has 
refused to make well data publicly available for full download in 
aggregate spreadsheet format for research and make well data publicly 
available for full download in aggregate spreadsheet format for 
research and analysis. Instead, chemical information is only available 
to the public by downloading data about a single well at a time in pdf 
format. This fundamental shortcoming has made it nearly impossible to 
perform any comprehensive data analysis without resorting to difficult 
and imperfect third-party workarounds.\5\
---------------------------------------------------------------------------
    \4\ Ibid. 2.
    \5\ Corrie Clark, Robert Horner, and Christopher Harto, Argonne 
National Laboratory, ``Life Cycle Water Consumption for Shale Gas and 
Conventional Natural Gas,'' Environ. Sci. Technol. 2013, 47, 11829-
11836. On page 11832, the authors describe the shortcomings of FF, 
``FracFocus data are not available in an aggregated format. Data for 
each well are stored separately in a portable document format (PDF). 
This analysis relied upon a data set made available by Skytruth.''

    Completeness: We support your recommendation that industry pursue 
``complete disclosure rather than protecting trade secrets of uncertain 
technical merit.'' FracFocus does not play any role in verifying the 
trade secret chemical disclosure exemptions claimed by 84 percent of 
registered wells.\6\ Instead, FF points to regulators' responsibility 
to enforce any trade secret limits; FF allows operators to provide no 
data and to claim the trade secret exemption on any chemical compound 
they wish. The result is that 16 percent of all chemicals in the 
database are not disclosed because of claimed trade secret 
exemptions.\7\
---------------------------------------------------------------------------
    \6\ Ibid. 1.
    \7\ Ibid. 1.

    While State and Federal regulators obviously have an important role 
to play in evaluating trade secret claims, certain tasks can only be 
performed by FF, as the central repository of data. For instance, a 
Harvard Law School report on FF found that in many instances, chemicals 
claimed to be trade secret in one State had been disclosed 
elsewhere.\8\ FF can and should crosscheck trade secret claims to alert 
regulators and the public if trade secret claims are inconsistent with 
disclosures in other jurisdictions.
---------------------------------------------------------------------------
    \8\ Kate Konschnik, Harvard Law School, ``Legal Fractures in 
Chemical Disclosure Laws,'' April 23, 2013.

    In addition, FracFocus takes no responsibility for the quality of 
any of its data.\9\ Given this abrogation, regulators should have no 
confidence that FF will play any role in data quality control. 
Therefore, the failure of FF to verify the data will force the States, 
the Bureau of Land Management (BLM), and any other health and safety 
officials to be entirely responsible for the accuracy, accessibility, 
and completeness of fracking operator chemical disclosures. While we 
are not implying that FF itself should play any direct regulatory role, 
the data submitted to and housed by FF is in fact what regulators rely 
on to perform their oversight roles.
---------------------------------------------------------------------------
    \9\ FracFocus, Terms and Conditions of Use.

    In sum, these three fundamental flaws will prevent the public and 
regulators from providing meaningful oversight and evaluating the 
---------------------------------------------------------------------------
health and safety risks associated with hydraulic fracturing.

    Finally, the BLM is considering using FracFocus as the data 
repository for disclosure of hydraulic fracturing operations on public 
lands. However, given FF's significant limitations on downloading and 
aggregating data, using FF would violate President Obama's executive 
order, signed on May 9, 2013, which requires government information be 
available to the public in open, machine-readable formats.\10\ 
Concurrently, the Office of Management and Budget (OMB) released an 
Open Data Policy, which establishes that the policy applies ``to all 
new information collection, creation, and system development efforts.'' 
\11\ The information reporting proposed in the BLM rule clearly 
qualifies as a ``new collection'' and therefore must comply with the 
Open Data Policy.
---------------------------------------------------------------------------
    \10\ Executive Order 13642 of May 9, 2013.
    \11\ OMB Memorandum: Open Data Policy--Managing Information as an 
Asset, May 9, 2013.

    We believe that the BLM should incorporate the Task Force's 
applicable recommendations, leveraging all of the work that the 
Secretary of Energy Advisory Board has already completed. The BLM 
should require any repository database for public lands well disclosure 
to achieve the standards and recommendations that the Task Force lays 
out, and the BLM should not rely on FF until it meets those standards 
---------------------------------------------------------------------------
and recommendations.

    Furthermore, because FracFocus has made clear that it is not 
responsible for verifying or challenging trade secret exemption 
claims,\12\ the BLM must take responsibility for ensuring the trade 
secret exemption is not abused. Unfortunately, BLM's draft rule ``does 
not specify the process by which the BLM would assess or deny the 
protection, nor a procedure for public challenge of the claim.'' \13\ 
And therefore, the Task Force recommends ``that any trade secret 
exemptions permitted by BLM in its regulations for hydraulic fracturing 
on Federal lands include a rigorous process of claiming trade secret 
exemptions and robust trade secret verification and challenge 
mechanisms.'' We strongly concur with that recommendation.
---------------------------------------------------------------------------
    \12\ Ibid. 9.
    \13\ Ibid. 1.

    While we support all the recommendations in the draft report, we 
urge the Task Force to take a stronger look at the potential and 
feasibility of incorporating pre-fracking chemical disclosure, water 
quality data, or other important information into FF. The Task Force 
notes that adding these features would be challenging when submissions 
remain largely voluntary, However, with 14 States now requiring the use 
of FF, and BLM poised to make it a nationwide requirement for public 
lands, we believe that a more intensive exploration of the 
---------------------------------------------------------------------------
possibilities of expanding FF is warranted.

    Falling short in meeting the Task Force's standards and 
recommendations is unacceptable: it will jeopardize the public trust, 
it will slow responsible operators who are following high standards, 
and most importantly, it will keep the public health and safety 
officials from performing oversight and preventing harm to our 
communities when the unexpected does occur.

            Sincerely,

                                            Alan Lowenthal,
                                             Peter DeFazio,
                                        Matthew Cartwright,
                                             Keith Ellison,
                                            Rauul Grijalva,
                                                 Rush Holt,
                                                Mike Honda,
                                             Jared Huffman,
                                               Barbara Lee,
                                                Mark Pocan,
                                              Mike Quigley,
                                          Carol Shea-Porter
                                                Paul Tonko,
                                              Niki Tsongas,
                                                  Tim Ryan,

                                               Members of Congress.

                                 ______
                                 

    Dr. Lowenthal. Our letter supports recent research and 
recommendations by the Department of Energy's task force that 
was specifically tasked to review FracFocus. In our letter we 
document how FracFocus contains data that is inaccurate, 
inaccessible, and incomplete. In fact, the BLM rule would 
violate the administration's own open data executive order 
dated May 9, 2013.
    Mr. Chair, I would like to add--put into the record the 
executive order.
    The Chairman. Without objection, that will be part of the 
record.

    [The executive order that Mr. Lowenthal submitted for the 
record follows:]
                Executive Order Submitted for the Record
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Lowenthal. Are you familiar, Madam Secretary, with the 
DOE's specific recommendations on FracFocus--the BLM?
    Secretary Jewell. I am aware at a high level. I am not 
aware on the details. But I will certainly follow up on that.
    Dr. Lowenthal. Thank you. Let me read to you just a few of 
the DOE's task force recommendations. The task force favors 
full disclosure of all--all--known constituents added to 
fracturing fluid with few, if any, exemptions.
    Examination--next one, another--examination of a limited 
sample of records from FracFocus 2.0 indicates a variety of 
errors. FracFocus should improve the quality of the data 
entered into the system.
    Another recommendation, the task force has learned from 
FracFocus that 84 percent of the registered wells invoked a 
trade secret exemption. This data does not suggest the level of 
transparency and disclosure that is urged by the task force.
    And finally, I would like to say the BLM--they say the BLM 
disclosure regulations do not meet the high disclosure 
standards that the 2011 subcommittee recommended that BLM 
adopt. And the task force recommends that any trade secret 
exemptions permitted by BLM in its regulations for hydraulic 
fracturing on Federal lands include a rigorous process of 
claiming trade secret exemptions and robust trade secret 
verification and challenge mechanisms.
    Madam Secretary, I profoundly hope that the BLM take these 
recommendations seriously. And I would like to add the 
Department of Energy, the DOE task force report, into the 
record.
    The Chairman. Without objection, it will be part of the 
record.
    Dr. Lowenthal. And then, finally, I would like to just 
follow up that I asked you the last time you were here, on July 
17, and the answers I found were not really totally complete.
    For example, I asked how the BLM would ensure that 
FracFocus fixed its data search, its sort, and aggregation 
tools. The Interior replied in the letter that ``FracFocus has 
evolved into a standardized, easily accessible repository of 
public information.'' Well, Madam Secretary, nothing could be 
further from the truth. The Executive Order 13642 requires that 
the default state of government information resources shall be 
open, machine-readable, and that the Federal Government is 
there to ensure that data are released to the public in ways 
that make the data easy to find, accessible, and usable. 
FracFocus not only contains data that is error-prone, it is 
tedious to download, it can only be done one well at a time, in 
a pdf format, not in aggregate or machine-readable format.
    Do you agree? I just want to know that FracFocus does not 
comply with the Executive Order itself, to be open, easily 
accessible. We have found it very difficult--and so has the 
task force report--to access.
    Secretary Jewell. Well, Congressman, I appreciate your 
comments. We are right in the thick of assessing FracFocus's 
current capabilities of digesting the information that came 
from the DOE report, and absolutely will take all of that into 
consideration.
    Dr. Lowenthal. And, just in conclusion, I would just like 
to say we are not opposed.
    Secretary Jewell. Understand.
    Dr. Lowenthal. But this is not acceptable.
    The Chairman. The time of the gentleman has expired.
    Dr. Lowenthal. Thank you.
    The Chairman. I recognize the gentleman from Louisiana, Dr. 
Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Madam Secretary, on 
February 5, 2014, former Secretary of the Interior Ken Salazar 
said--I quote--``I believe hydraulic fracking is safe. We know 
that, from everything we have seen, there is not a single case 
where hydraulic fracturing has created an environmental problem 
for anyone. We need to make sure that story is told.''
    My question to you is, do you agree with your predecessor?
    Secretary Jewell. I believe hydraulic fracturing can be 
done safely and responsibly. You know, I can't say that I have 
seen any studies that suggest a direct link between hydraulic 
fracturing and groundwater contamination, but there have been 
links with groundwater contamination on injected fluids. And I 
think it depends on assuring that you have a good wellbore 
integrity and good practices, and those are the kinds of things 
we are looking at in our fracking regulation.
    Dr. Fleming. Well, to be sure, so you are saying there has 
been groundwater contamination from hydraulic fracturing?
    Secretary Jewell. There has been groundwater contamination 
from injected fluids, whether it is injected wastewater fluids 
or other means. So we want to make sure that, in our fracking 
regulations, that we have the kind of wellbore integrity, so 
that water is going to its intended location, and the frack 
fluid and--that is exactly what our regulations are intended to 
do.
    Dr. Fleming. OK. I would ask, Mr. Chairman, that we request 
the Secretary provide to us the exact examples of that. I am 
totally unaware of those. Again, we have had many witnesses, 
none have indicated any problems with groundwater 
contamination.
    But let's go back to wellbore integrity. Now, as you well 
know--and, as you say, you have actually fracked before--we are 
talking about 60 years of experience. And, again, I am unaware 
of a single human that has ever been harmed as a result of 
hydraulic fracturing. My question is, why do we need 
regulations for this on the Federal level, when we have been 
doing a sterling job--again, not one example of harm to 
humans--along the way? Why do we need Federal regulations at 
this point?
    Secretary Jewell. Well, we are charged with safe and 
responsible development on Federal and tribal lands. States, in 
some cases, are very sophisticated and have regulations in 
place, and our regulations say that if the State standard 
exceeds what we have in the Federal Government, the State 
standard will apply. There are many States that have robust 
regulations in place. There are other States, especially in 
some of these new formations, tight gas and so on, where they 
have not had any regulations, where it has not been a 
tradition, oil and gas exploration.
    Dr. Fleming. Well, but----
    Secretary Jewell. There, on----
    Dr. Fleming. But again, just----
    Secretary Jewell [continuing]. Federal lands, we must 
provide regulations to cover those.
    Dr. Fleming. Well, I mean, again, if they are doing a 
fantastic job and we are not--we haven't seen any bad results, 
isn't this really the classic case of the hammer looking for a 
nail?
    Secretary Jewell. I don't believe so, sir. I believe that 
we are working alongside States to learn from their 
regulations. We are applying the best standards that we can. 
And our regulations have not been updated for 30 years----
    Dr. Fleming. Well, it just seems--it seems duplicative. You 
are learning from the States. If they are doing such a great 
job, and you are having to learn from them, then why do we need 
a whole other layer, particularly at a time where we have such 
cost constraints?
    Secretary Jewell. Our regulations will apply to Federal and 
tribal lands. We do have regulations now, they just haven't 
been updated in 30 years, and technology has changed a lot. And 
it has been more than 30 years since I have been in the oil and 
gas industry.
    Dr. Fleming. OK----
    Secretary Jewell. And things have changed dramatically.
    Dr. Fleming. All right. In the time I have left, let me ask 
another question.
    When you became Secretary of the Interior, it is my 
understanding--I have a quote from you here that you said on 
August 1, 2013, ``I hope there are no climate change deniers in 
the Department of the Interior.'' Is that a correct quote?
    Secretary Jewell. Well, in context, I said I have been on 
the lands and waters around the Department of the Interior, and 
it would be very difficult to see the lands that I have seen 
and deny that climate change is going on. That is, I believe, 
what I said.
    Dr. Fleming. So is that a purity test, for someone to work 
for you in the Department of the Interior, which is a very 
large Department? That means that, in your opinion, that 
everyone should agree with you that there is such thing as 
manmade climate change? You know, there is controversy over 
that issue and disagreement, even among very excellent 
scientists.
    Secretary Jewell. Absolutely not. There is no litmus test 
for people at the Department of the Interior, and I didn't talk 
about causes of climate change. Every place I have gone on 
public lands I see droughts, I see wildfires, I see coastal 
erosion, I see the impact of storms. And that is the reality 
that we are facing in this country. And my comments simply were 
to say that, as a large land manager, it is important that we 
open our eyes to the challenges our lands are facing, and that 
we address those challenges head on.
    Mr. Bishop [presiding]. The time of the gentleman has 
expired.
    Dr. Fleming. I yield back.
    Mr. Bishop. The Chair recognizes Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Madam Secretary, I 
had the staff peruse the budget. And we can only find two 
programs that took significant cuts in your budget. And one was 
Alaska land conveyance, which I am not an expert on, and the 
gentleman from Alaska isn't here. But the second was the Oregon 
California lands.
    Oregon California lands are an absolutely unique set of 
lands in the State of Oregon that have to do with the 
government taking back lands from a railroad that violated 
their agreement with the government. They were private lands at 
one point, and then they were taken back, and a unique law was 
passed to require the perpetual sustainable management of those 
lands for timber. And the beneficiaries were the impacted 
counties.
    As you are aware, the Oregon Delegation is working on 
legislation for the future management of those lands. But I 
find it odd that this program is taking a 10 percent reduction, 
and the only other program is in Alaska. There are many 
challenges on these lands. One is the fact that they are trying 
to develop a new land management plan because the Obama 
administration pulled the plug on the Bush administration plan, 
the so-called Whopper. The Federal Government recently lost a 
case in court, and has been ordered to produce more timber on 
two of the larger districts covered by the O&C lands, the 
southern part. And this is going to require a substantial 
amount of work on the part of the O&C.
    And we have many, many ongoing challenges. And I just don't 
see how that staff, and taking that kind of a cut, is going to 
meet these challenges and help us coordinate a future for these 
lands. Could you explain why that was singled out for a cut, 
out of all your programs?
    Secretary Jewell. Yes, and it is complicated, as many of 
these things are: $4.2 million of a $4.4 million decrease is 
reflective of the fact that the Western Oregon Resource 
Management Planning Program will complete six revised resource 
management plans in June of 2015. So that reflects the 
completion of those resource management plans----
    Mr. DeFazio. Madam Secretary, if I could--and I don't want 
to be impolite, but I don't have much time--if the past is any 
predictor of the future, those plans will not be completed by 
June of next year, you know. And so I think pulling back 
resources at the beginning of the year, in the anticipation 
that somehow those plans are magically going to get through the 
process, very complicated plans, is not good planning.
    Second, obviously, we are going to have the same challenges 
in Oregon that other States have with fires this year. Again, I 
just--I can't find a way to justify those cuts, and would hope 
that Congress will see fit to rearrange the budget in those 
ways.
    Let's go to Land Water Conservation Fund for just a minute. 
We had early discussion by the Chairman. There is $900 million, 
I believe, that flows in from fees on offshore oil and gas. Is 
that correct?
    Secretary Jewell. That is correct.
    Mr. DeFazio. About 900?
    Secretary Jewell. That is correct.
    Mr. DeFazio. OK. And how much of that was spent on 
conservation purposes last year?
    Secretary Jewell. What was the current number for LWCF, 
Pam? She will be looking that up. Actually, we get way more 
than $900 million. That was the amount that was allocated for 
LWCF back in--49 years ago, when the law was enacted. We 
actually take in a lot more than that.
    Mr. DeFazio. OK. So you have revenues in excess of $900 
million, and only a portion of it is dedicated to the LWCF, and 
it is authorized to be spent on conservation purposes.
    Secretary Jewell. That is correct; $306 million for LWCF 
last year, and that was both Interior and the U.S. Forest 
Service.
    Mr. DeFazio. So where did the other slightly less than $600 
million go that was designated and authorized by law to be 
spent for conservation purposes?
    Secretary Jewell. It was not appropriated, so it went to 
other portions of the budget, or other appropriations, or was 
not spent.
    Mr. DeFazio. OK. And yet you--as you said, you have willing 
sellers who have inholdings who are either looking to convey 
easements or perhaps convey their land-locked parcel to the 
Park Service?
    Secretary Jewell. That is correct. Far, far in excess of 
the money that would be appropriated now and for the future.
    Just a quick number, revenue deposits since 1965 of $35 
billion, of which $19 billion has not been appropriated.
    Mr. DeFazio. $19 billion, OK.
    Secretary Jewell. Correct.
    Mr. DeFazio. Well, and then the other thing is the backlog 
in the parks, and we don't have time to get into that now. But 
we have to find a way to begin to defray that capital backlog. 
I would love to discuss that at another time. Thank you, Mr. 
Chairman.
    The Chairman [presiding]. I thank the gentleman. Recognize 
the gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. And, Secretary Jewell, 
thank you for being here and being forthright with your answers 
today. I have enjoyed the testimony.
    I want to clear up one thing real quick. Dr. Fleming was 
asking about hydraulic fracturing and groundwater contamination 
and you said that there have been instances with the fracking 
fluid actually getting in groundwater.
    Secretary Jewell. No, sir. I actually talked about injected 
fluids.
    Mr. Duncan. OK. So that was surface water runoff is the 
issue--the ones that I am aware of, where there has been any 
groundwater contamination that--have been able to point to, it 
has been where something, hydraulic fluids, have been stored 
onsite and maybe had an event where they ran off into a stream, 
or whatever. Is that what you are talking about, or are you 
talking about actually down in the earth, getting into the 
aquifer?
    Secretary Jewell. No, sir. I mean there have been 
documented cases of fracking fluid on the surface contaminating 
groundwater, people dumping it illegally, those kinds of 
things. There has been evidence of groundwater contamination 
from injected fluids, but not specifically due to fracking.
    Mr. Duncan. OK, thank you. I look forward to getting that 
information. So thank you for that.
    After 5 years of waiting, I am thankful that we can look at 
the final PEIS for seismic testing in the Atlantic. However, 
this week the Bureau of Ocean Energy Management announced that 
they will extend the comment period for the Atlantic seismic 
PEIS for another 30 days. This, of course, again, pushes back 
the data of the expected record of decision, so that we can get 
permitting for seismic movement in the Atlantic.
    Can you explain why this delay was necessary, especially 
for a process that started 5 years ago?
    Secretary Jewell. Well, sir, we have been involved in it 
for a number of years. We are fully committed to supporting 
seismic, geologic, and geophysical examination. We get requests 
to extend comment periods. A 30-day extension is not unusual 
for us on things like that. We don't believe it will have a 
material impact on the interest or the timing of the interested 
G&G parties in doing seismic work in the Atlantic.
    Mr. Duncan. OK. You have previously stated that completion 
of the PEIS will inform future decisions about whether leasing 
in the Atlantic would be appropriate. And, if so, where such 
leasing should take place. You have also stated that collection 
of new seismic data is not prerequisite to developing the next 
5-year program.
    So, if I take those statements one step further, can you 
pledge that the Mid- and South-Atlantic planning areas will 
remain an option for possible leasing in the next 5-year plan?
    Secretary Jewell. We certainly expect that--I mean they 
certainly will be an option for possible leasing. Our 
expectation is we will have good data, and we will be looking 
very seriously at inclusion of the Atlantic based on the 
information that we know will be occurring over the coming 
years.
    Mr. Duncan. OK. Well, let me just ask it a different way, 
then. In your words, can you pledge that your draft 2017-2022 
5-year program will not close off the Atlantic leasing so long 
as we are still waiting on new seismic data being obtained and 
interpreted?
    Secretary Jewell. Yes, we have no intention of closing off 
that area.
    Mr. Duncan. OK, thank you. Mr. Chairman, I don't have 
anything further, and I yield back.
    The Chairman. I thank the gentleman for yielding back, and 
recognize the gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being here.
    Many of the questions have been explored, Land Water 
Conservation Fund, and I will submit questions to that, some 
questions that I have specific to wild horses and burros, and 
what that process with BLM is going on. But I did want to point 
out a couple of things that I thought were important to point 
out in your--in the budget of the Department.
    The reform of the 1872 mining law, I think, is significant, 
to extend for hard rock and mineral extraction. The royalty 
requirements that we have on other extractions like gas and 
oil, I think, is an important step as a revenue generator, and 
as a return to the taxpayers.
    Tribal issues, the focus of that, the point of self-
determination, looking at health care, infrastructure needs on 
native land, I think, is overdue and a very needed requirement.
    I note with some irony, as we are talking about self-
determination, that the Sioux Nation and Dakota is planning to 
sue the Federal Government over treaty violations, sovereignty 
issues, sacred sites and graves, Antiquities Law, relative to 
the siting of the Keystone Pipeline, which I think is going to 
inject an interesting perspective and a whole other legal 
battle regarding that particular alignment.
    I want to associate myself with the points that Congressman 
Lowenthal made regarding fracking. I think, as we go forward--
and in clarifying the questions that came up from colleagues--
that the injection or the use of chemicals in that process is 
perhaps the contamination source. And for that reason, I think 
the disclosure point that my colleague made is critical to 
those rules and regulations. If we still have a protection over 
a trade secret issue, or anything could be declared 
proprietary, and, therefore, the public's right to know is not 
available, then I would suggest--and I join in the comments he 
made--that that is a critical point there.
    The initial step of dealing with issues of adaptation and 
disaster prevention on public lands relative climate change, I 
think, is very important. And it is an initial step. The U.N. 
is asking the United States for 200 billion as their 
contribution toward the worldwide attack on--and litigation of 
climate change. I think that is an important one. And I--should 
be more money, but I think that the public lands can be a 
wonderful incubator and example of how we can deal with this 
very, very important issue. And I want to thank you for not 
putting your head or the Department's head in the sand relative 
to this issue that is very real and scientifically verified 
across the board.
    The budget. The increase, the scope of the increase I would 
consider small on the parks. But given that, do you feel like 
you are at a point that you are at least to pre-sequestration 
levels, or moving in that direction? Given maintenance backlog, 
the need to integrate youth and veterans and others into the 
park, promotion of ecotourism, just the budget alone, and I 
will leave you with that question or any other comment you want 
to make.
    Secretary Jewell. Thank you very much, Congressman 
Grijalva. The Park Service budget in specific, we have the 
centennial coming up, we have worked hard to try and put a 
modest increase in the authorized budget: $40 million for 
operations and high-priority projects, of which $10 million is 
for a match with private philanthropy. We will be pursuing 
legislative action for an additional $1.2 billion over 3 years 
that will address the most critical maintenance issues in the 
parks and that visitor experience.
    And then, the President's Opportunity, Growth, and Security 
Initiative has an additional level of support. All still are 
not going to address the backlog issues we have in a huge way, 
but at least a--improve that visitor experience, and some of 
the things like Congressman DeFazio talked about. So----
    Mr. Grijalva. Thank you.
    Secretary Jewell [continuing]. We are making a step in that 
direction.
    Mr. Grijalva. Yes. And I, for one, am glad that the 
President provides a check and balance sometimes to the 
priorities that are set by the majority of the House of 
Representatives. I am glad for that check and balance, and I 
hope that when things don't appear to be correct, that it is 
used. Thank you, I yield back.
    The Chairman. The time of the gentleman has expired. 
Recognize the gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Thank you, Secretary 
Jewell, for joining us today. I appreciate you following up 
with your answer regarding hydraulic fracturing to separate the 
injection of underground fluids versus the operation of 
hydraulic fracturing itself, which has not given any evidence 
of any groundwater pollution. So I appreciate you doing that.
    In the omnibus that we passed for this year, the omnibus 
appropriations, each of the CEQ, the EPA, and the Department of 
the Interior has been directed to submit a report identifying 
all expenditures in fiscal year 2012 and 2013 for the 
development, administration, and implementation of the National 
Ocean Policy, as set forth in Executive Order 13547, and to 
clearly identify the funding proposed for the implementation of 
the National Ocean Policy in future budget submissions.
    This report was due 60 days after the enactment of the 
fiscal year 2014 omnibus, which occurred on January 17, 2014. 
Now, according to my calendar, the report was due to be 
submitted on March 18. Can you give me the status of that 
report?
    Secretary Jewell. I do know we support the goals of the 
National Ocean Policy, and I am not familiar with the status of 
the timing of the report.
    You guys?
    Mr. Flores. The----
    Secretary Jewell. OK, we are providing input, but I don't 
have the date. I am sorry.
    Mr. Flores. OK. I would ask you to follow up within 7 days 
of this hearing on that.
    The second part of that is, if it hasn't been submitted--
and it sounds like it probably has not--then I would like, 
within 7 days from this hearing, to know when it will be 
submitted to Congress, in accordance with the appropriations 
bill that was enacted on January 17.
    The next question has to do with NPS. Do you have any 
unencumbered funds from prior years' appropriations for land 
acquisition?
    Secretary Jewell. Yes, we do, and we don't know the number. 
But I am happy to get that back----
    Mr. Flores. OK. Would you submit that within 7 days, too?
    A minute ago I think you said $1.1 billion is your number 
for budget--on deferred maintenance? But that is probably $1.1 
million, isn't it? Is it million or billion?
    Secretary Jewell. OK, it is Department-wide, Park Service, 
refuges, BLM lands, and so on, not specific to the National 
Park Service.
    Mr. Flores. OK----
    Secretary Jewell. And that is----
    Mr. Flores [continuing]. Department-wide, but----
    Secretary Jewell.--$1.1 billion, Department-wide, across--
--
    Mr. Flores. What was the number, again? Billion or million?
    Secretary Jewell. Billion.
    Mr. Flores. OK. And then, what is the total deferred 
maintenance for land--for all Department of the Interior lands?
    Secretary Jewell. I know that the Park Service is $11 
billion. Fish and Wildlife Service, I think, is $4.7. Do you 
have a number for BLM? OK, she is getting the number for BLM. 
Do you want to keep going?
    Mr. Flores. Yes, you can get that to me in a minute. In 
your budget you had proposed $25 million for land acquisition, 
and $954 million for the management, lands, and resources 
account. Is there any way that you can use any of the $954 
million for land acquisition, or are you keeping that totally 
separate and it is only for maintenance?
    Secretary Jewell. Only for maintenance.
    Mr. Flores. OK, good. So there will be no reprogramming 
from those accounts for land acquisition.
    Secretary Jewell. No.
    Mr. Flores. OK, great. Let's see. The next question is, 
going back to--these are follow-ups to questions--answers you 
gave to Congressman Lamborn and Congressman Fleming related to 
hydraulic fracturing of--the BLM rule on hydraulic fracturing.
    In response to Lamborn's question you said you consulted 
with the States. And in response to Congressman Fleming's 
question you said you worked along--when I say ``you,'' the 
Department of the Interior was working alongside the States. I 
have checked with the State of Texas, with the railroad 
commissioner, railroad commission, commissioners and staff, and 
they said they have had no direct conversations with the 
Department of the Interior regarding the BLM rule.
    So, if you are working alongside the States, and Texas is 
the largest energy producer in the country, can you tell me 
what States you worked--I mean why Texas was left out, since we 
have a regulation program that shows efficacy?
    Secretary Jewell. Well, I can tell you this, that we are 
concentrating our efforts predominantly where there are Federal 
and tribal lands with oil and gas development, so States like 
Wyoming, Colorado, North Dakota is where a lot of the action is 
going on. But I can't specifically say why they haven't 
consulted with Texas, and I will follow up with that.
    Mr. Flores. OK. That would be good. I mean----
    Secretary Jewell. And let me give you the maintenance 
backlog number, if I may.
    Mr. Flores [continuing]. Sort of two parts of the question. 
Yes, where are the lands, I agree with that. But second, where 
are the best practices? And so, as a leading energy-producing 
State, I would think that we would be consulted with.
    Secretary Jewell. I take that as an offer to consult, and 
we are happy to follow up.
    Mr. Flores. OK.
    Secretary Jewell. Total deferred maintenance, $13 to $19 
billion; BLM, $700 million.
    Mr. Flores. OK.
    Secretary Jewell. Just to answer that earlier question.
    Mr. Flores. Thank you very much. My time has expired. 
Appreciate your help.
    The Chairman. I thank the----
    Mr. Flores. And we will look for the answers within 7 days.
    The Chairman. I thank the gentleman, and recognize the 
gentleman from California, Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chair. And my thanks to the 
witnesses. Secretary Jewell, it is good to see you again. And I 
want to start by thanking you for the historic designation of 
our newest national monument in my district on the Mendocino 
County coast. I think this committee and this House did good 
work.
    I don't know why we didn't see progress in the Senate, but 
I am glad that you agreed with me, that the people of Mendocino 
and people all over that are going to benefit from this 
shouldn't have to wait. I was on the Mendocino coast just this 
week, on Monday, and I can tell you that the folks in the Point 
Arena area are already seeing a tremendous uptick in tourism, 
and they are projecting as much, perhaps, as a 25 percent 
increase in the tourism economy, which is so very important to 
the people I represent. So thank you, again, for that.
    Continuing on this issue of land conservation, I also want 
to thank you for the President's commitment in the budget to 
the Land and Water Conservation Fund. Like you, I believe that 
this is a fund that is already paid for, not with tax dollars, 
but with oil and gas revenues. And it is time to honor the 
bargain that was made when Congress put that fund into place.
    So, I wonder if you could just share your perspective on 
what makes the Land and Water Conservation Fund so different 
and worthy of dedicated funding, so that this funding that was 
essentially part of a bargain through oil and gas industry 
doesn't continue to languish.
    Secretary Jewell. Thank you so much for the question. And, 
also, it has been really fun to be out in the Point Arena 
public lands and see the incredible enthusiasm and dedicated 
volunteer service on the part of your constituents to really 
make that special.
    Land and Water Conservation Fund has been used in every 
county across the country to purchase lands or to lay down 
conservation easements that are important to people in local 
communities. The stateside program is matched with State 
monies, and it helps local communities say, ``This is an area 
that is really special that we want to set aside. And will you 
help us, Federal Government?'' And it has been used very, very 
successfully for almost 50 years.
    We have inholdings where we have willing sellers of land, 
whether it is landlocked area within a national park, and the 
Land and Water Conservation Fund enables us to satisfy that 
willing seller and provide a contiguous landscape that is 
actually cheaper to manage, and not more expensive to manage.
    The Everglades Headwaters, the Crown of the Continent area, 
and many, many other areas where hunters and fishermen want 
access to their favorite fishing hole are facilitated through 
the Land and Water Conservation Fund, through conservation 
easements. And I have been with many ranchers across the 
country who want their ranches to stay in ranch land, that 
understand the benefit of how they use the land for 
conservation, and LWCF helps them maintain that future for 
their families, while also setting land aside for conservation.
    Mr. Huffman. Well, thank you very much. And, Deputy 
Secretary Connor, congratulations on your confirmation. It is 
good to see you. I appreciate your earlier answer to the 
question on the California drought, and I just want to follow 
up a bit on that. I want to commend you for being thoughtful 
about this, and recognizing, I trust, that the protections and 
the biological opinions for salmon and smelt also protect 
downstream people, farmers, who need good water quality, 
communities that depend on water that is not too salty to 
provide as drinking water to their residents, and the salmon 
economy, which has existed for a long, long time, and which is 
an important part of our heritage and our economy, especially 
in the district I represent.
    So, those protections are very important to us. And the 
truth is you have some tough balancing to do in this historic 
drought. And Mother Nature has dealt us all quite a challenge. 
But I think we need to acknowledge that right now you are 
striking that balance in favor of waiving biological opinion 
protections and increased pumping and water deliveries in the 
delta.
    You mentioned that you have an aggressive monitoring 
program underway, and I would like to hear more about that, how 
your Department intends to make sure that these lifeline 
protections for the salmon that my residents, my constituents, 
depend on are not being put in jeopardy, that the species is 
not on the brink of extinction because of those decisions.
    And then, a related point. I represent the people of 
Humboldt County and the Hoopa Tribe, which has a 50,000 acre-
foot statutory and contractual right from the Trinity Unit of 
the Central Valley Project. We have been asking for years, 
going back to my predecessor, Mike Thompson, whether the Bureau 
intends to honor that right. We have been asked to be patient, 
that answers are forthcoming. I just wanted to let you know 
that our patience does have limits, and I would like you to 
tell us where we stand on that, please.
    Mr. Connor. Yes. So, with respect to the first question, in 
monitoring of the fish species, early on, because of the nature 
of the drought--and you are absolutely right, we have a tough 
balancing act. We are looking at water supply, we are looking 
at fisheries protection, we are looking at controlling salinity 
in the delta, which is all important, and we are looking toward 
next year, if this drought continues. And those are the four 
areas that we are focused on.
    Because of the expectation that we would have to very 
closely look at the operational criteria with respect to the 
pumps, State water project, Central Valley project, we 
instituted--we had a fund transfer of about $120-$140,000 so we 
could increase monitoring in the delta of delta smelt. That has 
helped us find some new populations and given some comfort--
some of the actions we are taking. Same thing with respect to 
the salmon species at issue.
    Overall, we have done some acoustic tag and particle 
tracking that has helped us monitor. We have increased that 
with on-the-ground surveys as we made operational changes early 
in the year. And we have to simply increase that. That is going 
to be the key for us understanding the nature of the 
adjustments that we make this year, and it will add value as we 
interpret the biological opinions and apply them in future 
years. So we are trying to continue to improve our data and 
monitoring, and we need to do more, quite frankly.
    The Chairman. The time of the gentleman has expired. The 
gentleman from California, Mr. McClintock, is recognized.
    Mr. McClintock. Thank you, Mr. Chairman. Madam Secretary, 
welcome to the committee. I want to follow up on Mr. Costa's 
line of questioning.
    The massive diversions of water away from the Central 
Valley have caused catastrophic human suffering that has been 
well documented, all to meet what you call the best available 
science on delta smelt. And yet, the delta smelt population is 
the second lowest that has ever been recorded. So, it appears 
to me your best available science doesn't work, and yet you 
persist in pursuing these policies. Why?
    Secretary Jewell. I will give a high-level answer. You 
know, we are abiding by the laws, and what is required of us to 
do. The delta smelt is one species. There are salmonids, also, 
that are impacted. I will say that I have seen tremendous 
flexibility on the part of the Fish and Wildlife Service in 
this time of profound drought to do everything it can to pump 
the water necessary to help address the profound drought 
situation, while also----
    Mr. McClintock. Well, I am not speaking so much of the 
drought----
    Secretary Jewell [continuing]. Dealing with these issues--
--
    Mr. McClintock. I am speaking about before the drought. In 
fact, a year ago we had nearly record inflows into the 
Sacramento Delta, and we had nearly record negligible levels of 
outflow.
    Mr. Connor. With respect to last year, we had extremely 
high take early on in the season of delta smelt that was a 
cause for concern. We had to ratchet back pumping, 
notwithstanding the outflows as one of the protections involved 
with the species. We have used the best available science. That 
science has been challenged, it has been upheld---
    Mr. McClintock. But the science is not working. Don't you 
understand that?
    Mr. Connor. That science----
    Mr. McClintock. Can't you see the--your Fish and Wildlife 
Service's own numbers on delta smelt population? You had record 
inflows of water into the delta, the exports were minuscule. 
Everything else was lost to the ocean. You consider that to be 
responsible management of our resources?
    Mr. Connor. With the data that is available--and I would 
like to go back and provide this for you--when we had--2011, 
when we had record flows through the delta in the aftermath of 
that very high precipitation year, we had a spike in the delta 
smelt populations. And I would like to provide that information 
for the record.
    So, it is a species in crisis, and there are a lot of 
factors----
    Mr. McClintock. They have the second lowest population----
    Mr. Connor [continuing]. Beyond the pumps that are doing--
--
    Mr. McClintock [continuing]. Ever recorded. Your policies 
are not working. But they are devastating the human population 
of California.
    And I have to tell you I am also supremely frustrated now, 
moving into the drought year, with the Bureau's management of 
our water supply in that drought year.
    For example, last fall we watched the Sacramento River at 
full flood, wondering what in the world were you people 
thinking? In January it was reported that 800,000 acre-feet had 
been drained out of Shasta, Oroville, and Folsom. Drained 
Folsom Lake to nearly empty. Released for environmental 
purposes, and ultimately ended up in Southern California dams. 
Meanwhile, Northern California, with senior water rights, has 
many communities that are under water rationing and are looking 
at near-empty dams.
    Despite repeated attempts, we have been unable to get an 
accounting of this water, who released it, under what 
authority, how much was released, and when. And I will put 
these questions to you. How do you account for those water 
releases?
    Mr. Connor. I account for those water releases because the 
Bureau of Reclamation operates under State permits. And those 
permits require certain outflows. So, notwithstanding the lack 
of precipitation, we had outflow requirements which 
necessitated releases from our reservoirs. We worked with the 
State board, we have made adjustments in those releases over 
time, because of the crisis situation. But that is fundamental 
to the nature----
    Mr. McClintock. So your testimony is----
    Mr. Connor [continuing]. Of those releases----
    Mr. McClintock [continuing]. It was the State of California 
that ordered those releases?
    Mr. Connor. We have an ongoing permit, D16-41, issued by 
the State Water Resources Control Board of California, which 
controlled our operations through the end of last summer 
through last fall.
    Mr. McClintock. And you are not responsible for the release 
of water from Bureau of Reclamation Dams, specifically Folsom 
and Shasta.
    Mr. Connor. Those releases fulfill a dual purpose of 
protecting the fisheries, but they also ensure that we meet the 
outflow needs that are required by our permit. So they serve a 
dual role.
    Mr. McClintock. All right. Just this morning I talked to a 
representative of Central Valley farmers. They are constantly 
lectured about the need to carefully stretch every drop of 
water. They use the latest computer-controlled underground drip 
irrigation systems. They are actually studied by the Israeli 
government. And yet, they watch the Department release hundreds 
of thousands of acre-feet for environmental flows with reckless 
abandon, with absolutely no attempt to look at what that is 
actually doing to meet the stated objectives.
    Do you understand how frustrating that is, as they look at 
that? As they stretch and ration every drop of water, while you 
are releasing hundreds of thousands of acre-feet with abandon?
    Mr. Connor. I understand their frustration. I think they do 
a terrific job of conservation, south of the delta. But I would 
just remind our releases serve a dual purpose of the fishery 
needs, as well as the water quality standards in the delta. 
Those water quality standards not only protect fish and 
wildlife, they protect the interests of other water users who 
divert from the delta. And that is very important. We have to 
control the salinity in the delta, and that is one of the 
purposes of those water quality permit standards.
    So, it is water users impacting other water users. But I 
would concede those folks do a great job south of the delta. We 
are working with them to get as much water as we can in this 
drought year.
    The Chairman. The time of the gentleman has expired. 
Recognize the gentleman from New Jersey, Mr. Holt.
    Dr. Holt. Well, thank you, Mr. Chairman. Madam Secretary, 
Mr. Deputy Secretary, it is great to see you this morning. I 
appreciate your forthcoming testimony. And I think an outside 
observer would be astounded at the vast range of the 
responsibilities and concerns that you have. And I am pleased 
to see this morning the command you have of the material, not 
just the technology of drilling or the Bureau of Reclamation. 
It is good to see you here.
    Let me touch on a number of things that have already been 
touched on. First of all, with regard to fracking, I certainly 
would associate myself with the line of comments and questions 
from Mr. Lowenthal and Mr. Grijalva. We do need full disclosure 
of procedures and ingredients. I also think that we need to pay 
much more attention to fugitive release of methane from all 
drilling operations, and I hope you will see that.
    With regard to Mr. Grijalva's comments about the Mining Act 
of 1872, I would add to that it is as archaic as the name 
suggests. This is a relic of a different era, when the greater 
expansion of the West was part of our national destiny. And it 
was an era of exploitation of lands and minerals which is not 
where we should be today.
    I was pleased to hear your comments about offshore wind. In 
New Jersey this can be a huge resource. We need your help 
working with the State, because the State now has been dragging 
their feet--the State of New Jersey, that is. And, speaking of 
New Jersey, I invite you back to New Jersey. Again, we have 
appreciated your visits. The Crossroads of the American 
Revolution is really a fine Heritage Area that I think deserves 
further attention, along with the other Park Service sites and 
wildlife sites in New Jersey.
    In your budget, I want to commend you on bumping up the 
U.S. Geological Survey. We could do even better. We really get 
our money's worth from their scientific work. And I would 
encourage you to find every possible way to improve that.
    And I wish you every success on the $1.2 billion proposal 
for the Park Service, as we go into the centennial. We really 
want to make the most of that.
    I would like to quickly turn to one question. You have 
talked about the Land and Water Conservation Fund. I wanted to 
talk about the Historic Preservation Fund, which has not been 
discussed this morning, I believe. As you know, this money 
also--this fund can receive money from the OCS leases. And, as 
you pointed out, less than half of the $35 billion that has 
come in from OCS leases has been appropriated.
    I would like to know what your plans are for historic 
preservation, whether we can do better in protecting our 
natural heritage, our historic heritage, and--in addition to 
what you have already said about the Land and Water 
Conservation Fund.
    Secretary Jewell. Well, the preservation of historic 
structures is an important part of our mission, under the 
auspices of the National Park Service. But it is certainly 
something that I am in full support of.
    One of the things that we are doing across the Department 
of the Interior is engaging youth and volunteers and veterans 
in support of public lands, and part of that initiative will 
include training people to restore historic structures----
    Dr. Holt. And I might add on--you know, from the 
Preservation Fund there are grants available to the State and 
tribal historic offices.
    Secretary Jewell. Right.
    Dr. Holt. Which are underfunded, generally, and very much 
benefit from what comes from the Preservation Fund.
    Secretary Jewell. We have $56.4 million in the budget, 
which is roughly level with 2014, in the 2015 budget for the 
State and tribal grants for historic and cultural structures. 
So it is not an increase, but at least it maintains the 
commitment that we have.
    Dr. Holt. Thank you.
    Secretary Jewell. Thank you.
    Dr. Holt. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman, recognize the 
gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Thank you. Madam Secretary, I feel remiss if I 
was not here for your public presentation and grilling.
    In a couple of weeks you will be visiting a Southeast Utah 
county which is not in my district, but with whom I have been 
working very closely. Slightly north of where you will be is a 
place called Sand Flats. This is a BLM area that did not have 
the personnel nor the resources to be properly maintained until 
a near riot broke out one spring vacation. Since that time, BLM 
has been contracting with the county to maintain it as a 
recreation area. And it has been a very effective recreation 
area for thousands of people since that time.
    As we go through many of the processes in Utah, I hope I 
can still count on your ability, willingness, to cooperate with 
State and local governments to provide and guarantee outdoor 
recreation opportunities for people in a way that I think in 
the past we have had somewhat cavalier attitude toward that. 
And I would appreciate your restatement of that support and 
moving in those areas.
    Secretary Jewell. Yes, Congressman Bishop, I am fully 
supportive of working alongside State and local governments on 
recreation and thoughtful management of public lands.
    Mr. Bishop. I appreciate that. I also would just like to 
comment that when we rely on precedent to make decisions, we 
have had gridlock in the past, and will have gridlock in the 
future. So I also hope I can rely on you to work with us to, 
and I hate the cliche, but think outside the box to come up 
with more creative answers to the situations with which we are 
dealing.
    I want to go through a couple of other issues very quickly. 
When Jethro met his son-in-law Moses, and realized he was 
working himself into a frazzle, he suggested he divide the camp 
up into groups of tens, fifties, hundreds, and thousands, which 
gave the biblical evidence to the cliche that the government 
which governs best is that which is closest to the people, and 
you solve problems in local areas.
    BLM has an issue that strictly deals with the State of 
Nevada. Yesterday the Governor of my State sent a letter to 
Director Kornze--I hope you will work with him--asking him 
specifically to solve the BLM problem of Nevada in Nevada, and 
not export it to the State of Utah. I want you to know that I 
fully support that letter and reason and rationale for the 
letter, and do not want the situation in Nevada to be 
exacerbated by moving the adjudication issues over to the State 
of Utah. I have a copy of that letter, if you need it. I wish 
you would talk to them and fully--I just want to know that I 
think I and the rest of the delegation fully support what the 
Governor is trying to say on this particular issue that should 
be satisfied in Nevada.
    I am going to give you five quick things. Answer them if 
you wish to, or ignore me, whatever they come up with.
    Number one. We spend very little time talking about 
invasive species. I still think in your budget we spend too 
much on administration and not enough getting the money to the 
ground. I hope to have a bipartisan bill that will come up with 
some projects we have done specifically in New Mexico that 
shows how we can better spend the money. We need to look at 
invasive species, I don't think we spend enough time talking 
about that particular issue.
    Number two. When Mr. Gohmert was talking about the 
workforce that deals on the energy development offshore, one 
thing he did not mention is we have an aging workforce, and we 
do not have enough energy engineers coming through in America, 
so that the reality is our workforce in that area is becoming 
increasingly foreign. This is something that does not hit you 
directly, but it is tangential to our energy policy. And we 
need to look at that issue significantly. These are high-paying 
jobs, and we need to get Americans into these kind of jobs in 
the future.
    Number three, I appreciate what you have done with the 
Northern Marianas, as Mr. Sablan was talking to you, in giving 
them their mineral rights off the coast, treating them like 
other States. I would now ask that you also spin that process, 
and look at those of us who are onshore, and treat us the same 
way with our mineral rights at the same time. That is 
rhetorical; you know what I am talking about, you don't need to 
answer it.
    [Laughter.]
    Mr. Bishop. Number four. The States gave a whole lot of 
money to the Park Service last year for Park purposes, which is 
now basically an unappropriated slush fund that is there. You 
do not have a legal responsibility of giving that money back to 
the States. I think there is a moral responsibility. And before 
we actually have to deal with legislation either from Mr. 
Daines or Mr. Gardner or Mr. Stewart, give the money back. I 
think it is a moral imperative of giving that back to the 
States.
    And, finally, I got on the very last end of Mr. Holt's 
comments about an antiquated law passed a long time ago which 
no longer meets the needs. Gosh, I thought he was talking about 
Antiquities Act, but apparently it was a different antiquated 
law at the time.
    I thank you for being here. If you want to respond to any 
of those, feel free to. If you want to blow me off, feel free 
to, as well.
    [Laughter.]
    Secretary Jewell. Congressman Bishop, I would never blow 
you off. Let me--if I may have just a quick time to respond?
    The Chairman. Please do.
    Secretary Jewell. Invasive species are a huge problem 
across our landscapes. They are exacerbated by some of the 
dramatic events we have seen: floods, fires, and droughts. So, 
I agree with you, and am certainly willing to work with you on 
additional investments there, or more efficient ways to spend 
the money. I am happy to listen to what you have to say.
    Aging workforce, huge problem across the Department of the 
Interior, huge problem in the Bureau of Reclamation, which Mike 
ran until recently. Part of my youth initiative is engaging 
many, many more American young people in understanding what we 
need to have, what we have in our public lands, and how to 
manage them. And every Bureau of the Interior is focused on 
that next generation of young people.
    I'll--I know what you are talking about in mineral rights, 
and you said don't bother, so I won't.
    NPS reimbursement. I can't commit the Federal Treasury--and 
I did say that to Governor Herbert and everybody else. I am not 
opposed to reimbursement. It has to take congressional action. 
If you support reimbursement of the States for national parks, 
then you can do that. But I have been told by my solicitors it 
is not something that I can do. But I certainly don't oppose 
it.
    And on the Antiquities Act, we will disagree on that. I 
think it has been a very, very important right given by 
Congress to the President. This President has used it very 
sparingly, with a lot of community input and support. I think 
it is a good Act, and we will continue to be very thoughtful in 
how this President exercises----
    Mr. Bishop. Thank you, and you have taught me not to yield 
back before I hear an answer.
    The Chairman. The time of the gentleman has expired. I just 
wanted to make an announcement. The Secretary has graciously 
said that she would extend her time beyond noon to about 12:30. 
Now, the Members on the Minority side, I have four Members 
here, and then the Members on our side who have not had a 
chance to ask questions. Plus Mr. Mullin and Byrne, who have 
been in and out, and potentially Mr. Young. And at that point 
we will cut it off, and hopefully we can make your timeframe.
    With that, I will recognize the gentleman from 
Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Chairman Hastings and Ranking 
Member DeFazio, for your leadership in bringing this hearing 
before the committee.
    The Department of the Interior's mission affects the lives 
of all Americans. In fact, nearly every American lives within 
an hour's drive of lands or waters managed by the Interior 
Department. In 2012, Interior's programs contributed an 
estimated $371 billion to the U.S. economy, and supported 2.3 
million jobs in activities including outdoor recreation and 
tourism, energy development, grazing, even timber harvesting. 
Simply put, Interior works every day to protect America's great 
outdoors and power the future of this country.
    Secretary Jewell, thank you for coming here today and 
spending time with us. I know it is never an easy task, 
especially testifying on the budget in these particularly 
challenging fiscal times.
    In addition to serving on this committee, I am also a 
member of the Oversight and Government Reform Committee, and I 
have, at this point, had ample experience with Congress's 
efforts to investigate the administration, both productively 
and in a manner that can border on harassment, and waste 
precious time and resources.
    I have a particular concern for the volume of government 
resources that are devoted to responding to the numerous 
inquiries and subpoenas from the Majority of this Committee, 
and the possibility that overzealous actions by the Majority 
could inhibit effectiveness of the Department. In fact, it is 
my understanding that the Department of the Interior has spent 
over 19,000 hours responding to the demands of this committee, 
alone.
    Could you please discuss the overall impact on Interior, as 
a result of this diversion of resources, and how this has 
affected Interior's ability to carry out its work and missions, 
especially its ability to permit and oversee energy production 
on Federal lands?
    Secretary Jewell. Thank you very much for the question. I 
recognize and appreciate this committee's legitimate oversight 
responsibility. And, as I have said to the Chairman on numerous 
occasions, happy to sit down with him and other members of the 
committee.
    As there are concerns, as you carry out that legitimate 
responsibility, there have been 16 different document requests, 
oversight requests, from this committee. They have, in some 
cases, gone to subpoenas. We have testified, we have--I have 
asked my team to start keeping track of the amount of pages, 
the amount of hours: 45,000 pages of documents have been 
carefully reviewed and provided to this committee. We have $2 
million of taxpayer money expended in responding to requests 
from the committee.
    And probably the best and most frustrating example recently 
has to do with Migratory Bird Treaty Act and the fact that 70 
of our little over 200 law enforcement personnel from the Fish 
and Wildlife Service have been dedicated specifically to this 
task of producing records, and not dealing with some of the 
biggest challenges we have, in terms of oversight of our 
wildlife refuges, international wildlife trafficking, such as 
elephant ivory and other things, where we really need these 
folks back on that task.
    So, I appreciate this committee's oversight, but there have 
been--there has been a tremendous impact on my Department in 
attempting to respond.
    Mr. Cartwright. Well, thank you for that, Secretary. I 
would also like to emphasize to you how important it is that 
you promulgate a stringent rule for fracking on Federal lands. 
I believe you need to set a high bar that truly protects our 
environment and requires full disclosure about what is going 
into the ground, and potentially into our water supply.
    I hope that you will pledge to continue to work with 
Congress and listen to those on the ground, such as the people 
from where I live in Northeastern Pennsylvania, that have to 
live every day with the worry about and the consequences of 
nearby fracking, and know the potential costs of a loosely 
regulated industry. And I will ask you to comment on that, 
Secretary.
    Secretary Jewell. Well, I commit to continuing to work with 
this body, as well as my colleagues at the BLM who are in the 
process of analyzing the over 1.3 million comments that we have 
had on the fracking regulations. As they listen to those 
comments and adapt the regulations, we want to strike the right 
balance of safe and responsible development, and also economic 
development, and believe that we can come up with rules that 
are safe and responsible. But very happy to take your comments 
and those that have been raised today under consideration. 
Thank you.
    Mr. Cartwright. Thank you so much. I yield back----
    The Chairman. The time of the gentleman has expired. The 
gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Good morning, or--Madam Secretary. Still 
morning. It is great to see you again. And thank you for coming 
out to Idaho and visiting with us. As you know, in the past--8 
of the past 10 years, the Forest Service has exceeded its 
budget for wildfire suppression, required the agency to borrow 
from other parts of its budget to cover wildfire suppression 
costs. And this ultimately undermines the core mission of the 
Forest Service.
    And I am grateful that we are working together, as 
Republicans and Democrats, as Congress and the administration, 
to work on these issues. So I would like to start out by 
congratulating you for what you are trying to do in that 
regard, and how important that is for the people of Idaho. But 
I do have other questions that may not be as friendly. But I 
just wanted to start out by thanking you. I am pleased that the 
President's budget has included the mechanism that will more 
effectively manage wildfire suppression funds and help Idaho 
and allow for better forest management to prevent future 
wildfires without any spending increases. So thank you for your 
work on that.
    Now, I was intrigued by Mr. Costa a little bit earlier, by 
some of the questions. Mr. Costa highlighted the man-made 
drought in California, and how it is affecting the rest of the 
country's economy, because of an ESA listing. In this case and 
in many others, it seems like we are willing to prioritize the 
conservation or an endangered species over the well-being of 
the people. You and I disagree on the science here. But let's 
just assume for a second that you are right about the science, 
that the delta smelt is about to become extinct.
    I watched the movie, ``Noah,'' last night. And one of the 
things in the movie, ``Noah,'' was, you know, inside joke, but 
they--in the ark there were several species that went extinct. 
For example, the dodo bird was in the ark. The world didn't 
change when the dodo bird went extinct. I agree that we need to 
protect the bald eagle, for example. You know, we have some 
national interest there, we have some issues that are 
important. But when you are talking about the delta smelt, you 
are pitting the people of California against saving one 
particular species.
    We are not even sure that the science is correct. But even 
assuming that the science is correct, should we be rethinking 
what the ESA is about and should be--should we be taking into 
consideration the effect and the impact that it has on the 
economy, on humans, on the environment, on all those things?
    Secretary Jewell. Thanks for the question. The Endangered 
Species Act has brought back iconic species like the bald 
eagle. It has helped us recognize the threats to species like 
the manatee or the grizzly bear. We think about individual 
species. But what the Endangered Species Act has really done 
for us is help us understand how our ecosystems are linked 
together. So----
    Mr. Labrador. But where is the science that--we know that 
other species have gone extinct, and society has continued to 
thrive. So at what point do we say enough is enough, we are not 
going to put the people of California in danger, we are not 
going to endanger the farmers, we are not going to endanger--I 
think what Mr. Costa said was that it was half of the produce 
that are grown in the United States come from that area. And we 
are doing it for something that I think--that I personally 
think is shoddy science.
    But, second, even if we assume that it is not shoddy 
science, it is something that we have that is actually 
affecting all of society, just because of one particular 
species.
    Secretary Jewell. Well--go ahead, Mike, yes.
    Mr. Connor. I would like to take a shot. First of all, with 
respect to California, it is not a man-made drought. Through 
January, it was the worst year on record. And it is only--maybe 
it is now the second or third worst year on record because of 
recent precipitation. But it is not one species, it is an 
overall----
    Mr. Labrador. But you have made it worse.
    Mr. Connor [continuing]. Ecosystem----
    Mr. Labrador. You have made what is clearly an 
environmental catastrophe, you have made it worse by making it 
more difficult for the farmers in the community to actually 
access their water.
    Mr. Connor. We have taken the----
    Mr. Labrador. That is the problem that I am having.
    Mr. Connor. Well, can I answer? We have taken aggressive 
actions to provide more water than we otherwise would under the 
biological opinions. But part of this--we are protecting a 
number of salmon species here. So when you say the Act is 
impacting people, we are trying--we are also protecting the 
species that people make their livelihoods on, and also feed 
this country with. They are important, too. So we are trying 
to--we are balancing a number of interests here.
    We have an obligation to continue--not just use the best 
science to form the biological opinions, you are exactly right, 
we need to keep improving the data, improving the analysis, 
using the tools----
    Mr. Labrador. But my question is should we improve the ESA.
    The Chairman. Real quickly.
    Mr. Labrador. Is there something that we should do in 
Congress here? Because if you look at the opinion of the Ninth 
Circuit, they relied on the congressional--they said, ``The 
Congress said let's do X, so there is nothing we can do.'' So, 
should we change the ESA to make sure that we actually take 
better care of the issues that are happening on the ground, 
like in California?
    Mr. Connor. The ESA allows a lot of tools for flexibility 
and regulatory certainty, and we need to use all of those tools 
these days. I am not sure----
    Mr. Labrador. So your answer is we don't need to change the 
ESA in any way.
    Mr. Connor. We----
    Mr. Labrador. That is your answer?
    Mr. Connor. My answer is yes----
    Mr. Labrador. Yes, OK, thank you.
    Mr. Connor [continuing]. I think we have the tools within 
ESA.
    Mr. Labrador. And----
    The Chairman. The time of the gentleman has expired. I want 
to give every Member an opportunity to ask their questions in 
the time period we have.
    I recognize the gentleman from Florida, Mr. Garcia.
    Mr. Garcia. Thank you, Chairman Hastings and Ranking Member 
DeFazio.
    Madam Secretary, first I would like to say how much I have 
enjoyed working with you over the past year, and it is 
wonderful to see you again. As you know, I represent the 
Florida Everglades, one of the Nation's greatest natural 
treasures. And the administration's commitment to restoration 
has been strong.
    There is one thing that I worry about, or part of the thing 
that I am worrying about is the larger projects taken for 
comprehensive Everglades restoration that have been 
indefinitely delayed, affecting families and businesses nearby. 
As you may be aware, farmers in my district have lost the 
entire yield of this year's crops because of high water, and 
significant flooding that has taken place in the region. 
Finalizing Contract 8 and completing the C-111 canal south of 
South Dade would protect the growers facing significant 
financial risk and personal burden, and a strong disadvantage 
to them participating in the international market. So, I think 
it is important.
    So, Madam Secretary, where are you on the C-111 South Dade 
canal, and how does the Department plan to move forward?
    Secretary Jewell. Thanks for the question. It has been 
very, very helpful to be in Florida a couple of times and meet 
with the Everglades Coalition. I believe the C-111 is an Army 
Corps of Engineers project, and so is not in my budget. But we 
are fully supportive of that project, and we will certainly do 
whatever we can to help move it forward, as we progress with 
Everglades restoration. And there are other important things 
that are in our budget to continue to make progress.
    Mr. Garcia. Absolutely, and I appreciate that. Taking 
advantage of the fact I have a little bit more time, Chekika is 
a camping ground to the southeast part of the Everglades, which 
was, due to sequestration, closed down. It is widely used and, 
in particular, it is a very good southeast entry point of the 
Florida Everglades. And while we were able to get out of the 
sequestration mode, I would like you to see if you can consider 
reopening that, now that we are not in sequestration. It was 
closed down. It offers tremendous opportunity for usage, and is 
used, but is slated to be closed down. And, if you could, I 
would like you to look at that.
    And, finally, I appreciate you being here. And taking 
modern management tips from the Bible, as well as species 
management from Noah is always very important, but we hope that 
science is what you use. Thank you very much for being here. I 
yield back the balance of my time.
    The Chairman. I thank the gentleman very much for yielding 
back, Mr. Garcia.
    The Chair recognizes the gentleman from Arizona, Mr. Gosar.
    Dr. Gosar. Well, thank you very much. And I thank the 
gentleman, Mr. Garcia, for alluding to science. Thank you very, 
very much for coming out to Prescott last year. It was surely 
felt. And that is where I want to hit. I differ a little bit 
with Congressman Labrador.
    I have had two fires, two catastrophic fires in my first 
two terms. The Waldo Fire over on the eastern side of Arizona, 
the largest fire in Arizona history, we spent over $200 million 
putting that single fire out. We lost $2.5 billion worth of 
assets, and 20 percent of the spotted owl actually was 
incinerated. That is hardly a success story.
    And then, last year what we did is we put firefighters in 
harm's way with catastrophic amounts of vegetation; 19 died. We 
have to do something different. And when I look at this budget, 
I see that we have proposed $146.3 million for hazardous fuel 
management in fiscal year 2015. The Forest Service has 
requested almost $1.5 billion for suppression, but only $350 
million for hazardous fuel reduction. So almost $3 billion 
between those two agencies for suppression, but less than $500 
million for up-front active management. We need to do something 
different.
    Fighting fires starts at managing the forest. Getting in 
there and starting to thin the forest makes sense, not only on 
management of healthy forests, because of blights, cankers, and 
bark beetle infestations, but also because of water management 
sub-surfacely. Because each one of those trees has an 
implication to the whole dynamics of water.
    So, when we start looking at Colorado and California and 
Arizona, these are dynamic. I am tired. My State is absolutely 
furious and tired of being victims. Not to--even to look at the 
mitigation costs of sterilized soil. We have it over in the 
Shultz Pass Fire, we have it over in the Wallow Fire, we have 
it over in Yarnell. And we can't mitigate that for over 50 
years. Something has to be done. And what I am asking for you 
is we need to start pushing these projects.
    4-FRY Initiative. We have--right now in my State we have 
30,000 acres on inventory. We need 100,000. We need 100,000 
acres by June 1 to make this thing work. This is active 
management, everybody agrees. The government agrees, the 
environmental groups agree, and the logging industry agrees. 
They are doing it in scientific methods. Can I get a validation 
from you that you will support looking at new types of EISs and 
NEPAs to try to get this off the ground? Because if we go 
through another forest fire season like this without changing 
our course, we are going to become victims once again.
    Secretary Jewell. Congressman, thanks for your passion on 
this topic. And we share a concern. And I think that none of us 
feel that we have had the budget needed, whether from 
diversions for suppression or just from appropriations, to do 
the job that we would like to do, in terms of hazardous fuel 
removal, effective land management, prevention of invasive 
species, and so on.
    A lot of what you talk about is predominantly in the Forest 
Service budget.
    Dr. Gosar. I understand.
    Secretary Jewell. And so, the management of the forest 
specifically I am not as familiar with. There is $30 million in 
the budget for resilient landscapes. That will complement the 
hazardous fuels budget. That adds to the $146 million we've got 
for fuel. So there is a little bit more than appears in the 
budget, because we can direct that toward long-term management 
of those landscapes.
    But, still, I appreciate that there is a very large issue, 
and that is going to be very difficult to do, even in the----
    Dr. Gosar. Well, and there is----
    Secretary Jewell [continuing]. Confines of what we are 
proposing.
    Dr. Gosar. And it is not like we haven't come to the table, 
you know? There are absolutely opportunities to look at some of 
the unmanned aerials, to look at infrared assertions on EISs 
and NEPAs. We need to be pushing this issue, and people engaged 
in this community, putting people back to work in an industry 
that is begging for it.
    So, I hope that you will really provide that push to Chief 
Tidwell and to the Forest Service. We would love to be that 
pilot project to show how everybody can work together, based on 
the science.
    The second question I want to go to is the Mine Safety and 
Health Administration, or MSHA, budget proposes to completely 
eliminate 8.5 million in funding for State grants under the 
Mine Safety and Health Act. Meanwhile, it proposes to increase 
MSHA's budget by 2.8 million and 18 FTEs to expand training, 
delivery, and oversight. This essentially means less training 
and more enforcement.
    Do you have any suggestions regarding what we might do to 
avoid the loss of this important funding at reducing injury and 
death to the miners?
    Secretary Jewell. I am sorry, but it is not part of the 
Interior's budget. I was just looking at my team back here.
    Do you know whose budget that is? Labor, Department of 
Labor? Sorry.
    Dr. Gosar. Well, we will get to the next one, then. We also 
have some problems with some fish hatcheries over on the 
eastern--or the western side of the State, in Mohave County. We 
would certainly like to have some type of collaboration in 
regards to the economic empowerment of what fishing does along 
that Colorado. Some type of collaborative environment with 
State jurisdiction over that fish hatchery, along with some 
private partnerships, I think, would be a nice opportunity. But 
we really would like to see the economic empowerment of what 
the budget cuts will actually do, particularly on the fish 
hatcheries on the west side.
    Secretary Jewell. May I take a minute to respond?
    The Chairman. Real quickly, yes.
    Secretary Jewell. OK.
    The Chairman. Real quickly.
    Secretary Jewell. The budget is essentially flat for fish 
hatcheries between the 2014 and 2015 budgets. We won't be 
closing any in 2014. We are working alongside States and other 
stakeholders on finding a long-term solution to funding fish 
hatcheries. We know they are very important to the sport 
fishery. They are very important to local communities. But we 
also know our budgets are constrained. So we are very happy to 
work alongside you on long-term funding solutions for those. We 
know how important they are. Thank you.
    The Chairman. The time of the gentleman has expired. The 
gentlelady from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. And welcome, and 
I can't tell you how much we appreciate the work that your new 
deputy has done in our area. He is very accessible, and we are 
very thankful for that. Thank you, Mr. Connor.
    I have several questions. I will probably submit some of 
them in writing. However, some of the ones that I am totally 
concerned with is your budget on WaterSMART and water--Title 
XVI recycling. I seem like an old song being replayed.
    To me, that is $21.5 million and $350 million in backlog of 
projects. Just recently, in the last episode of water, the last 
storm that hit Southern California, the Army Corps of Engineers 
were able to capture 22,000 acre-feet of water worth $22 
million. And that is because they waived their ability to 
capture the water in the dams that are in our area.
    We need more of that, because of the fact that, as you well 
know, the events--call it climate change, call it weather 
change, whatever--is going to continue, and we are going to 
need all the water we can get for Northern and Southern 
California. And we have issues with Northern California and 
Southern California fighting over the last drop of water, so 
you understand how we feel and how we need to be able to ensure 
that Southern California is able to protect itself and protect 
its water sources.
    The other issue--and I will submit some questions for that 
for the record, because we would like to see that $135 million 
or $150 million for recycling projects and produce more water 
to be recharged into the aquifers.
    The other issue, of course, is the invasive species. And 
Quagga mussels have cost some of the water agencies millions 
upon millions of dollars. And I know there is answer--there is 
some reference as to being able to determine where the sciences 
are. Do we have any answers? Can we provide any update on what 
has been found, what is working, what is not working?
    Some of the universities have the ability to have small 
funding to be able to do research. Are we projecting to them 
where we need to have them do the research on invasive species 
and other areas? And what are the results of some of the 
findings that they may have had in some of those research? That 
is another of my questions, and I am not asking--it is costing 
our taxpayers, essentially, millions of dollars, because it 
goes back to the ratepayers.
    And fire suppression is a very interesting subject for 
Southern California. As of the Colby Fire in February, there 
had been 400-some-odd fires in California alone. How are we 
going to be able to help the whole community of firefighters, 
of cities adjoining the foothills of the hills of the 
mountains, and being able to have them prepared?
    One of the suggestions one of my city councils came up with 
was purchasing the super scooper that is leased. Had it not 
been leased from Canada for an extra month, it would not have 
been able to be as successful in putting that Colby Fire out, 
and the fact that there was a dam nearby, so they could just 
scoop in and pick up the water and just dump it a couple miles 
away. We need to be able to help them be able to help 
themselves.
    And then there is the issue of the water creating mudslides 
in my area that--the county says, ``Well, we are not 
responsible.'' The OES says, ``Well, you need to be able to 
secure long term.'' And then, everybody else has their own 
opinion. We need to get all our agencies together to protect 
the people that live below. It affected an avocado farm, it 
affected several residences. Others use K railing in other 
areas, and were very successful in avoiding any major damage to 
their properties.
    So, somehow we need to be able to connect the dots and be 
able to have the agencies work with each other on being able to 
address these issues. This is a new area for me, it is 85 
percent new. So I am learning and dealing with some of the 
concerns that some of my elected officials and some of my water 
agencies have. So, those are the things I will be submitting to 
you.
    And tribal recognition, where are we with that? Are we 
having more assistance to the Tribes in dealing with mental 
health issues? Because you address that in your budget. I am 
the co-chairman of the caucus. How are we working to be able to 
help them deal with it, and job training in--dealing with 
alcoholism and dealing with all the things that the Tribes 
inherently have in their background?
    And those are the things that I would love to be able to 
sit and discuss with you and your staff.
    And thank you, Mr. Chair.
    The Chairman. I thank the gentlelady. The time of the 
gentlelady has expired. The Chair recognizes the gentlelady 
from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Thank you, Secretary 
Jewell, for staying after noon to take our questions. I am 
going to focus my questions on the sage grouse and on the 
Endangered Species Act, generally, just to orient you to my 
questions.
    The President's budget includes a request for $4 million in 
increases to ecological services for sage grouse. They are 
calling it the Sage Grouse Initiative. It will fund 38.75 full-
time employees. My first question is, what will these employees 
be doing? Will any of them be on the ground to implement on-
the-ground conservation plans?
    Secretary Jewell. So you are referring to the Fish and 
Wildlife Service budget. There is also $15 million in the BLM's 
budget. And, as a land management agency, they will be doing a 
lot of work on the ground, working in concert with the Fish and 
Wildlife Service and the land owners, whether they are the land 
owner, or cooperatively with others, on the on-the-ground stuff 
for conservation of sage grouse habitat.
    Mrs. Lummis. So the on-the-ground work will be done more by 
BLM than through this ecological services group. Is that 
correct?
    Secretary Jewell. Well, the Fish and Wildlife Service is 
working with whomever the land management agency is on what 
needs to be done, so that we hopefully can avoid the need for a 
listing. The BLM, as the largest land manager in the area----
    Mrs. Lummis. Yes.
    Secretary Jewell [continuing]. Will be doing a lot of that 
work on the ground, as will States and private land owners, and 
so on.
    Mrs. Lummis. OK. Well, as you know, Wyoming has done a lot 
of work on this----
    Secretary Jewell. Yes.
    Mrs. Lummis [continuing]. To try to keep us off the list. 
And when do you expect the Department to sign a record of 
decision on the BLM's revision to the land use plan in the 
Lander field office? Including revisions for sage grouse 
conservation.
    Secretary Jewell. I believe we expect all of the resource 
management plans to be signed by the end of this calendar year, 
and we are being held into account by the deadlines imposed 
by--court order deadlines.
    Mrs. Lummis. Yes, yes----
    Secretary Jewell. I know the Lander decision is in there 
now, there is--it is something that our team is looking very 
closely at. It knits together a larger picture over 11 States. 
And so, they are working to do them all, I think, at one time.
    Mrs. Lummis. Yes, that is what I understand, too. And so, 
one of my next questions is, why wait? The Lander plan is ready 
to go. How does waiting for other land use amendments to catch 
up help the sage grouse, itself?
    Because we know that, through statements we have previously 
gotten from the Fish and Wildlife Service, that the Service 
believes the greater sage grouse core area protection provides 
an excellent model for meaningful conservation of sage grouse 
if fully supported and implemented. The Lander plan is ready to 
go. So why wait for other plans and doing them all at one fell 
swoop? We would love to just take it and run with it.
    Mr. Connor. The release of the Lander plan is being 
discussed right now. It is ahead of all other plans. And so we 
will have to get back to you. It will be some time this year, 
and it will probably precede the other ones, but we will have 
to----
    Mrs. Lummis. That would be great.
    Mr. Connor [continuing]. Find out for the record----
    Mrs. Lummis. You know, I will get back to you on that, and 
I appreciate----
    Mr. Connor. Sure.
    Mrs. Lummis [continuing]. Your willingness to discuss that.
    Mr. Connor. Absolutely.
    Mrs. Lummis. Thank you. Now, let me read you what the Fish 
and Wildlife Service has said about other things in our plan. 
Again, if fully implemented, we believe the executive order--
this is in Wyoming--can provide the conservation program 
necessary to achieve Wyoming's goal of precluding listing for 
greater sage grouse in Wyoming. So we are very, very interested 
in seeing our opportunity in Wyoming to proceed.
    My question is, what more are you looking for?
    Secretary Jewell. Well, first, I want to compliment you, 
and I want to compliment Governor Mead for the State's 
leadership around greater sage grouse conservation. Governor 
Mead co-chairs this with Governor Hickenlooper.
    Mrs. Lummis. Yes.
    Secretary Jewell. All the States are involved. I have had 
multiple meetings with the States. We share a common goal of 
precluding the need of a listing of this species, and there is 
a tremendous amount of work going on to make that happen.
    Because it is an 11-State range, an individual State doing 
a great job isn't enough to provide the habitat necessary, 
which is why we are keeping all the States together. And I 
would say it is an unprecedented amount of cooperation that we 
are working very, very hard with to, hopefully, preclude the 
need of a listing.
    But if a listing does occur, to make sure that the kinds of 
activities and the people that have signed up through 4(d) 
rules and otherwise will be protected in their ongoing use of 
those lands for the activities they are engaged in.
    Mrs. Lummis. And Madam Secretary, I can assure you the 
gentleman to my right and this gentleman to my left are as 
concerned as I am. So thank you. We will get back in touch with 
you on this. Thanks, Mr. Chairman.
    The Chairman. The time of the gentlelady has expired. The 
Chair recognizes the gentleman from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Mr. Chairman. I, too, welcome 
you, Madam Secretary, and Mr. Deputy Secretary. And I encourage 
both of you to visit Puerto Rico as soon as possible.
    My district is home to five national wildlife refuges; one 
important National Park Service unit, the San Juan National 
Historic Site; and, although not under the direct purview of 
the Secretary, a gem in the U.S. forest system, El Yunque 
National Forest, where the Interior Department is helping 
advance cutting-edge climate science.
    I quickly want to emphasize a few parts of the Department's 
budget and mission that I support and that have great relevance 
for Puerto Rico.
    First, the Department is supporting ecosystem-based 
resource management decisions in Puerto Rico in an integrated 
fashion with the local community through a landscape 
conservation cooperative, or LCC approach, that your 
predecessor launched nationally in 2010. The Carribean LCC, the 
most recent one formed, is bringing the best available science 
to bear to preserve habitat and respond to climate change 
effects on land, water, ocean, fish, and wildlife, and cultural 
heritage resources in Puerto Rico. This is a great synergy of 
all the resource agencies and non-Federal partners, and I urge 
the Department to continue budgeting resources for the national 
network of LCCs.
    My second point relates to funding for the National 
Wildlife Refuge system. The three refuge units in particular in 
Puerto Rico--Cabo Rojo, Culebra, and Vieques--have a 
significant backlog of maintenance projects totaling roughly 
$50 million. The refuges on Culebra and Vieques are directly 
relevant to the economies of the two island municipalities in 
which they are located. The Fish and Wildlife Service currently 
controls over half of the island of Vieques, and about a 
quarter of Culebra.
    As a large land manager, it is important that the Service 
continue working with the Department of Defense and local 
authorities to expedite the clean-up of these former military 
training range lands. While clean-up progress has been made, 
much remains to be done. And as areas are cleaned up, according 
to the final remedy reached between DoD, Interior, EPA, and the 
local government, opportunities for transfer of the lands from 
Interior to the local government will become very important.
    Last year I raised these opportunities at a subcommittee 
hearing, and would like your commitment, Madam Secretary, to 
work on advancing the dialog inside the Department about ways 
to rescale the national--the Vieques National Wildlife Refuge 
so that lands currently within its boundaries can be opened for 
local economic development and recreational purposes, including 
through the possibility of legislation to transfer title.
    I don't want to burden you with more oversight, because I 
join my colleagues in commending your responsiveness, the 
Department's responsiveness, to all the requests and subpoenas 
that you have received from this committee. But I tell you I 
respectfully urge you to take a look at the size of the 
wildlife refuge in Vieques. It is huge. And if there are 
opportunities to assist Puerto Rico and the government of 
Puerto Rico, in particular, which is going through an economic 
crisis right now, so that we can develop some of those lands, 
use them for valid economic development purposes, please have 
an open mind there.
    Last, as we approach the centennial of the National Park 
Service in 2016, I want to highlight the role that Old San Juan 
and the National Park Service unit on our island fulfills for 
the preservation and interpretation of our Hispanic heritage. 
The unit protects evidence of Spain's history in what is now 
the United States, the forts of El Morro, San Cristobal, and 
San Geronimo. There is an incredible story to tell through 
interpretation of these structures, and preservation of these 
forts and the old city walls is key to our cultural identity 
and to our tourism sector.
    By the way, Mr. Chairman, I urge you at some point to hold 
a hearing in Puerto Rico. I mean those forts are amazing, and 
they are treasures for our Nation. And the Department of the 
Interior is really the watchdog. It is really the one 
overseeing, acting in a way as the protector of those sites.
    There are ongoing projects, particularly trails surrounding 
El Morro Fort that I would urge you to oversee, as well as a 
study dealing with the San Geronimo Fort, which is not part of 
the Park System presently, but which is connected to them both, 
El Morro Fort and the San Cristobal Fort. So, please take a 
look at those matters. And if you would like to comment on----
    The Chairman. Well, real quickly, because we have some 
time, and I know the Secretary is under a timeframe here.
    Mr. Pierluisi. I am sorry. So?
    The Chairman. Madam Secretary, very briefly.
    Secretary Jewell. I will give a very brief response. First, 
I would like nothing more than to go to Puerto Rico after this 
winter here. Very interested in working with you on Vieques and 
potential legislation. I do understand the importance of the 
economy and outdoor recreation as a very important part of that 
economy for Puerto Rico. And so we would be very happy to 
advance that dialog, as well as on the forts that you 
referenced. The Park Service has done work to really help tell 
the story of Latinos within, you know, the broad United States, 
and this is a good opportunity to do that.
    I would also say on the Landscape Conservation 
Cooperatives, we have $17.7 million in the budget, and that is 
an increase over where we are for this year.
    Mr. Pierluisi. Thank you.
    Secretary Jewell. Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. 
Recognize the gentleman from Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Madam Secretary, in 
your nearly $12 billion budget, how many dollars did you 
request to provide alternative access to King Cove or weather-
related emergency medical evacuations?
    Secretary Jewell. I don't have specific money in the budget 
for that, but we are pursuing and have had conversations with 
the Corps of Engineers, the Coast Guard, and will continue to 
do that, and happy to work with you, Congressman, on 
suggestions that you have to look at alternatives.
    Mr. Young. Well, I will suggest respectfully during the 
Senate hearing you are going to look at other methods to have 
transportation for those that are medically incapacitated. And 
you had 2 weeks. Have you come up with an answer in this 2 
weeks about how we are going to move these people that are 
stricken?
    Secretary Jewell. Well, I certainly had follow-up 
discussions, Congressman Young. There is a road that has been 
put in recently all the way to the edge of the refuge that 
shortens the distance considerably for things like helicopter 
flights, perhaps boat transportation. And my colleague, Pat 
Pourchot, in Alaska, who represents the Secretary's office up 
there, has been working actively with a number of parties. That 
has pre-dated my hearing with the Senate, and continues today.
    Mr. Young. Well, with all due respect, a helicopter costs 
about $200,000. We have had six since your hearing, this period 
of time, and they cost about $200,000 a piece.
    Should the Department of the Interior, who has trust 
responsibility to the native people of King Cove, be 
responsible for reimbursing the Coast Guard for these expenses?
    Secretary Jewell. Sir, we have trust responsibility to 
consult with Tribes. We have done that in that region----
    Mr. Young. No, no, no, no. Answer the question. Should you 
be responsible, out of the Department of the Interior, with 
increasing your budget, especially with the Park Service--
should you be responsible for those helicopter trips?
    Secretary Jewell. The Indian Health Service is responsible 
for Medivac flights----
    Mr. Young. The Department of the Interior is over the 
Indian Health Service.
    Secretary Jewell. No, the Department of Health and Human 
Services is over the Indian Health Service.
    Mr. Young. Department of the Interior has the BIA, which 
has the authority of--the trust authority with the natives.
    Secretary Jewell. The BIA does have trust authority with 
the natives----
    Mr. Young. That is right.
    Secretary Jewell [continuing]. In consultation with the 
Tribes.
    Mr. Young. So you should be held responsible. And if we do 
so--and this will happen, Madam Secretary, I think your 
decision stunk. This will happen. If we put it into the law, or 
into the appropriation bill, we will take it out of the 
Department of the Interior. Which one of those departments do 
you think we should take it out of?
    Secretary Jewell. Congressman, I will continue to be----
    Mr. Young. Which one of the departments should we take it 
out of?
    Secretary Jewell. Congressman, I do not believe that money 
for a medical----
    Mr. Young. You don't think it will happen, do you?
    Secretary Jewell. Can I finish? Would you like me to answer 
the question?
    Mr. Young. No, I want to ask you which department. You 
answer. Which department would you take it out of? It is your 
responsibility. You won't let a road be built. You have not 
allowed this. And I am losing lives. I just think that is very 
inappropriate.
    And, by the way, does a helicopter bother the birds on that 
refuge?
    Secretary Jewell. Sir, I am sure when a helicopter is 
flying it bothers birds on the refuge.
    Mr. Young. Just like the birds out here, on the George 
Washington Parkway. We have thousands of cars go by, and they 
are about 6 feet from the road. The birds get used to it.
    Secretary Jewell. Congressman, the Izembek National 
Wildlife Refuge is unique. It has been recognized as wilderness 
by Congress back in 1980 as a wetland of critical international 
significance. The birds that are in that area are different 
than the birds in the Potomac River, and there is science----
    Mr. Young. They are no different, they are the same type of 
birds, same species, as far as genetically goes, and you and I 
know that.
    Secretary Jewell. No, sir. The Pacific black----
    Mr. Young. There is exactly the same attitude. They get 
used to it, it is not new. They have traffic on that refuge, 
and you and I know it. The difference is I have a group of 
people over here, and I want--do you have grandkids?
    Secretary Jewell. No.
    Mr. Young. No. Do you have children?
    Secretary Jewell. Two.
    Mr. Young. Two. How old are they?
    Secretary Jewell. Twenty-nine and twenty-eight.
    Mr. Young. OK. They are in Cold Bay now. They are not in 
Cold Bay. They are in King Cove. And they get sick. And there 
is no way to get across there, but you don't have the road. And 
the winds are blowing 80 miles an hour. There is no way to go, 
because the Secretary of the Interior, this one and the last 
one, said we couldn't build a road. This Congress passed the 
ability to build that road. And your son is dying. I hope you 
feel good about that. I really do.
    And, by the way, I want to congratulate both of you. If we 
had a show of dancing, like they have on television, both of 
you would be outstanding dancers on that show. I watch this 
program in my office. I love your answers. It is dancing. And 
yours is just as bad. This hearing accomplishes nothing, 
because you don't take the time to communicate with us here, 
through our offices, picking up the phone. We have these 
hearings, and nothing occurs.
    So, Madam Secretary, I told you when you were sworn in, I 
would like you to get a little more involved and say, ``What 
can we help you with in your district? How can we be of benefit 
to you,'' instead of saying, ``We are the Secretary of the 
Interior, don't question us.'' I just suggest you ought to do 
it.
    And, by the way, if someone dies out of King Cove, I want 
you to really think about it and be ashamed of yourselves.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Missouri, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Madam Secretary, it is 
great to have you with us. Last July, whenever you were before 
this committee, I was pleased to talk with you about the White 
River Watershed and the National Blueways issue that affected a 
big portion of my district, and appreciate you rescinding that 
program by the urging of this committee and the numerous 
outpouring of the grass roots within Missouri and Arkansas. So 
I do want to thank you for that.
    Also in that hearing I brought to you my concerns about the 
proposed general management plan that was going to affect the 
Ozark National Scenic Riverways. It is the national park that 
is encompassed solely in my congressional district, in the 
State of Missouri. And in that hearing there were four items 
that I told you that I did not want to see in the general 
management plan. And those four items were not to restrict the 
horsepower, or the use of boats on the Current and Jacks Fork 
River. Also, reducing horse trails and other trails, limiting 
access points, and creating a wilderness area. Those were four 
points that I said, back in July, before the general management 
plan was ever brought up, of concerns that I had in it. And the 
general management plan was filed in November.
    Are you aware--there were three alternatives that were 
proposed by the National Park Service during the comment 
process. Which of those three alternatives included the 
provisions that I just asked for?
    Secretary Jewell. Well, it is my understanding--and I don't 
have a deep understanding of this--but the National Park 
Service is reviewing public comments based on what they 
submitted. I don't think that they have completed that process, 
and intend to by the end of the year.
    I will also say that your Governor has spoken with me about 
this, and you have a little bit of a different point of view. I 
know that there are a lot of assessments that the National Park 
Service will be--a lot of input the National Park Service will 
be taking into account as they work on this management plan.
    Mr. Smith. You know, the four proposals that I said that I 
did not want in the general management plan is because I am 
speaking for the 750,000 people that I represent. And plus 
Missourians. And you mentioned our Governor. And, 
unfortunately, our Governor has a different view of the 
individuals in Missouri. In fact, he has a different view from 
his own Department of Conservation for the State of Missouri. 
The Department of Conservation also submitted comments to you 
that I hope that you take very close attention to that 
disagrees with our Governor and agrees with myself, in saying 
that you need to have the no-action alternative.
    This plan has worked since 1984, and it has been adopted 
twice in the last 30 years. In 1964, when the Ozark National 
Scenic Riverways were established, it was established to 
preserve our natural resources--we have some of the most 
beautiful waterways in the country--but also balance that with 
our recreational use. And the alternatives that were submitted 
by the National Park Service, both A, B, and C, all three of 
them include all four provisions that I specifically asked to 
not be included.
    And I am asking that you strongly consider my comments, you 
strongly consider the 4,000 comments that were brought forward 
in all the public hearings, and that you strongly pay attention 
to the Department of Conservation for Missouri's comments, and 
not so much of our Governor, who doesn't have an understanding 
of this river. I grew up on this river. This is where my family 
has been for seven generations. And I sure hope that you 
continue to balance the preservation with the natural resources 
by keeping it a balanced approach.
    Mr. Knox was in here on February 26, and I asked him who 
was going to be involved in the decision process. And he gave 
me a few names. And we have been trying to set up personal 
meetings with every one of those individuals for about a month 
now, and haven't had a meeting. He also mentioned that you 
would be part of the decisionmaking process. I am hoping that 
you can let us know exactly everyone who is going to be in, and 
see if they will meet with me. I would love to talk to them 
about the importance to our district. Can you help make sure 
those meetings occur?
    Secretary Jewell. I will certainly make sure that your 
comments here get to the people in the Park Service that are 
going to be assessing this. This isn't something that would 
come to me, from a decisionmaking standpoint. But I appreciate 
your input. And I also will say that when Congress sets aside 
land as a national park or a national scenic river, part of the 
objective is to manage it in perpetuity for all Americans. And 
so, the local residents, recreation, habitat conservation, 
long-term management, all these things are taken into account 
by the Park Service, as well--including the comments of you and 
your constituents.
    Mr. Smith. And I totally agree. I mean these parks are the 
parks for all Americans. And all Americans should be able to 
access their own parks, instead of allowing them to limit their 
access on the riverways that has been happening for decades.
    Your Park Service restricted baptisms along our riverways, 
where they had to get special use permits, until they finally 
rescinded it. These kind of things are the attack that you are 
doing on rural America. And I will tell you, I will fight tooth 
and nail if you continue to implement these programs that 
eliminates access to all Americans, if I have to fight in the 
appropriations process or through the legislation process.
    So, I hope that you hear my concerns and you hear the 
concerns of the people of this great country.
    The Chairman. The time of the gentleman has expired. The 
last individual to be recognized--and I thank you for your 
patience, Madam Secretary--is Mr. Tipton from Colorado.
    Mr. Tipton. Thank you, Secretary Jewell and Secretary 
Connor, for taking the time to be able to be here. And I 
appreciate you extending your visit just a moment. I did want 
to be able to speak to some questions that are important for 
our district.
    I was very pleased, in terms of your comment, that you want 
to be able to work with the locals in a thoughtful management 
process on public lands. But I did want to be able to get some 
clarity in regards to the RS 2477, in regards to closing of 
roads. Does the Bureau of Land Management have unilateral 
authority to make binding determinations on the validity of 
claims, rights of way, under this statute?
    Secretary Jewell. I am not--could you repeat that one more 
time?
    Mr. Tipton. Yes. Do you have the authority, basically, to 
be able to go in, unilaterally, and make these decisions to 
shut down the roads?
    Secretary Jewell. I am not familiar with the legal 
ramifications and what our authorities are and aren't, so I 
will have to get back to you for the record on that.
    Mr. Tipton. OK. Well, we would appreciate that. When the 
BLM does close roads--I am sure you are aware we have had a lot 
of access points going into our public lands that have been 
shut off recently. I think you heard about it when you were in 
Colorado. When we were closing these county roads, citing land 
use and planning management purposes, is this done with any 
consultation with the counties?
    Mr. Connor. I am not sure, Congressman. I think the 
interpretation of the RS 2477 roads, and whether they are still 
valid, existing roads is probably an administrative decision by 
the BLM as part of their resource management plans. But I 
think, to be more accurate, I would probably want to expand on 
that for the record.
    Mr. Tipton. And----
    Mr. Connor. And I think the initial decisionmaking is 
probably a Bureau of Land Management decision.
    Mr. Tipton. Right. And going back to that comment that was 
made initially on willing to be able to work with the local 
communities, I would encourage you to talk to some of those 
local communities before some of those road closures actually 
take place.
    Are you aware, when a closure is being planned, are the 
counties notified?
    Mr. Connor. I am not aware of how that works.
    Mr. Tipton. Not aware of----
    Secretary Jewell. I am not, either. We are going to have to 
research this with the BLM, and we are very happy to get back 
to you on that.
    Mr. Tipton. In regards to some of the closures, is any 
consideration given--the nature of my State, my district, we 
have outdoor people--to the Americans with Disabilities Act?
    Mr. Connor. I think the decision on whether an RS 2477 road 
still exists is just whether it has had continual use. I think 
that is the issue before the administrative agency.
    Mr. Tipton. Would you be willing to work with us in terms 
of getting some kind of a consistent policy when we look at ADA 
issues, when we look at impact on communities, to be able to 
make sure that those communities are included?
    We had Chief Tidwell, and he talked about a computer model 
in regards to being able to fight forest fires. I was on both 
of the incident command centers at the West Fork Complex Fire, 
Pagosa Springs over in Monte Vista. First words out of the 
mouth were, ``Our computer models are out the window.'' So this 
is a real concern, in terms of the road closures, access into 
our public lands, and we are seeing this accelerate, and we 
would love to be able to visit with you more on this issue, and 
to be able to get your cooperation for our local areas.
    Another area that is of interest for our particular 
district is the--and it goes back, actually, to Mrs. 
Napolitano's comment in regards to clean water. We have the--
Reclamation knows of the Arkansas Valley Conduit, and offers an 
effective regional answer to be able to deliver clean drinking 
water down into Southeastern Colorado. And will Reclamation 
commit to carry over the next fiscal year any unobligated funds 
for the project from prior appropriations to strengthen the 
fiscal year 2015 budget request to ensure that this vital 
project from my district does continue?
    Mr. Connor. Typically, Reclamation--that is a separate line 
item in Reclamation's account, and we typically carry over 
those funds for that specific purpose.
    Mr. Tipton. Great. And in regards to the hydro development 
power, as you are aware, we passed the Small Hydro Electric and 
Jobs Act, signed into law. It has been law now for 8 months, 
and I think a very good opportunity to be able to create clean 
energy.
    Do you have any information on the number of projects that 
are currently under consideration, and what you are doing to be 
able to accelerate their development?
    Mr. Connor. We have--first of all, I would like to say 
thank you for your leadership in working with us on those 
provisions. We have revised our lease of power privilege 
process, in accordance with the legislation, as it has been 
enacted. Beforehand, we had also revised the regulatory 
structure so we would have clarity on how to move forward. So 
that has spurred a lot of interest. We have a lot of projects 
that are currently----
    Mr. Tipton. Just have one more, and I apologize, I am 
running out of time. If you will keep us updated on that, we 
would appreciate it.
    I would like to go on to the sage grouse issue. Is the 
Department going to be able to provide measurable species 
preservation goals, so our State and local officials can meet 
with them? I would love to have met with you, but when you came 
into my district we only found out 3 days in advance that you 
were coming. Otherwise, I would have been there.
    Secretary Jewell. I am going to answer that one for the 
record. We will get back to you with specific numbers and how 
that all works. I know that the COT Report from the Fish and 
Wildlife Service is what will govern the decisions made. I do 
believe that there are targets, but I need to get back to you 
with specifics.
    Mr. Tipton. We would love to be able to know those numbers, 
so that we have something actually to shoot at. When we are 
looking--having 11 States encompassed, if we have full recovery 
in the State of Colorado, but we are still in that full 
recovery of 11 States, we have had remarkable progress at the 
State, the local, the community level to be able to achieve 
that, and----
    The Chairman. The time of the gentleman has expired.
    Madam Secretary, Mr. McAllister was tied up in another 
meeting, and he promised me that his remarks would be very, 
very short. Would you entertain Mr. McAllister?
    Mr. McAllister, you are recognized. From Louisiana.
    Mr. McAllister. Thank you so much, Madam Secretary, I 
appreciate it. It is a real quick--it is kind of a two-part 
question, but it is real simple, and nothing much to it, other 
than I need an answer.
    The Bureau of Safety and Environmental Enforcement, the 
BSEE Administration, the administration of the post-Macondo 
drilling safety rule has resulted in drilling timelines that 
are more than double what we see elsewhere around the globe for 
comparable activities. This long timeline is estimated to add 
additional costs over $26 million per well. While I am sure 
that some of the larger companies are able to handle their 
increases, my concern is with the numerous small companies that 
this burden weighs heavier on. I don't think we will have found 
an easy solution to these post-Macondo regulatory concerns, but 
the pending BOP rule could help or hurt the situation.
    So my question, Madam Secretary, is when does BSEE plan to 
introduce the BOP, the Blowout Preventer Rule? Because 
companies need to clarify certainty for operating in the Gulf 
of Mexico, and it is hard to plan for long-term operations 
without understanding where the regulatory regime will stand 
over the next couple of years. So what are the scope of 
changes, the BOP requirements being considered? And will this 
new rule require the retirement of the existing blowout 
preventers?
    Secretary Jewell. Thanks for the question. I will check 
back on the exact date. I am not sure they have released a 
date. I do know they are working actively and taking comment on 
the blowout preventer rule. Some of the things that they are 
considering, for example, is the rule appropriate to require 
double-blind shear rams, or do you just need to make sure that 
the BOP can actually sheer the pipe that you have.
    Mr. McAllister. Right.
    Secretary Jewell. Those are the kinds of things that they 
are taking into account, because new technologies are evolving.
    I will say that I recognize that, as the larger operators 
move off some of the more mature fields, and smaller operators 
come in, that it is still important those smaller operators 
operate safely and responsibly. And sometimes they don't have 
the resources accessible to them to the larger players. But we 
have seen several shallow-water incidents that have provided 
some concern. And BSEE is working alongside the IPAA and 
industry, as well as the API, on thoughtful regulations that 
they believe are necessary to make sure that your resources in 
the Gulf are protected.
    Mr. McAllister. Well, I know the rule has been pending over 
a year. Do you think maybe summer 2014 we will get an answer, 
or----
    Secretary Jewell. I will have to check with them on where 
they are, in terms of a date.
    Mr. McAllister. OK.
    Secretary Jewell. I don't know of a specific date that they 
have. But I know they are working hard on it.
    Mr. McAllister. And then just the second part of that is, I 
am hearing the cost impacts from some of the post-Macondo 
regulations in the Gulf of Mexico appear to be much higher than 
the Department's original estimates. And are you taking any 
steps to better account for the cost impacts for future 
administrative rules, such as the pending BOP rule, of what it 
is going to cost, compared to what the projections were?
    Secretary Jewell. Well, Congressman, I--everybody learned a 
painful lesson with Macondo.
    Mr. McAllister. Right.
    Secretary Jewell. And what we are trying to do is bring the 
best available technologies that are there. And I think, given 
the cost of these drilling operations, making sure that we have 
the best available technology on things like blowout preventers 
is a relatively small cost to the total that they are spending 
on the leases and the drilling activity and the production. So 
we certainly recognize it is expensive. We don't want to add 
unnecessary burden, but we do want to make sure that we are 
doing our job.
    And so, we have very, very knowledgeable people working on 
this, alongside industry, to make sure that there is an 
appropriate balance.
    Mr. McAllister. Well, I appreciate that. And that is the 
only thing, is just to make sure that we know we are projecting 
the right costs of what they are going to be by learning from 
our mistakes, and not assuming that it is going to be a lot 
less and--I mean you know some of the numbers that it came out 
to be. And so it is the reality of the world that we live in, 
but we just have to be honest with each other about what it is 
going to cost, so we can make proper adjustments to do it.
    So I thank you so much for taking--I had to beg Chairman 
Hastings to let me ask you those couple of questions, and he 
didn't want to. So he was on your side. But thank you so much, 
and I yield back the balance of my time.
    The Chairman. Well, I thank the gentleman, and I noted that 
he asked his question in the right timeframe, and you took more 
time to answer his question so, therefore, that is the way it 
all worked.
    Madam Secretary, Mr. Connor, thank you very much for being 
here. Many times these hearings prompt newer questions that 
come up. That may happen. And in fact, I am sure it will 
happen. And if you could respond in a timely manner, I would 
appreciate it. I know Mr. Flores wanted his responses within 7 
days. He said that three or four times, and if you could comply 
with that, we would appreciate that very much.
    If there is no further business to come before the 
committee, the committee stands adjourned.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    <bullet> DOE Task Force Report submitted by Mr. Lowenthal

                                 <all>
</pre></body></html>
